<html>
<title> - THE HAGUE CONVENTION ON PROTECTION OF CHILDREN AND COOPERATION IN RESPECT OF INTERCOUNTRY ADOPTION: TREATY DOC. 105-51 AND ITS IMPLEMENTING LEGISLATION S. 682</title>
<body><pre>[Senate Hearing 106-257]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-257
 
   THE HAGUE CONVENTION ON PROTECTION OF CHILDREN AND COOPERATION IN 
     RESPECT OF INTERCOUNTRY ADOPTION: TREATY DOC. 105-51 AND ITS 
                    IMPLEMENTING LEGISLATION S. 682

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 5, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                     U.S. GOVERNMENT PRINTING OFFICE
60-674 CC                    WASHINGTON : 1999




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Cox, Susan Soon-Keum, Vice President, Public Policy and External 
  Affairs, Holt International Children's Services................    33
Federici, Ronald S., Psy.D., Clinical Director, Psychiatric and 
  Neuropsychological Associates, P.C., Alexandria, Virginia......    11
    Prepared statement...........................................    13
Harding, Tomilee, Executive Director, Christian World Adoption 
  and President, Joint Council on International Children's 
  Services.......................................................    20
Helms, Hon. Jesse A., U.S. Senator from North Carolina and 
  Chairman of the Committee......................................     1
Holtan, Barbara, M.A., M.S.W., Director of Adoption Services, 
  Tressler Lutheran Services, York, Pennsylvania.................    17
    Prepared statement...........................................    18
Landrieu, Hon. Mary L., U.S. Senator from Louisiana..............     6
    Prepared statement...........................................     7
McDermott, Mark T. Esq., Legislative Chairman, American Academy 
  of Adoption Attorneys..........................................    22
    Prepared statement...........................................    24
Ryan, Mary A., Assistant Secretary of State, Bureau of Consular 
  Affairs; accompanied by Jamison Borek, Deputy Legal Advisor, 
  Department of State............................................     3

                                Appendix

Additional Material Submitted to the Committee for the Record....    45

                                 (iii)

  


  CONVENTION ON PROTECTION OF CHILDREN AND COOPERATION IN RESPECT OF 
    INTERCOUNTRY ADOPTION: TREATY DOC. 105-51 AND ITS IMPLEMENTING 
                           LEGISLATION S. 682

                              ----------                              


                        TUESDAY, OCTOBER 5, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:33 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms, 
chairman of the committee, presiding. Present: Senators Helms 
and Smith. Also Present: Senator Landrieu.

  OPENING STATEMENT OF HON. JESSE A. HELMS, U.S. SENATOR FROM 
                         NORTH CAROLINA

    The Chairman. Ladies and gentlemen, first of all, let me 
personally welcome all of you who are attending this hearing 
this morning in addition to the witnesses who appear. It 
indicates an interest on your part, which I think is very, very 
significant. And I thank you for being here.
    Today, the Committee on Foreign Relations will hear from a 
distinguished group of experts in the field of international 
adoption. The focus will be on the questions of whether the 
United States should ratify the Hague Convention on Protection 
of Children and Cooperation in Respect of Intercountry 
Adoption. And that is a long title for a significant proposed 
agreement now pending before our committee, along with 
legislation that I introduced, along with Senator Mary 
Landrieu, of Louisiana, I think it was last March, to implement 
the Treaty.
    Now, I am pleased that Senator Landrieu cares about 
adoption and is participating in this important hearing. This 
distinguished lady Senator from Louisiana and I agree that this 
Treaty and legislation must remain linked as we consider 
intercountry adoption issues during this 106th Congress.
    Recent statistics reveal that in 1998, almost 15,800--
15,774 to be exact--children were adopted by Americans from 
abroad. The majority of the children were brought to the United 
States from Russia, China, Korea, and Central and South 
American countries. And, like many others, I strongly support 
adoption and believe international adoption represents a 
growing avenue for children without families, let alone 
adequate resources, to be given a home by parents who wish to 
live with, love, and adopt these children.
    However, it is important to bear in mind that health-
related problems from children adopted abroad are increasingly 
coming to light, raising questions about the adequacy of 
preparation for adoptive parents. And I am convinced that 
increased collection of data and analysis of international 
adoptions, as called for in S. 682, will surely improve our 
understanding of these problems.
    Since States regulate domestic adoption, the oversight of 
international adoption has been lacking under United States 
law. Health problems, including psychological and emotional 
trauma, have led to a growing number of parents turning to 
health services of private agencies to take custody of their 
adopted children. And today's witnesses will address various 
aspects of those problems.
    In some instances, parents are not adequately prepared for, 
or have not been informed of, the health and emotional issues 
of adopted children. Only after adoption do some parents learn 
that the children suffer from symptoms of illnesses, such as 
fetal alcohol syndrome, particularly in children from the 
Soviet Union as it once existed, and now from Russia and the 
former Soviet Union.
    The Intercountry Adoption Implementation Act, S. 682, is 
intended to address some of these problems and bring 
accountability to agencies that provide intercountry adoption 
services in the United States. It will certainly strengthen the 
hand of the Secretary of State, by ensuring that U.S. adoption 
agencies operating abroad engage in efforts to find homes for 
children in an ethical manner.
    Agencies must be accredited to operate under the Treaty, 
and will receive accreditation only if they provide health 
records to parents, basic instructions for dealing with 
previously institutionalized children, and the preparation of 
parents for potential health and emotional issues. A secondary 
rationale for ratification and implementation of the Treaty is 
the ability to preserve international adoption as an option for 
parents in the United States.
    A number of countries are citing ratification of the Hague 
Convention and implementation of its requirements as a 
benchmark for permitting adoption agencies to continue 
operations in their countries. Some of today's witnesses will 
address the importance of Treaty ratification to ensure 
maintenance of their operations.
    In any event, the Treaty's minimal requirements are 
intended to provide a framework for ethical operation by 
adoption agencies, including the creation of a competent 
authority in Treaty countries to oversee international 
adoption. Now the competent authority in Senator Landrieu's and 
my bill, S. 682, will be the State Department. Therefore, this 
Department will have the final say in the multitude of 
questions that surely will arise.
    Under our bill, the States, not the Federal Government, the 
States, the 50 States, and not the bureaucrats in Washington, 
D.C., will continue to oversee domestic adoption. As a result, 
S. 682 puts the State Department in the lead, and does not 
concede the oversight of international adoption to the 
Department of Health and Human Services, as the administration 
has requested that we do.
    So, State Department consular officials are on the ground, 
working with adoption agencies and parents on a daily basis. 
And I think they are best able to monitor the activities of 
those adoption agencies.
    Let us ask the first panel member, the Hon. Mary A. Ryan, 
Assistant Secretary of State for the Bureau of Consular 
Affairs, to come and sit at the witness table. And you may 
proceed, ma'am. We are glad to have you, and appreciate your 
coming.

STATEMENT OF MARY A. RYAN, ASSISTANT SECRETARY OF STATE, BUREAU 
OF CONSULAR AFFAIRS; ACCOMPANIED BY JAMISON BOREK, DEPUTY LEGAL 
                  ADVISOR, DEPARTMENT OF STATE

    Ms. Ryan. Thank you, Mr. Chairman.
    Mr. Chairman, I am really delighted to be here today to 
have the opportunity to discuss international adoption and the 
1993 Hague Convention on the Protection of Children and 
Cooperation in Respect of Intercountry Adoption. With me today 
from the Department of State's Office of the Legal Advisor is 
Jamison Borek, the Deputy Legal Advisor, in case you should 
have questions that are better answered by an expert attorney.
    I would like to thank you personally, Mr. Chairman, for the 
interest you have shown in the Convention and in its 
implementation. I would also like to commend all the staff who 
have worked so diligently on this effort. Both the implementing 
legislation you have introduced and the administration's 
proposed legislation were prepared with the best interest of 
children in mind. And while there are some difference, there 
are many similarities between our two proposals.
    The welfare and protection of American citizens is the 
State Department's highest priority. This includes American 
parents building families through international adoption, and 
American children finding families abroad through international 
adoption. We want to ensure that our children are protected 
once overseas, and that those brought to our shores and their 
adoptive parents are equally protected. These are concerns that 
you, Mr. Chairman, and you, Senator Landrieu, have voiced, and 
that many Members of Congress share.
    The United States, particularly since World War II, has 
opened its arms to orphaned and abandoned children around the 
world. And many Americans have looked to international adoption 
to build American families and to provide a better life for 
these children. These families are as diverse as America 
itself, including extended families, married couples, 
multicultural families, and single-parent households.
    Since 1995, more than 98,000 children have been adopted 
from South Korea alone. In the 5-year period, 1976 to 1981, 
more than 5,000 South American children were adopted by 
Americans, almost 80 percent of them from Colombia. Since 1992, 
over 15,000 children have come from Russia, 3,900 from 
Guatemala, and 11,500 from China. We can only expect the 
numbers to increase.
    Families throughout the United States have been enriched by 
these children who have grown up to become business leaders, 
doctors, lawyers, teachers, and community leaders. Some of 
these children have devoted their lives to giving children like 
themselves a chance to grow up in loving families.
    Sadly, however, along with all the positive benefits of 
international adoption, I must acknowledge that there have been 
some abuses. This fact ultimately prompted 66 countries to 
convene in The Hague to prepare a convention to provide 
standards for intercountry adoptions which would protect the 
children, their birth parents and their adoptive parents. 
Intergovernmental negotiations on what became the 1993 Hague 
Convention on Intercountry Adoption began in 1991.
    The drafters of the Convention believe that a properly 
safeguarded international adoption offered a better alternative 
for the care of an orphaned or abandoned child than 
institutional care in the child's country of origin. The 
Convention was the first international stamp of approval for 
the concept of intercountry adoption. It is designed to ensure 
that adoptions will take place when they are in the child's 
best interest, and that the abduction and trafficking in 
children, and other abuses like that, will be prevented.
    In the years before negotiations began, and throughout the 
lengthy deliberations, the United States delegation sought 
guidance from the adoption community, including adoption 
agencies, lawyers, social workers, and adoptive parents. 
Representatives from the U.S. adoption community were on our 
delegation through preparatory sessions. Following endorsement 
by U.S. adoption interests and the American Bar Association, 
the United States signed the Convention in 1994.
    Since its adoption, 35 countries have either ratified or 
acceded to the Convention, and 12 others have signed. This 
makes it perhaps the most quickly and enthusiastically accepted 
Hague convention in more than the 100-year history of the Hague 
Conference.
    The Convention requires that certain determinations, such 
as adoptability of the child, eligibility to emigrate, parent 
suitability and counseling, be made before adoption can 
proceed. Every country must establish a national government-
level central authority. Every country must establish a 
national government-level process for uniform screening and 
authorization of adoption service providers. And certified 
Convention adoptions must be recognized in all other party 
countries.
    The Convention also imposes requirements that protect the 
child's welfare throughout the adoption process. Under the 
Convention, a mechanism will be in place to track outgoing 
Hague adoption conventions, providing a level of protection 
previously unavailable to U.S. children taken abroad for 
adoption.
    After we signed the Convention, State, the Immigration and 
Naturalization Service and the Department of Health and Human 
Services continued to consult with the private adoption 
community, with parents, with lawyers, and with other 
professionals on the general concepts of the proposed Federal 
implementing legislation. The resulting administration bill was 
sent to the Congress in June 1998, and submitted once again 
with very minor changes in May 1999.
    I would like to thank those from the other government 
agencies and from the private sector who contributed to this 
cooperative effort to create legislation. Both the Helms-
Landrieu bill, S. 682, and the proposed administration 
implementing legislation would place the central authority in 
the Department of State, where it would be located in the 
Bureau of Consular Affairs' Office of Children's Issues.
    It would task the Department of State and the Immigration 
and Naturalization Service to develop a case tracking system 
for all adoptions of children coming to the United States and 
for all Hague adoptions of children leaving the United States. 
It would allow the use of private, nonprofit entities to do 
peer review and the actual accreditation and approval of U.S. 
adoption service providers for intercountry adoptions. And it 
would address the funding of the Department of State's 
functions, to ensure that adequate resources exist for the 
effective performance of its functions as the central 
authority.
    There are of course differences in the two bills, one of 
which you mentioned, Mr. Chairman. And an important difference 
is the designation of the agency with responsibility to 
establish and to monitor these accreditation and approval of 
intercountry, or international, adoption service providers.
    We are very grateful to you, Mr. Chairman, and to you, 
Senator Landrieu, for the confidence that you have placed in 
the State Department. But we really believe that the Department 
of Health and Human Services, the Federal Government agency 
with relevant experience in evaluating and working with 
domestic adoption programs and with social service providers, 
is better suited to handle this function than is the Department 
of State.
    Just as we are concerned for our children who must leave, 
or who may leave the United States, in connection with their 
adoption, so have other sending countries expressed concern 
that their children will be properly protected by adoption 
service providers in receiving countries, including in the 
United States. In the vast majority of these countries, public 
social welfare authorities are responsible for issues regarding 
adoption. These authorities and their governments will be 
reassured to have the Department of Health and Human Services, 
a recognized player in the provision of social services, 
charged with the oversight for the accrediting of adoption 
service providers for intercountry adoptions.
    The world will watch how the United States implements this 
Convention and how it protects its children, birth parents and 
adoptive parents. Several of the largest source countries have 
indicated to us that they are looking to us to ratify and to 
implement the Convention quickly, and that they plan to model 
their own programs after ours. This latter point is 
particularly important as it bears directly on the ability of 
American parents to adopt abroad.
    Mr. Chairman, we are pleased that you and members of this 
committee and Senator Landrieu have taken such an interest in 
this Convention that will benefit children and their birth and 
adoptive parents. Americans adopt more children internationally 
than any other countries. Our citizens will benefit the most 
from the safeguards of this important Treaty.
    We believe it is crucial now that the Senate provide advice 
and consent to the United States ratification of the Convention 
and that the Congress pass implementing legislation. We are 
eager to work with the Congress and the adoption community to 
safeguard and to facilitate intercountry adoptions for all of 
those qualified, and to bring children and parents together to 
bond as quickly as possible.
    Mr. Chairman, this concludes my statement. Thank you for 
the opportunity to appear before you this morning.
    The Chairman. And a very fine statement it is, Madam 
Secretary.
    We have now been joined by the lady of the hour. And I can 
say frankly and honestly that there is nobody in the Senate 
whom I admire or respect greater than I do Mary Landrieu. I 
know you must have an opening statement, and you may proceed. 
By the way, Mary is not a member of this committee, but I 
insisted that she come here and act like one.
    [Laughter.]
    The Chairman. She is running this show, really.
    You may proceed.

              STATEMENT OF HON. MARY L. LANDRIEU,
                  U.S. SENATOR FROM LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman.
    I want to begin by thanking you, Mr. Chairman, for all the 
treaties pending before this very important committee and you, 
our ranking member, and the members of this committee for 
taking time this morning to discuss this issue. I want to thank 
you for putting the needs of the children in our country and 
the world first, and giving us 2 hours this morning to try to 
move this process along.
    And I want to thank you, Madam Secretary, for your 
testimony, and thank you for being so welcoming and generous 
when I first arrived to the Senate, in our meeting on this 
subject over 2 years ago.
    I do have an opening statement; however, I wish to keep my 
remarks short, because I am very interested in hearing from the 
experts who have come to share their insights with us today. 
Mr. Chairman, I have read their testimony in advance of the 
meeting; and I would just like to make a few comments that I 
think are important in setting the stage for this morning's 
hearing.
    To all those following this treaty and its progress, I want 
to say that the United States is as interested in our children 
being adopted, and recognize that we have many challenges here 
in the United States in our domestic adoption arena. This 
Congress and administration, have taken extraordinary steps in 
the last couple of years to make sure that in our own country, 
every child has a home, a loving home, parents to raise them. 
We acknowledge in the United States that a home is a much 
better setting, or a family, than an institution.
    I have been questioned by people in the international 
community, asking why are we so focused on international 
adoption and not on domestic? I want to make clear that we are 
focused on both. In the United States, we not only believe that 
every child in the United States deserves a home but also every 
child in the world.
    Of course, as outlined by The Hague, which is one of the 
most wonderful things about it, Mr. Chairman, the first place 
to try to find a home for a child would be in their country of 
origin. If that is not possible, for whatever reason, then that 
child should be allowed to be adopted outside of the country, 
as opposed to having them spend their life in a hospital or an 
institution. A hospital of institution is not a very good 
setting in which to raise a child. No matter how wonderful the 
care can be, no matter how good it could be and how well it 
could be provided, it is no match to what a family could 
provide.
    In addition, as the Secretary has mentioned, the other 
fundamental goal here is to establish a legal system for the 
international community, a system that can be trusted, a system 
that can have safeguards to prevent fraud and abuse and 
corruption, and exorbitant fees often associated with 
international adoption. Such factors are real psychological 
barriers and legal barriers to finding a home for every child.
    And we have, as you know, Mr. Chairman, because you have 
provided a home for one of these children and I have provided 
homes for two, millions and millions of children without 
families. These barriers most come down in order for the good 
people in this room to do the work that I believe God has 
called them to do and which they are all doing so well.
    And with that said, I am just anxious to hear the testimony 
of those who have joined us today. I will end with this. We 
know that the bill we have drafted is a good bill. We had a lot 
of input on it, and from that input we know it is not perfect. 
We hope this morning we will hear some ways that our bill can 
be perfected, it can be improved.
    We recognize that is the political process, that we can 
hopefully improve on this work and come out at the end with the 
best document that we can come out with. A bill that will 
reduce the barriers, promote international adoption and provide 
the safeguards that we all want.
    So I thank you very much. I thank you, Mr. Chairman. I have 
a more formal statement to submit at the end of the hearing 
this morning.
    Thank you.
    [The prepared statement of Senator Landrieu follows:]

             Prepared Statement of Senator Mary L. Landrieu

    I would like to take this opportunity to thank the Chairman, the 
ranking member from Delaware and other members of the Foreign Relations 
Committee for making room in your busy schedule for this important 
hearing. In addition, I would like to personally thank each of the 
witnesses here today, who have come to share with us their personal 
stories and their expertise in international adoption. I am confident 
that their experiences and insights will help us to improve this piece 
of legislation. We know that it is not perfect as written, but it is 
our hope that we can work together to make it as close to perfect as we 
can.
    In my office, next to my desk, I keep a copy of a print I am 
certain many of you have seen before, which is entitled ``priorities.'' 
It depicts a small child playing in a bed of flowers. Its inscription 
reads ``one hundred years from now, it will not matter what my clothes 
look like, what car I drive, or how much money is in my bank account, 
but the world may be a bit better because I made a difference in the 
life of a child.'' Today, this hearing is about making a significant 
difference in the life of not one child but in the lives of millions of 
children and families in the U.S. and around the world. It's about 
making sure that the welfare of children is an international priority.
    Perhaps, the most significant aspect of the Hague Convention on 
Intercountry Adoption and its implementing legislation is that it 
ensures that a legal system exists in which the best interests of 
children are of the utmost priority. Furthermore, for the first time, 
the international community has formally acknowledged that a family can 
better serve the needs of a child than a hospital or institution.
    In crafting Senate Bill 682 as he did, the chairman maintained the 
treaty's focus on the best interest of the child and adapted its 
requirements to work in the United States. This was not an easy task. 
As many of you know, in the United States, issues of children and 
family are primarily dealt with by state law. Therefore, implementation 
of the Hague Convention involved more difficult legal political 
coordination questions for the United States than for other countries 
which have a more legal governmental system.
    It is our responsibility, as the delegates at the convention did 
before us, to work honestly through our differences in how we believe 
each title would be written, and commit ourselves to ratifying this 
treaty. Too much time has passed already. The United States has always 
been a leader in the protection of human rights and dignity. Yet, 
twenty seven other countries have ratified the Hague and nine have 
acceded to it. It has been over five years since the U.S. signed the 
treaty. We cannot afford any more time to be lost. We must once again 
establish ourselves as a leader in this important process.
    Our delay in ratifying this treaty has caused other countries to be 
concerned when allowing their children to be adopted by our citizens 
and understandably so. These countries are entrusting American families 
with their most precious resource--their children. As other countries 
continue to ratify the Convention, they agree to place children for 
adoption only with countries that offer the same protections. Further 
delay or failure to ratify and implement the treaty could result in 
thousands of American families without the opportunity to adopt from 
abroad.

    The Chairman. Thank you very much.
    Before we call the next panel, I want you to meet one of 
the attorneys of the Foreign Relations Committee. You stated 
the understanding on the time. Could you use the microphone and 
state that for the record?
    Ms. McNerney. Yes sir, when we get to the private panel we 
will allow each of the witnesses five minutes to provide 
testimony..
    The Chairman. But you talked about the red light.
    Ms. McNerney. Yes, we will be turning on the light in front 
of the chairman. So when it hits red, your 5 minutes are up.
    [Laughter.]
    The Chairman. We have to do that because sometimes you run 
across people who will go 15 or 20 minutes over time. And that 
fractures whatever orders you have made of your agenda up to 
then. Thank you very much.
    Do you have questions?
    Senator Landrieu. No. I am fine.
    The Chairman. Well, let me see if I do not have one.
    The State Department, I believe you said, currently 
oversees intercountry adoptions and assigns caseworkers for 
this purpose. Does the Department of Health and Human Services 
currently have any responsibility for intercountry adoption? 
And I know the answer to that one.
    Ms. Ryan. Yes, Mr. Chairman, you know the answer to that. 
That is no. But they have a network in the United States 
already in existence that does accreditation in the health 
field. And so they have the experience domestically which we do 
not have. We are not a domestic service agency. We are foreign 
affairs. And we do foreign affairs. We do not do accreditation 
of domestic organizations.
    And my concern, Mr. Chairman, is that if this bill passes, 
your bill passes, and we get this responsibility, we will do 
the best we can to carry it out, but there are opportunity 
costs that come into play here. And that is the time it will 
take us to gear up to do it, to startup to do it, because we do 
not have the experience. So we would have to get people. We 
would have to have more staff. And we would have to develop the 
experience. And this is going to take time. And that is my 
concern--that the time spent doing this could be time that HHS 
would be already doing the accreditation, whereas we are 
learning how to do it. And that is the problem that I have with 
it, sir.
    The Chairman. Well, the point I wanted to emphasize, and if 
you will pardon the intrusion of the word ``baby,'' this is the 
State Department's baby and not any other Federal agency--if 
the record will show that. At least that is the intent of this 
author of the bill.
    Will the Convention prohibit improper payments to 
government officials anywhere?
    Ms. Ryan. Yes, it does, sir.
    The Chairman. Such payments, I think there were some under 
certain circumstances before, but they were clearly a violation 
of the Foreign Corrupt Practices Act.
    As of August 26th of this year, 26 countries, I believe you 
said, had ratified the Convention and nine had acceded to it. 
Of the top 20 countries sending orphans to be adopted in the 
United States in 1998, only Romania, Colombia, the Philippines, 
Mexico, Brazil, and Poland are parties to the Convention; is 
that right?
    Ms. Ryan. That is correct, sir.
    The Chairman. The top five countries for adoption, Russia, 
China, South Korea, Guatemala, and Vietnam, they have not even 
signed the Convention yet, have they?
    Ms. Ryan. They have not, sir. It is our belief that they 
are waiting to see what we do, and that they are going to 
pattern their own development of the mechanisms for the 
Convention based on what we are doing.
    The Chairman. Well, I certainly hope that is the case. And 
as the Treaty takes effect, do you expect that adoptions will 
increase in countries that are party to the Convention?
    Ms. Ryan. Yes, I believe they will, sir.
    The Chairman. And will they decrease among the non-parties?
    Ms. Ryan. That is hard to say. I do not know. I really do 
not know.
    The Chairman. I do not know if there is any way to tell 
that except with a crystal ball. And I do not have mine with me 
this morning.
    [Laughter.]
    The Chairman. Do you believe parents adequately understand 
the risk when they travel to areas like the Caucasus?
    Ms. Ryan. When they travel to areas like?
    The Chairman. To the Caucasus?
    Ms. Ryan. No, Mr. Chairman, I do not believe that they 
understand the risks. In some cases, we have had some parents, 
our Embassy in Moscow has reported to us, that some parents 
were actually going to try to go into Chechnya to look for 
children. Which is, as you know, there is a state of war 
between Russia and Chechnya. And we find that extremely 
dangerous.
    But what it does show, I think, Mr. Chairman, is the 
generosity, the great heartedness of the American people in 
going into very risky areas to find children at risk. Every 
time that there is a crisis in the world, our Office of 
Children's Issues is inundated with calls from people who want 
to know how to adopt the children in that particular country, 
whatever country it is. And I can only stand in admiration of 
American people who do things like that. I mean it is just 
remarkable.
    The Chairman. The U.S. Ambassador to Russia, Jim Collins, 
sent me a cable the other day. He warned that despite warnings 
from the Embassy and a policy to prohibit even State Department 
travel to the Chechnya, North Ossetia--I do not even know where 
these places are--Dagestan, and Ingushetia--where in the heck 
is that?
    [Laughter.]
    Senator Landrieu. Somebody should know.
    The Chairman. Do you know?
    Ms. Ryan. No, sir, I do not. I mean it is somewhere in the 
former Soviet Union, but I do not know where exactly it is.
    The Chairman. The Ambassador indicated that in the last 4 
years, four foreigners were kidnapped and decapitated in that 
region. And he said, you better watch out. And let me see, I am 
trying to cut down on this because I know you are a busy lady.
    Do you believe that this Convention will eliminate 
unnecessary bureaucratic steps?
    Ms. Ryan. I hope so, Mr. Chairman.
    The Chairman. What can be done to facilitate customer 
service at the INS?
    Ms. Ryan. Mr. Chairman, I am sorry, I am not going to touch 
that.
    Senator Landrieu. That is a loaded question, Mr. Chairman.
    [Laughter.]
    The Chairman. I thought I would get a rise out of that.
    [Laughter.]
    The Chairman. You are mighty nice to come.
    Do you have questions?
    Senator Landrieu. Just a comment. As the chairman stated, 
he feels very strongly about the role of the State Department, 
and I was hoping that maybe you would have a suggestion about, 
given that, a way of a partnership arrangement perhaps between 
the State Department and Health and Human Services. Because 
both agencies, if either one were designated, would have to 
contract some of this work out anyway.
    So perhaps while the time may be short this morning, the 
State Department could think about some sort of partnership. 
Because I think the chairman feels very strongly about this. 
And even if we have to provide some additional staffing, I 
think this committee is of a mind to do that, at least 
initially. So perhaps you could give some thought and maybe 
submit something back in writing or communicate.
    Ms. Ryan. Thank you, Senator. We certainly will do that. 
Thank you very much.
    The Chairman. Thank you so much, Madam Secretary. We would 
be glad for you to stick around if you have time. If you want, 
you could do it. I would invite you to come up here and pretend 
you are a Senator.
    [Laughter.]
    The Chairman. Seriously, thank you very much for coming.
    All right, now panel two, Dr. Ronald S. Federici, Clinical 
Director, Psychiatric and Neuropsychological Associates, of 
Alexandria, Virginia; Ms. Barbara A. Holtan, Director of 
Adoption Services, Tressler Adoption Services, York, 
Pennsylvania; Mrs. Tomilee Harding--this is a special lady from 
my home State--Tomilee Harding, Executive Director, Christian 
World Adoption, from Hendersonville, North Carolina, which is a 
beautiful part of our State; Mr. Mark T. McDermott, Legislative 
Chairman of the American Academy of Adoption Attorneys in 
Washington; and Ms. Susan Soon-Keum Cox, Vice President of 
Public Policy and External Affairs, Holt International 
Children's Services, Eugene, Oregon.
    What a distinguished looking panel.
    Senator Landrieu. A wonderful group.
    The Chairman. And, Ms. Mary, before I forget it, I do not 
know about you, but I am so delighted to see all of these other 
people who are here this morning. That is a measurement, I 
think, of the interest and the desire to make sure that this 
kind of thing, which all of us are so much concerned with, is 
done right.
    Senator Landrieu. Absolutely. I want to thank them, too.
    The Chairman. Let me take the liberty of saying this lady 
is a mother who has adopted children, beautiful children. And 
that is one of the reasons I like her.
    We will start on the left, which is the way the television 
cameras would see you, or the right. Anyway, we will start with 
you, Dr. Federici.

  STATEMENT OF RONALD S. FEDERICI, PSY.D., CLINICAL DIRECTOR, 
     PSYCHIATRIC AND NEUROPSYCHOLOGICAL ASSOCIATES, P.C., 
                      ALEXANDRIA, VIRGINIA

    Dr. Federici. Mr. Chairman, Senator Landrieu, it is a 
pleasure to be here. Committee members, thank you very much for 
allowing me the opportunity to testify.
    My name is Dr. Ronald Federici. I am a developmental 
neuropsychologist, which basically means I specialize in 
evaluating children with neurodevelopmental and psychiatric 
difficulties. I am Professor of Pediatrics and Neuropsychology 
and Child Development. I lecture extensively throughout the 
United States and internationally. And I am also an honorary 
member of the remaining Department of Child Welfare, because my 
medical team works extensively in Romania, working on the 
institution projects.
    I am also very proud to be the adoptive parent of four 
internationally adopted children, and have recently gained 
guardianship with two other children in Romania.
    My professional colleagues in international adoption 
medicine have basically designated me as the one who has seen 
the most difficult children. My estimate is that I have seen 
over 1,500 to 1,600 internationally adopted children who are in 
their school age years for various evaluations for neurological 
or psychiatric difficulties.
    Basically, I am speaking to the committee on behalf of my 
work and research, which I am also going to offer to the 
committee, as well as some other supportive documentation. And 
I am very proud to have many of the families and support groups 
here in the audience who I have worked alongside for many, many 
years, who would corroborate some of the difficulties that have 
surfaced regarding international adoptions and adoption 
practices.
    While I am not an attorney, my job is to be an investigator 
and work with the families to help them provide the most 
detailed assessment of their child's special needs, and also to 
help develop the most appropriate treatment plans to bring the 
child to their maximum potential.
    If I may just say that I have probably, in my research 
sample, and it is included in my testimony which the committee 
has already, we are organizing a very detailed research sample, 
in conjunction with Dr. Dana Johnson and the University of 
Minnesota, and Dr. Pat Mason, of Emory University, which should 
solidify all the data on the long-term effects of 
institutionalization regarding thousands of cases.
    In my one sample, which I have seen, which has been 
reported, of over 1,500 internationally adopted children, every 
one of them were informed by their adoption agency that they 
were healthy. All 1,500 of them were not healthy.
    I broke down the statistics in terms of by numbers. But if 
we were to look at approximations, 50 to 60 percent of the 
children had long-term chronic problems; 20 to 30 percent had 
refractory or chronic difficulties that would require lifelong 
care and probably a lack of independence on the part of the 
child; and less than 20 percent of our sample, which is 
corroborated now with an additional sample that I have provided 
from Emory University, since they have also done recent data 
collections, show that the children were able to be resilient.
    Again, sir, all of the children were advised by their 
agencies that they were healthy. The statements that were made 
consistently to me from the families, since I have had the 
opportunity to review a modicum of medical records, that to 
disregard the medical records, the children will be fine, they 
are slightly delayed, they need a loving home, they need care, 
health, hygiene, and everything would be fine.
    This turned out to be absolutely incorrect, at least in our 
assessment now of the older children, since what we are finding 
out about the long-term effects of institutionalization, from 
nutritional, medical and psychological neglect, which I have 
supplied some of the most up-to-date research from researchers 
across the country who would corroborate the findings, is that 
children from internationally adopted settings, regardless of 
age, are deemed a very high-risk population and require very 
special families to handle these cases.
    In my work with Romanian Secretary of State Tabacaru, he 
recommends that every child out of Romania receive a label as a 
handicapped child or a child at risk for delays.
    Some of the other critical issues that seem to come about 
is that the families were grossly ill prepared, overwhelmed. I 
have dealt with families who divorced, went bankrupt. Many 
relinquished their children. The majority of the families were 
in states of despair and depression, where they did not know 
how to deal with the situation of a, quote, healthy child.
    All families passed the home study. In my years, 20 years 
of practice, I have yet to see a family fail a home study. 
Several of the families that passed home studies were active 
alcoholics, drug addicts, out of prison, financially ill 
prepared, unemployed, and so forth and so on, where they were 
clearly not afforded a proper home study or psychological 
evaluation, which has, for the most part, been deleted as a 
critical part of the home study.
    I have now been called upon to be a participant in numerous 
litigations against agencies. I have served as an expert 
witness several times, and right now I am involved in eight 
different litigations against 10 different agencies.
    So, in summary, sir, there seems to be quality control over 
the preparation for the families. The families are very ill 
prepared. There seems to be some misinformation provided to the 
1,500 families who had, quote, healthy children, when all were 
impaired at some level, with many of the families wondering why 
they would pay so much money for a handicapped child.
    Thank you very much for allowing me the opportunity to 
testify.
    [The prepared statement of Dr. Federici follows:]

                   Prepared Statement of Dr. Federici

    I, Dr. Ronald Steven Federici, am a Board Certified Developmental 
Neuropsychologist and expert in severely delayed children, particularly 
children from post-institutionalized settings. I have been in 
professional practice for 20 years and have evaluated approximately 
1800 adopted and internationally adopted children. I am regarded as the 
Country's expert in the neuropsychological evaluation and treatment of 
the post-institutionalized child and lecture nationally and 
internationally on this topic. I am the author of ``Help for the 
Hopeless Child: A Guide for Families (With Special Discussion for 
Assessing and Treating the Post-Institutionalized Child)''. Also, I am 
the parent of six internationally adopted children; four of which 
reside with us in the United States and the other two I raise in their 
home country of Romania in which I maintain legal guardianship.
    I have been evaluating internationally adopted children since 
early-mid 1980's to present. I have evaluated approximately 1800 post-
institutionalized children and have collected extensive data which is 
now being reviewed and incorporated into a major research project with 
Dr. Dana Johnson at the University of Minnesota and Dr. Patrick Mason 
at Emory University. My preliminary data is referenced in my book and 
will be further outlined in my summary testimony.
    Families come to see me from all over the United States and now 
England and Ireland in order to receive my expertise in developmental 
neuropsychological evaluations. Virtually every family who has come to 
see me was informed by their adoption agency that their child was 
either ``healthy'' or had ``mild developmental delays which would 
improve with a loving and nurturing family''. I have reviewed thousands 
of medical and psychiatric records on these post-institutionalized 
children and have also heard thousands of the exact same story from 
families who have adopted regarding their experience with their 
international adoption agency.
    There is a very important point to be made here regarding the 
entire international adoption process, even prior to the child being 
placed. In my 20 years of practice and, most recently, the extensive 
work with internationally adopted children, I have yet to see a family 
fail a ``home study'' which was provided by the agency. For example, I 
have a family in which both parents were active alcoholics and in 
treatment, but were allowed to adopt two children. When I confronted 
them how they passed the home study, they openly informed me that their 
adoption agency told them ``we just won't put that in the home study''. 
I have many other cases in which it was clear one parent was mentally 
ill, or both had significant emotional and marital problems but yet 
passed the home study. I even have one case in which the father was out 
of jail for sexual offenses and passed the home study in order to adopt 
a child from Russia. Therefore, what is the purpose of a home study if 
it does not measure or adequately assess any psychological domains of 
the perspective parents or the agency will go as far as omitting 
important information.
    Specifically, all of the families who have come to see me have felt 
at the end of their patience and totally overwhelmed and frustrated. By 
the time families make it to my office, they have seen multiple medical 
and psychiatric providers who still have not been able to reach a 
conclusion or consensus regarding the type of illness or damage to 
their child. The families have consistently told me that they have 
brought their concerns to their international adoption agency, but have 
rarely--if ever--received any type of support, encouragement or even 
proper referral to those of us who are designated experts in 
international adoption medicine. Actually, many of the families were 
told to avoid specialists such as myself or others across the country 
as ``we would only find a problem with their child which was not true 
as the child just needed more time and love to adjust''.
    Most families sought out my services as well as specialty services 
from other international adoption specialists through the Parent 
Network for the Post-Institutionalized Child (PNPIC), Friends of 
Russian and Ukranian Adoptions (FRUA), word of mouth or by reading 
various articles I have published or my recently published book. 
Additionally, families with damaged internationally adopted children 
flock to conferences sponsored by the Parent Network which have now 
totaled over 17 across the United States and in the United Kingdom. In 
these conferences which I have co-sponsored and lectured, rarely do we 
see international adoption agency personnel. Actually, agencies avoid 
these conferences and avoid dealing directly with the significant 
problems that many post-institutionalized children experience.
    In my preliminary research statistics, based on a sample of 1500 
internationally adopted, post-institutionalized children, with an 
average age of 4.2 years and an average time in the institution from 
24-through-84 months, of the adoption agencies informed the families 
that the children were ``healthy or only mildly delayed which would 
improve with a loving family''. The medical records clearly indicated 
that the child showed high risk pre- and post-natal factors such as 
fetal alcohol exposure, prematurity, nutritional neglect, low birth 
weight, or just the damaging effects of living in a deprived 
institution. Also, there are frequently uncertain ``medical diagnoses'' 
put on the child's records such as perinatal encephalopathy, hypoxia or 
various other unusual terms. While the medical experts consistently 
state that these Eastern European diagnoses might not mean anything, 
caution is still provided to the parents. International adoption 
agencies frequently tell the parents to ``disregard the medical records 
from the country as they have to put something down in order for the 
child to be adopted out''. We are now finding that many of the true 
medical records may lack clarity or sophistication in diagnostic 
nomenclature, but are in fact correct in defining a child who is at 
high risk or ill at some level.
    The neuropsychological outcome factors of these 1500 children 
yields the following:

          1. 450 or approximately 30% of the sample had severe 
        neuropsychiatric disorders such as mental retardation, autism, 
        fetal alcohol syndrome, or chronic and long-term disabilities.
          2. 750 or approximately 50% of the sample displayed mild-to-
        moderate learning disabilities and developmental disorders 
        which required life-long special education, medical and 
        psychiatric interventions.
          3. 375 or approximately 20% of the sample displayed 
        relatively ``clean'' or benign neuropsychological and 
        psychological difficulties which would continue to improve over 
        the course of time and with the appropriate medical, 
        psychological and educational interventions along with routine 
        acculturation.

    Therefore, 80% of the children I have evaluated whose families were 
told by their agency that they were ``healthy'' were, in fact 
neuropsychiatrically impaired and would pose a financial and emotional 
burden to the family for life. I fully realize that families come to me 
for evaluation of problems, but if one provider such as myself has seen 
so many impaired internationally adopted children, there must be 
definite problems in the entire international adoption process 
beginning at the time of the child being identified in their home 
country (grossly inaccurate medical and psychiatric assessments). 
Additionally, it is absolutely inappropriate for international adoption 
agencies to tell families who are adopting children from such high risk 
countries such as Russia, Romania, Bulgaria, other Eastern European 
countries, India as well as Central and South America is that ``all 
children need is a loving and stable home and time to adjust''.
    Many of the agencies have recently published their ``research and 
surveys'' regarding internationally adopted children. In the most 
recent one completed by a Washington, D.C. agency, they touted that 
only ``less than 10% of the children had problems and that most were 
doing well''. Professional researchers and critics have totally 
disregarded these surveys as they are no more than ``content surveys''. 
Most families are happy they have a child which is the target of these 
surveys, but there is no real mention or assessment regarding the level 
of disabilities. Emory University International Child Clinic and the 
Parent Network for the Post-Institutionalized Child are now conducting 
a more professional national survey and finding completely contrary 
results from the Washington, D.C. based survey. It is very clear that 
proper professional evaluation of the internationally adopted child 
indicates that these children are a ``very high risk population''. Just 
for the Senate hearing records, I offered a modicum of professional 
input and proper neurological and psychiatric assessment surveys to the 
Washington, D.C. adoption agency who published the recent ``contentment 
survey'' that I am sure the agencies will discuss. I spent ample time 
in helping them formulate a proper research survey, but was informed by 
the Director (following a presentation regarding neuropsychological 
work with post-institutionalized children) that if ``she were to tell 
families everything that I have presented or given to their agency, 
that no one would adopt''. This sums up the issue and clearly shows 
that financial gain and increasing adoption numbers took priority over 
quality assurance and protection of the perspective adoptive family.
    The agencies maintain a ``wait and see philosophy'' and have rarely 
recommended to my families immediate and aggressive evaluation and 
treatment. Even when families take my neuropsychological or other 
medical data back to the agency in an effort to point out that their 
child is severely impaired or delayed, many agencies which I can 
specifically name and identify, have told families to disregard my 
evaluation and keep getting additional opinions with the hope of 
finding the child healthy and discredit my findings or those of my 
professional colleagues. It should be emphasized that by the time 
families come to me, I am, in fact, the last opinion or the one they 
count on the most based on my expertise and extensive experience with 
the post-institutionalized child.
    I am an Honorary member of the Romanian Department of Child 
Protective Services and President of the Romanian Challenge Appeal 
which is an international humanitarian aid organization. I have over 30 
medical specialists from all disciplines who have worked in Romania 
evaluating children in institutional settings. I have visited 
institutions all over the world, particularly Romania, and it is very 
clear that any child residing in such a deprived environment can and 
must be labeled ``high risk'' due to the multitude of environmental, 
medical, nutritional and deprivation risk factors which international 
adoption agencies grossly minimize when the families are in the initial 
stages of international adoption.
    A vast amount of my families have informed me that, when they went 
to the country to pick up the child, it was very clear that the child 
was sick and no where near the ``statement of health'' provided by the 
international adoption agency. Many families have also informed me that 
their child was switched at the last minute, or that their child was so 
sick that they doubted he or she would make it home. Furthermore, many 
of the families who adopted older children found the child to be 
completely out of control and were completely ill-prepared to deal with 
a violent and out of control child for the trip home.
    I have served as expert witness on several high profile cases such 
as the murder ease in Colorado where the mother murdered her 
internationally adopted toddler (Polreis case) in addition to the Thorn 
case where the parents were arrested in New York for allegedly abusing 
their two Russian toddlers who were out of control on the plane. I have 
been asked to serve as an expert witness multiple times by families 
filing suit against their international adoption agencies. In the cases 
I have participated in, international adoption agencies withheld or 
fabricated records, blatantly lied to the families regarding the health 
status of the child, or were involved in some type of scandal between 
the U.S. agency and the overseas NGO. I have personally witnessed 
lawyers obtaining the true medical records on the children in which the 
international adoption agency and NGO deliberately withheld. I have 
seen cases settle for millions of dollars. I have seen families being 
given a child who has Delta-D Hepatitis which is a terminal condition 
when they were told the child was perfectly healthy and passed the 
``exit medical examination'' in their home country in which the 
hepatitis would have been picked up immediately if it were a legitimate 
examination. In many of the cases, it was exceedingly clear that the 
agency withheld valuable information from the families which would have 
potentially changed their decision to adopt or prepare properly for 
adopting a special needs child.
    I have seen a multitude of families disrupt their adoption because 
they were no longer able to care for the child's financial and 
emotional needs. I have seen families separate and divorce, or engage 
in abuse of their child because the child exhibited grossly out of 
control and aggressive behaviors. I have evaluated children who have 
severe attachment disorders, neuropsychiatric conditions, sexual 
offenders, killers of animals within the home, and several children who 
have attempted to murder their siblings, parents or commit suicide. I 
have consistently watched families feel devastated and enraged with 
their international adoption agency who had promised them a ``healthy 
child''.
    There are few, if any, international adoption agencies who have 
provided adequate training for the high risk factors of the post-
institutionalized child. Follow up counseling or support from 
international adoption agencies is virtually non-existent.
    It has been my professional and personal experience that, when 
confronted, international adoption agencies maintain strong denial, 
deceit and manipulation when they are forced to deal with a family that 
has a damaged child. This is not an isolated occurrence, but a 
situation which has occurred thousands of times. I urge the Committee 
to consult with the Parent Network for the Post-Institutionalized Child 
(Thais Tepper and Lois Hannon, Directors), in addition to various other 
support groups around the country for families with internationally 
adopted children. It would also be worthwhile for the Committee to 
review the statistics of Tressler Lutheran Services in Pennsylvania as 
directed by Barbara Holtan. This program has handled many disrupted 
international adoptions and specialized in placing these very difficult 
children.
    In summary, and as stated in my book, international adoption 
agencies do a very poor job in preparing families for the high-risk 
post-institutionalized child. They maintain a position of denial and 
minimization regarding the damaging effects of institutional care and 
sell families the fantasy that a ``good loving home and time will cure 
all''. Yes, there are definitely many children who do well, but there 
is a very large percentage of families with damaged children. If I, 
myself, have seen nearly 2000 and the Parent Network for the Post-
Institutionalized Child has almost 6000 families having damaged 
children, and other organizations having thousands of their own damaged 
children and families, then there clearly is a need for better quality 
control on the part of the international adoption agencies.
    Furthermore, all of the families who have come to me have spent a 
minimum of $15,000-$20,000 to adopt their child which turned out to be 
special needs. As stated by the Romanian Secretary of State, Dr. 
Cristian Tabacarn, a Romanian adoption should cost no more than $4,000-
$5,000. Families are instructed to carry over large volumes of cash in 
``new bills'' by their adoption agency to hand to the overseas 
coordinator. This statement I can verify personally as I am the parent 
of six internationally adopted children and was instructed by my agency 
to carry over large sums of money in new bills and with specific 
denominations. There is no accounting for this money that is sent 
overseas and it is very clear that United States international adoption 
agencies are making vast sums of money on adoptions, even the ones who 
turned out to be handicapped.
    Agencies continue to resist working collaboratively with adoption 
medicine specialists, families, parent support groups, post-placement 
supportive programs. The problem continues in volumes as the number of 
internationally adopted children rises each year. There is no quality 
control or accountability that the agencies must be held to. There is 
no standard of care, operation, financial accountability or, most 
importantly, securing the most accurate, detailed and honest 
information provided to the families. Families adopting are very 
vulnerable and impressionable, and tend to believe the fantasy as 
opposed to a painful reality which is often the case.
    Despite numerous attempts on my part to educate and offer free 
training to any and all international adoption agencies, I have been 
discounted and under utilized. JCICS recently sponsored the first 
``International Medicine Adoption Conference'', but their practices 
continue as it was very clear that many of the agencies in the audience 
did not want to listen to the potential risk factors as this would 
limit their adoption numbers and profit. They asked for training and 
guidance, but turn around and do the same unethical and insensitive 
practices time and time again.
    Several agencies are under lawsuit at this time for fraudulent 
practice. I would be pleased to provide documentation of pending legal 
cases ranging from Oregon to Ohio to New York to Washington, D.C. to 
Florida to Texas to Arizona involving more than 10 different agencies. 
I continue to provide expert testimony and life planning for many of 
the children that I have evaluated that are severely impaired and for 
families that are in the process of suing their international adoption 
agency for fraudulent adoption practices. I have seen many cases settle 
before the court hearing, but the settlement is ``sealed'' per the 
request of the adoption agency, but I am aware of the settlement 
amounts and the legal document which were so clear in defining fraud 
and negligence. Currently, I have received requests from literally 
hundreds of families who wish they had the opportunity to tell their 
story to any governmental agency or regulatory body who may invoke some 
type of quality assurance or control over international adoptions. This 
is not just one or two angry families, but a very large cross-sectional 
group of well informed families. Many of these families were hoping 
their concerns would be heard at this type of Senate hearing.
    Without some form of governmental controls and monitoring, the 
problem will continue. International adoption agencies seem to have a 
difficult time in agreeing on how to ratify the Hague Convention as it 
is clear they do not want accountability or monitoring.
    Any area of medicine would be held accountable for their action. 
This is why we maintain a license which is subject to scrutiny by our 
State Boards. International adoption agencies have a license, but are 
not subject to any scrutiny or disciplinary action aside from the times 
they wind up in court--which is on the increase. The more handicapped 
or special needs internationally adopted children coming into the 
country will continue to provide a challenge to the ill-prepared 
family, their educational system, and to the medical and psychiatric 
specialists trying their best to deal with the problems. Most 
importantly, the financial strain on the families can and will result 
in more disrupted adoptions or the child receiving less than optimal 
services.
    With all of these factors in mind, it seems imperative that a 
strong governmental position be taken regarding international adoption 
agencies. Oversight, regulation, control regarding adoption practices 
and financial accountability is of paramount importance.

    The Chairman. Thank you, sir.
    Ms. Holtan.

STATEMENT OF BARBARA HOLTAN, M.A., M.S.W., DIRECTOR OF ADOPTION 
    SERVICES, TRESSLER LUTHERAN SERVICES, YORK, PENNSYLVANIA

    Ms. Holtan. Thank you. I am speaking to you today as an 
adoptive parent also. Our three children by adoption are now 
grown up and, I am happy to say, knocking on wood, they are 
doing fine.
    I am also an adoption professional for the last 20 years. 
And I have been working predominantly in the placement of 
special needs American-born children into families here in the 
United States. Our agency, Tressler Lutheran Services, works to 
find families for the kids waiting in foster care right now.
    We all know in this room, I hope, that adoption is a win-
win situation. No one is even suggesting that adoption is 
something that should happen or not happen. It just is, and it 
needs to continue.
    In our profession, however, as in I think every profession, 
sometimes folks get into it with less than stellar motivation. 
We have seen this in the last recent years in international 
adoption in particular, where people are doing this without the 
education and knowledge they should have. As a result, as Ron 
has mentioned, children are being placed into families who are 
ill prepared to receive them.
    In February 1994, Tressler Lutheran started receiving phone 
calls from families around the United States who had adopted 
Eastern European children, came home, and now felt they could 
not continue the adoption. They contacted Tressler because we 
have a national reputation for finding homes for difficult 
children.
    When these calls started, Senator, we were astonished at 
the numbers that started to come in. Since February 1994, our 
agency has been asked to find second families for 82 Eastern 
European children. Now, that may seem like a small number. But 
I went back in our statistics and, in the 10 years previous, we 
were asked to replace 18 internationally born children. And in 
the last 5 years, it has been 82. That is way too high.
    The three things that we would like to offer to you as ways 
to avoid the majority of these disruptions--there will always 
be some; as long as we are dealing with human beings, that is 
going to happen--but we can get the numbers down. And the first 
way to do it is good, solid preparation for the pre-adoptive 
families. Every agency that is placing adoptive children should 
be preparing their families. Tell them the negative as well as 
the positive. Nudge them along to think long term, as opposed 
to just the getting of the child.
    We must have people understand that the raising of them is 
equally as important as the getting. So family preparation, 
anything that can have agencies understand the importance of 
that we are for it. And this bill does address this.
    The second thing is that families must receive full 
disclosure on the children they are considering. That means 
material in English. It also means that they should be given 
sufficient time to consider the referral materials, to read 
about the child and make a lifetime commitment to him. We are 
told that some agencies give families 24 hours to make a 
decision of whether they want to adopt this child. That is 
totally beyond the pale.
    So, first, it is family preparation. Second is the full 
disclosure. And the third part is post-placement services. And 
that means that after the family comes home from Russia, 
Romania, wherever, the agency that was there in the beginning 
to help them form a family will be there for them after the 
fact, to help them as needed.
    At Tressler, we receive about 13 to 15 calls a month from 
old families who adopted from us 5 years ago, 10 years ago, 
needing something from us, needing some help. We respond to 
every single one of those calls. I believe that any agency, 
facilitator or attorney who is dealing with adoption must be 
available after the fact to be there for these families.
    Somehow we got the idea that internationally born kids 
would not have problems and difficulties. I do not know how we 
did that. We know that children in the foster care system have 
many, many long-term problems. What I would like to suggest, as 
did Ron, and I think others will as well, any child in a 
Russian orphanage is a special needs child. And the families 
who adopt him must be prepared for that.
    Thank you very much.
    [The prepared statement of Ms. Holtan follows:]

                  Prepared Statement of Barbara Holtan

    I speak to you as an adoptive parent and from the perspective of a 
twenty-year career as an adoption professional. Three of our 5 now 
grown children, Seth, Kimberly and Timothy, joined us by adoption from 
Vietnam and Korea. They are wonderful, functional adults now who have 
given and continue to give my husband and me great joy.
    My message to you is that adoption works. In the vast majority of 
cases, it is successful and provides a win-win situation for parents 
and children. We all benefit when a child finds a parent or two of his 
own to stand between him and the darkness of belonging to no one. As 
such, adoption should be encouraged and celebrated. There are excellent 
adoption agencies and professionals in the US working diligently to 
serve waiting children and they too should be celebrated and 
encouraged.
    Unfortunately, however, the adoption field, like all professions, 
can attract those with less than altruistic motivations and others who 
are enthusiastic but naive. International adoption, in particular, 
seems to have attracted more than its share of such individuals in 
recent years. Whether or not international adoption should continue is 
not the issue. How we can work together to improve it and bring all 
those engaged in it to Best Practice Standards is the issue.
    I am the Director of Adoption for Tressler Lutheran Services 
providing service to families in PA, DE and MD. Our primary mission and 
mandate for the 27 years of our program has been to find loving 
permanent families for children with Special Needs--predominantly 
children from the foster care system in the U.S. We have also 
participated in international adoptions throughout our history through 
partnership with other reputable and knowledgeable U.S. based agencies.
    Our history is long. Our knowledge base is significant. Our 
expertise is in preparing families for adoption and supporting and 
nurturing those adoptive families over time.
    In February of 1994, we began receiving calls from adoptive 
families around the country--families we did not know--had not worked 
with--who were strangers to us. They were desperate, angry, sad, 
frightened. They were asking TLS to find another family for their child 
by adoption since they felt they could not continue. They were turning 
to TLS due to our national reputation of finding families for hurt and 
emotionally fragile children.Since February of 1994, we have received 
calls such as this steadily. As of now, we have been asked to re-place 
82 children--all adopted from Eastern Europe by American families. 
Disruption is the term used to describe adoptions which are not working 
out resulting in the child needing to leave the family and hopefully 
enter into a second adoption. While 82 disruption requests in five 
years may seem small considering the thousands of children entering the 
U.S. via international adoption, it is important to note the following:

          (1) This is only a TLS number--There is no tracking mechanism 
        for disruptions nationally.
          (2) During the ten-year period previous at TLS we received 18 
        such requests--18 in ten years vs. 82 in five years.
          (3) All of the requests came from parents of Eastern European 
        born children--predominantly Russia, second Romania.

    These numbers are alarming to us. If TLS or another agency is 
unable to find a second family for these children, many will--and 
perhaps already have--enter the U.S. Child Welfare System. What have we 
accomplished in bringing the child from institutional care in Russia to 
end up in U. S. foster care system? The emotional toll on the parents 
and the children is enormous.
    As long as adoptions occur, there will be adoption disruptions. 
Every one is heartbreaking, but they are a reality since we are dealing 
with human beings. However, the numbers of disruptions can be lessened 
if all those involved in the placement of children for adoption do the 
following:

          (1) Provide good, solid, pre-adoption parent preparation and 
        education. This is vital in order for the adoptive applicant to 
        make good choices regarding his motivation, ability and desire 
        to adopt a child. Give both the positive and the negative. 
        Nudge the adopters to take the long view. Work to move them 
        from naive enthusiasm to educated and wise individuals who, 
        when they make the lifelong commitment to a child, they 
        understand as fully as possible, the depth of this commitment.

    TLS has been providing such education to our adopting families for 
the past 27 years. It is the cornerstone and strength of our program.

          (2) Provide to the adopters full disclosure--in English--of 
        everything that can possibly be found on the child's current 
        status, health, developmental level, social history and family 
        background. Give the adopter sufficient time to read, digest 
        and consider this information before pushing them for a 
        commitment to the child.

          (3) Provide post placement services to the family. Be there 
        for them after they return home for whatever they need in terms 
        of support, information, education in order to nurture the 
        placements over time.

    Adoption is not an act; it is a process. Far too many adoption 
agencies and facilitators see it only as the act of getting the child, 
Far more attention must be paid to the long view: the process of 
raising that child to adulthood. If we are privileged to be a part of 
creating this family by adoption, we must be available to that family 
over time.
    U.S. Agencies who place Special Needs children into adoptive homes 
already know the importance of this three-fold approach: Education--
Full Disclosure--Post Placement Services. We provide full service to 
our families. How is it that we think that those adopting overseas 
should receive any less? Standards of good practice must apply to all 
adopters equally. Surely, a child in a Russian orphanage who is 
receiving little or no individual attention, stimulation and nurturing 
is as much a Special Needs child as one in the foster care system of 
the United States. Surely the American considering adopting that child 
deserves to receive the same amount of preparation before the adoption 
and the same amount of assistance after they return home.
    Thank you for the opportunity to address you today.

    The Chairman. What a fine statement.
    Please forgive me. The distinguished Senator from Oregon, 
an able member of this committee, has left another committee 
meeting to come here to pay his respects and make some 
comments. And if you will forgive me, I am going to call on 
Gordon Smith. And we welcome you, sir, and appreciate your 
coming.
    Senator Smith. Thank you, Mr. Chairman. I am honored by 
your courtesy. I am here out of a great interest in this issue. 
I appreciate your holding this hearing.
    I specifically want to welcome Susan Cox, of Holt 
International, who is one of your witnesses and a resident of 
my State. Holt International is an agency that is headquartered 
in Eugene, Oregon.
    I would also like to pay tribute to my wife Sharon, who is 
behind me, who is here, from Oregon today. And she and I are 
the parents of three adopted children and, like Senator 
Landrieu, take this issue very seriously, very personally, and 
are anxious to see adoption work as a remedy to lots of other 
very cruel solutions.
    Thank you, sir.
    The Chairman. Do you have any comment, Mary?
    Senator Landrieu. No. I am just so happy that they are both 
here. We can use all the help we can get.
    The Chairman. Well, Mrs. Smith, now that I have seen you, I 
know why we call him lucky around here.
    [Laughter.]
    The Chairman. While we are interrupting, I want to pay my 
respects to a valued member of our Senate family. I do not have 
a staff; I have a Senate family of young people. And her name 
is Michelle DeKonty. And I want Michelle to stand up and say 
hello to you, too.
    Ms. Dekonty. I am very honored to work on this issue with 
Senator Helms. I am very much for adoption. And this issue has 
enlightened me. And I have come in contact with some wonderful 
people who really know their stuff, and they have been a great 
deal of assistance to us. And I look forward to working with 
you further.
    Thank you.
    The Chairman. Now, then, you brag about having somebody 
from your home State, I can do the same.
    Senator Smith. Great.
    The Chairman. Mrs. Harding, welcome, from Hendersonville, 
North Carolina.

  STATEMENT OF TOMILEE HARDING, EXECUTIVE DIRECTOR, CHRISTIAN 
 WORLD ADOPTION AND PRESIDENT, JOINT COUNCIL ON INTERNATIONAL 
                      CHILDREN'S SERVICES

    Ms. Harding. Thank you, Senator Helms and Senator Landrieu. 
Thank you for the opportunity to speak.
    My name is Tomilee Harding. I am the Founder and the 
Executive Director of Christian World Adoption. We have offices 
in Hendersonville, North Carolina, and Charleston, South 
Carolina. I am also the President of the Joint Council on 
International Children's Services. And this is the oldest and 
largest affiliation of not-for-profit child welfare agencies in 
the United States that deal with children in international 
adoption. The Joint Council has 130-plus members. And I am not 
speaking as a witness for the Joint Council, but they have 
submitted their comments to the committee.
    Finally, and most proudly, I am the stepmother of two grown 
sons, an adopted daughter from South America, who is 10, and my 
husband and I are now in the process of adopting an 11-year-old 
girl from Russia. And she has spent most of her life in a 
Russian orphanage. So this matter is very dear to my heart, as 
it is to most people who work in agencies, and of course the 
people who care so much that are on this committee.
    As a witness, I believe very, very much that The Hague is 
necessary. And this is not just my belief, it is also the 
belief of The Hague Alliance. The Hague Alliance calls very 
strongly for the ratification of The Hague by the U.S. The 
Convention provides a framework for cooperation and safeguards 
for children, birth families and adoptive families that we 
think is very critical.
    The Hague Alliance includes most of the child welfare 
organizations in the United States, the Joint Council on 
International Children's Services, the Child Welfare League, 
American Bar Association, National Association of Social 
Workers, American Public Human Services Association, Catholic 
Charities, Association of Jewish Family and Children's 
Agencies, Council on Accreditation of Services for Families and 
Children, National Council for Adoption, American Academy of 
Adoption Attorneys, and North American Council on Adopted 
Children. So if you wonder why our audience is full, there are 
a lot of people that are very, very concerned about this issue 
and care very much about what is happening.
    I really am here because I consider myself a trench 
soldier. I have spent most of the last 10 years traveling 
extensively overseas. I spent a lot of time meeting with 
officials, training personnel and touring orphanages. This has 
been exhausting emotionally, physically and spiritually. But I 
feel it is critical in order to supervise the activities of our 
associates overseas and to understand the needs of the 
officials and the children there.
    In 1994, I headed a project to build an orphanage in north 
Vietnam, and spent the next 4 years traveling back and forth to 
hire and train care givers and to reunite children with their 
birth families and to find adoptive homes if that was the 
solution. I have travelled throughout Russia. Last June was my 
14th trip, spending weeks at a time there. I have met with the 
Russian Duma about their new law. And this September, Alla 
Dzugaeva, the Chief Legal Specialist of the Federal Ministry of 
Education, in Moscow, which oversees intercountry adoption, 
expressed to me the Ministry's hope that the Russian Duma would 
ratify The Hague Treaty soon.
    Currently, American adoptions, as you said, Senator, from 
Russia are growing. It is the largest sending country. They 
have established a Federal data bank to put their children in, 
to fulfill the mandates of the central authority. Oftentimes, 
there is confusion amongst countries about laws. I feel 
strongly that there is a need to have a Federal body, like the 
State Department--in fact, the State Department--to help 
intercede with issues when adoptive parents have problems, when 
the children have needs, and when the agencies do.
    Recently, on a trip--in fact, last week--one of the 
protectors for children's rights from Irkutsk told Congressman 
Taylor that the Russian area there is not doing adoptions to 
Americans as much as the French because they have ratified The 
Hague. Dr. Guo, the head of the China Center for Adoption, has 
met with me on numerous occasions to discuss the U.S. and China 
laws. They have increased their adoptions there and continue to 
do so. Next year, they anticipate there will be 5,000 adoptions 
from China. I have been told recently that China is seriously 
considering ratifying The Hague and is studying it now.
    I tell you these details of my work just to tell you the 
amount of contact that I have had with people overseas and that 
I feel that most of these countries are looking, as our 
Secretary said, to see the U.S. ratify The Hague, as we were 
one of the main players at the beginning and were an original 
signatory.
    As far as accreditation is concerned, I think it is an 
important process to deliver high-quality adoption services. 
The Joint Council, 130 agencies, has voluntarily agreed to go 
along with this accreditation and feel that it is very 
important.
    Thank you, Senator.
    The Chairman. I am proud of you.
    Ms. Harding. Thank you.
    The Chairman. Mr. McDermott.

  STATEMENT OF MARK T. MCDERMOTT, ESQ., LEGISLATIVE CHAIRMAN, 
 ACCOMPANIED BY GOLDA ZIMMERMAN, TRUSTEE, AMERICAN ACADEMY OF 
                       ADOPTION ATTORNEYS

    Mr. McDermott. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Landrieu and Senator Smith, I am Mark 
McDermott, and I am Legislative Chair for the American Academy 
of Adoption Attorneys. I am honored to have been asked to speak 
to you about this important subject.
    With me today is Golda Zimmerman also, who is a Trustee of 
the American Academy. And she is also the Attorney for New Life 
Adoption Agency, a licensed nonprofit agency in the State of 
New York that specializes in Chinese adoption.
    In the event that the committee has questions within her 
area of expertise, she is also available.
    And I would also note that two other members of our Academy 
are here in the audience today.
    The Chairman. Would you have them stand, please. And we 
will not count that against your time.
    Mr. McDermott. This is Ms. Zimmerman.
    The Chairman. All right.
    Mr. McDermott. And Joel Tenenbaum is also here, and Irene 
Steffas.
    The Chairman. Thank you.
    Mr. McDermott. Implementing legislation for The Hague 
Convention has been a long time coming. Countless children have 
waited too long for the protections that it is going to 
provide. Thank you, Mr. Chairman and Senator Landrieu, for your 
sponsorship of this legislation.
    Our Academy is a nonprofit organization, consisting of 
judges, attorneys and law professors from around the country 
and Canada. Like many of our members, both Ms. Zimmerman and I 
are adoptive parents. One of our organization's highest 
priorities is to have this Convention ratified so it can be put 
into effect.
    We were involved early on in the process, as a member of 
the U.S. official delegation to The Hague, and thus we 
participated in the drafting and negotiation of the Treaty. 
Thereafter, we were asked by the Department of State to 
formulate some criteria for the approval of attorneys and 
others involved in the process. And we did that. And I have 
with me today a copy of those criteria, which I would like to 
submit at an appropriate time for the record.
    The Convention is much needed. We have all been exposed to 
abuses in places like Romania. Only through a treaty can there 
be any guarantee against these abuses in the future.
    One country must be assured that uniform provisions are in 
place in the other countries so that abuses can be prevented. 
These protections that exist in the Convention are enhanced by 
your bill, S. 682, and I applaud that. The stakes are high, and 
those involved in the process are very vulnerable.
    Some of the protections that you have put in your 
legislation that I would like to focus on have to do with the 
requirement that medical records on the children be translated 
into English and that those records be provided to the adoptive 
parents in advance of the adoption. Also, I applaud the 
provision that requires preparation for adoptive families. The 
speakers before me have noted the importance of that.
    And also very importantly, there is a provision that 
requires that service providers be compensated on a fee-for-
service basis. This is important, because presently we are 
plagued by situations where facilitators in other countries are 
compensated on a contingent fee basis, which causes many 
abuses, as evidenced by the rising tide of wrongful adoptions.
    With all these protections, the only thing that dampens our 
enthusiasm for the legislation are some provisions which we 
have some problems with, which I think can be rectified. They 
fall into two areas, the first of which has to do with the 
restrictions on children who leave the United States for 
adoption by citizens in other countries.
    Those restrictions will have adverse effects, in our view, 
in a number of areas--one of which has to do with the 
supersession of State law. Adoption is an important subject 
which has, to date, been left to the province of the individual 
States. And if we make Federal law, telling them who they can 
approve for adoption, that is a superceding of State law.
    Second, these restrictions will cause children to remain 
longer in nonpermanent situations, such as foster care. That is 
not good social policy and it hurts children. So I am hoping we 
can rectify that.
    Third, it will precipitate retaliation by other countries 
against our citizens who are trying to adopt children from 
those countries.
    The next area of concern has to do with the exclusion of 
service providers for intercountry adoption service other than 
accredited agencies. This, I understand, was an oversight--I 
have been told is an oversight in the drafting process, because 
the Treaty itself specifically provides for bodies and other 
persons, other than accredited agencies, to be approved for the 
provision of intercountry adoption services.
    In closing, I would like to say that we are grateful for 
your leadership, Mr. Chairman and Senator Landrieu. We applaud 
the protections that you have put in S. 682. They enhance the 
Treaty. And with the exceptions that I have mentioned, we urge 
you to pass this important and historic legislation.
    [The prepared statement and information of Mr. McDermott 
follows:]

    Prepared Statement of the American Academy of Adoption Attorneys

    Mr. Chairman and members of the committee, my name is Mark 
McDermott. I am the Legislative Chairman for the American Academy of 
Adoption Attorneys. I am honored to have been asked to speak to you on 
behalf of the Academy. Implementing legislation for the Hague 
Convention on Protection of Children and Cooperation in Respect of 
Intercountry Adoption has been a long time coming. Countless children 
have waited too long for the protections the Convention will afford. 
Thank you, Mr. Chairman, for your attention to this historic Convention 
and to the legislation needed to carry it out.
    The Academy is a non-profit association of attorneys, judges, and 
law school professors from around the country and Canada. The mission 
of the Academy is to encourage the study and improvement of adoption 
law and practice standards. Our members represent adoptive parents, 
birth parents, adoption agencies and others involved in adoptions, 
including intercountry adoptions. Like many of the members of the 
Academy, I am an adoptive parent. Thus, I have a personal interest in 
adoption issues. One of the Academy's highest priorities is to do what 
we can to encourage and assist in the ratification of the Convention 
and in the passage of legislation to bring it into successful operation 
in the United States.
    The Academy has been involved in the Hague Convention since the 
early stages. We participated in the drafting of the Convention in our 
capacity as a member of the official United States delegation in 1992. 
We also participated in the negotiations which led to adoption of the 
Convention on May 29, 1993. Thereafter, the United States Department of 
State asked the Academy to draft standards for the approval of 
individual attorneys as intercountry adoption service providers under 
the Convention. I have with me a copy of the approval standards drafted 
by the Academy which I would like to submit for the record.

    [The information referred to by Mr. McDermott follows his prepared 
statement.]

    Obviously, the Academy feels strongly that there is a need for the 
Convention and the protections it provides. We have all been exposed to 
the reports of adoption abuses in Romania and some other countries. 
These abuses were the impetus for the drafting of the Convention. There 
is no guarantee that the increased vigilance caused by the scandals and 
the additional protections provided by new laws in individual countries 
will prevent abuses in the future. Only through a treaty like this 
Convention can one country be assured that uniform protections are in 
place in other countries.
    The centerpiece of the protections provided by the Convention is a 
prohibition against agencies or others providing intercountry adoption 
services unless, in the case of agencies, they have been accredited or, 
in the case of others like attorneys, they have been approved. Due to 
what has been described as a drafting error which will be corrected, S. 
682 has no provision for the approval of any intercountry service 
providers other than non-profit agencies. I will return to this problem 
later in our statement.
    The need for the type of protections and the oversight provided by 
S. 682 is great. Most of the agencies and most of the individuals who 
currently provide intercountry adoption services are competent and 
ethical. Like any other area of human endeavor, however, there are some 
who are not competent or not ethical. Since adoptions most often 
involve young children, the risks are great and the stakes are high. 
The adoption of a child is the most important legal transaction in 
which a person can engage. It is a lifelong relationship and it forever 
changes the life of those involved.
    Adoptive parents who pursue intercountry adoption are vulnerable. 
They have often gone through years of agonizing and expensive efforts 
to succeed in having a biologic child. They have been exposed to 
reports of how difficult it is to adopt. The situation causes 
prospective adoptive parents to become desperate. Those unethical 
adoption service providers who would seek to take advantage of these 
people may find easy victims. Thus, protections are essential.
    A major area of concern involves the use of facilitators. As the 
number of children available for adoption in foreign countries 
increases, more and more individuals are forming small agencies to 
facilitate these placements. Unfortunately, their resources are not 
great enough to adequately staff their foreign counterparts. Therefore, 
the agencies use facilitators who are not trained in adoption, but 
rather are selected solely to obtain children. It is not uncommon for 
agencies to select business men or women who have ``connections'' to 
get children out of orphanages. They have no experience or background 
in adoption, medical or social issues. These facilitators are relied 
upon to provide the medical information for the United States agencies. 
In most situations, the facilitators are paid only if the adoption is 
completed. By virtue of the way in which they are compensated, the 
facilitators have a built-in incentive to divulge only the positive 
medical information, and to hide or change the negative aspects of the 
medical records, to insure that the adoption is completed. This happens 
more and more, as evidenced by. the rising tide of wrongful adoption 
litigation in this country. More control over foreign facilitators is 
needed with any legislation proposed for foreign placements.
    S. 682 contains a provision which would improve intercountry 
adoption practice in this area. Section 203(b)(1)(A) (iii) requires 
agencies to employ personnel only on a fee-for-service basis rather 
than on a contingent-arrangement basis. This is a good provision but it 
could be made stronger. Language should be added to make it clear that 
the restriction also applies to facilitators and others employed to 
perform services in the foreign country.
    An example of the risks faced by adoptive parents involved in 
intercountry adoption is provided by the following case. Adoptive 
parents in the United States attempted to adopt a child from Estonia 
through an agency in Maryland. The Maryland agency used a facilitator 
in Estonia who was described as a ``business man.'' He was selected 
solely because he knew the right individuals who could obtain children 
from an orphanage. This facilitator, unknown to the adoptive parents, 
had the adoption finalized in Estonia before the adoptive parents 
arrived. When the adoptive parents arrived in Estonia, not only did 
they discover that the child that had been selected for them was 
totally paralyzed from the waist down, but that the adoption had been 
finalized in their absence and without their knowledge. They were 
confronted with either attempting to void the adoption through the 
Estonian courts, or to take home with them a special needs child whom 
they could not parent. The adoptive parents hired an attorney in 
Estonia who successfully overturned the adoption based upon fraud, but 
only at great financial and psychological cost.
    We applaud provisions in S. 682 which would help combat the risks 
presented by this case example. The requirement in Section 
203(b)(1)(A)(i) that adoptive parents be provided medical records 
translated into English before the adoption would make adoptive parents 
better able to assess medical risks. The provision would be even better 
if it were amended to require that the adoptive parents also be given a 
copy of the original medical records in the language of the child's 
country of origin. This would enable the adoptive parents to verify the 
accuracy of the translation. The requirement in Section 203 
(b)(1)(A)(ii) that adoptive parents be provided at least six weeks of 
counseling and guidance may serve to prevent adoption disruption. At 
the very least, this requirement will make adoptive parents better able 
to function in their new role as parents in a multi-cultural family.
    While S. 682 would do much to improve intercountry adoption, it has 
some undesirable provisions. A number of these relate to provisions 
applicable to children leaving the United States for adoption by 
citizens of other countries. We fear that the ramifications of the 
restrictions on outgoing children in Section 303 have not been 
considered. One of the most significant problems with these 
restrictions is that they supercede state law in an area which has 
always been free from Federal encroachment.
    When a child from the United States is adopted by an adoptive 
parent from another country, the adoption is virtually always granted 
by the courts of, and pursuant to the laws of, the state of the child's 
origin. Likewise, the adoption of a child from another country by 
citizens of the United States will be controlled by the law of the 
child's country of origin. Hence, restrictions in Section 303, like the 
restriction on who is qualified to adopt United States' children, would 
serve to abrogate the law of any state which does not happen to have 
laws which contain restrictions matching those in Section 303.
    The restrictions in Section 303 also cause other concerns. Section 
303 would require children to stay longer in non-permanent situations 
like foster care while efforts are made to find United States citizens 
to adopt them instead of adoptive parents from other countries. This is 
not good social policy since it harms children. Congress has made great 
strides recently to promote the early placement of children in 
permanent homes. The delays mandated by Section 303 would be a step 
backwards.
    It is only logical to assume that, if the United States imposes 
restrictions like those in Section 303 on prospective adoptive parents 
from other countries, then other countries will retaliate by imposing 
similar restrictions on prospective adoptive parents from the United 
States. This is not compatible with the cooperative spirit envisioned 
by the Convention and it will harm the interests of prospective 
adoptive parents and prospective adoptees who are citizens of the 
United States.
    As mentioned earlier, we are very concerned about the failure of S. 
682 to provide for the approval of any intercountry service providers 
other than non-profit agencies. Because of the Academy's involvement in 
the drafting of the Convention, we are aware of the deliberations which 
led to the Convention's language on this point. The Convention 
specifically provides for two categories of service providers. In 
accordance with Article 22(1) of the Convention, the first category 
consists of agencies which go through an accreditation process. Article 
22(2) of the Convention describes a second category of authorized 
service providers. That category consists of bodies or persons other 
than agencies accredited under the Convention. These others would 
include individuals such as attorneys. As far as attorneys are 
concerned, we envision an approval process using criteria like the ones 
drafted by the Academy. \1\ It is critical that the pool of service 
providers from which adoptive parents must choose not be too small. 
There should be no artificial restrictions on who is eligible to be a 
service provider. Restrictions should only relate in a meaningful way 
to the qualifications of the provider. It is essential that this aspect 
of S. 682 be changed before the legislation proceeds further.
---------------------------------------------------------------------------
    \1\ The Academy's criteria were drafted before S. 682 was 
introduced and, therefore, do not include some of the standards set out 
in S. 682.
---------------------------------------------------------------------------
    We are grateful for your leadership, Mr. Chairman, in moving the 
United States toward ratification of the Convention. We also applaud 
the provisions of S. 682 which would provide protections to those whose 
families are affected by intercountry adoption. Subject to the changes 
we have suggested, we urge this committee to pass this historic and 
much needed legislation.
                                 ______
                                 

                          THE HAGUE CONVENTION

     Criteria for Recognition as an Attorney Qualified To Conduct 
     Intercountry Adoptions Under the Terms of the Hague Convention

1. ORGANIZATION

    1.A. The American Academy of Adoption Attorneys (the Recommending 
Authority, or its designee, is the entity which is designated by the 
Central Authority to recommend for approval or disapproval attorneys at 
law to practice in the area of intercountry adoptions, as that term Is 
defined in the Hague Convention, and as set forth herein.

    1.B. The Recommending Authority is the designated authority to 
review, process and recommend or not recommend attorneys to the Central 
Authority. The Central Authority retains the ultimate jurisdiction to 
approve or disapprove attorneys for recommendation hereunder.

    1.C. Recommendation or disapproval will be consistent with the 
regulations promulgated by the Central Authority in compliance with the 
terms of the Convention.

    1.D. Definitions.

            i. Capitalized terms used herein, unless otherwise defined 
        herein, shall have the definitions ascribed in the Convention.

            ii. The ``Hague Convention'' and the ``Convention,'' as 
        those terms are used herein, is known in full as THE HAGUE 
        CONVENTION OF MAY 29, 1993, ON THE PROTECTION OF CHILDREN AND 
        COOPERATION IN RESPECT OF INTERCOUNTRY ADOPTION, as may be 
        amended from time to time (the ``Convention'').

            iii. The Central Authority is the Unites States Department 
        of State, or its designee.

2. APPLICATION

    These Criteria shall apply only to attorneys involved in placement 
of children for adoption between Member States to the Convention, where 
the intercountry adoption is not conducted under the supervision of 
certified adoption agency.

3. TERM OF CERTIFICATION

    3.A. Recommendation of attorneys under the Convention shall be for 
a period of three (3) years, commencing on the date on which 
certification is granted by the Central Authority. Periods of extension 
of certification shall also be for three (3) years.

4. APPLICATIONS FOR RECOMMENDATION

    4.A. Form and Content.

    Applications shall be typewritten on forms provided by the 
Recommending Authority. All applications and the information contained 
therein shall be sworn to by the applicant as being true and complete. 
All applications shall become the property of the Recommending 
Authority.

    4.B. Criteria For Recommendation.

            i. Education and/or Experience.

            Each applicant shall have completed the following 
        requirements:

                    1. Verified attendance at and completion of 
                appropriate courses in law school relating to adoption 
                and/or immigration law; and/or

                    2. Verified attendance at and completion of 
                appropriate seminars, recognized by the Recommending 
                Authority and/or the Central Authority, in the areas of 
                adoption am for immigration law; and/or

                    3. Authored publication(s) in the areas of adoption 
                and/or immigration law; and/or

                    4. Taught classes and/or led seminars in the areas 
                of adoption and/or immigration law; and/or

                    5. Demonstrated broad experience in the field of 
                adoptions, by evidence of his or her involvement in:

                            a. adoption finalizations (domestic or 
                        international);

                            b. intercountry adoptions involving a 
                        licensed agency; or

                            c. intercountry adoptions not involving a 
                        licensed agency; and/or

                    6. Other factors demonstrating proficiency in 
                intercountry adoptions.

            ii. Licensed to Practice/Good Standing.

            Each applicant shall be an attorney at law, in good 
        standing, licensed to practice in every state/territory in 
        which said applicant practices law. Each applicant shall 
        provide documentation from the appropriate licensing body in 
        every such state/territory attesting to his or her good 
        standing.

            iii. Ethical Considerations.

            Each applicant shall represent and warrant that he or she 
        has fully complied with the Ethical Rules, Disciplinary Rules, 
        Ethical Canons, and other rules of professional and ethical 
        conduct in effect in each state in which the applicant 
        practices law or conducts business for other purposes, and 
        shall maintain the highest standards of professional and 
        ethical conduct. The applicant, and the applicant's law 
        practice, shall be reputed and continue to be of the highest 
        standards of ethics, competence and professionalism, and 
        complies with the Code of Ethics, which is incorporated into 
        these Criteria. An applicant shall not have engaged in 
        activities which might tend to bring discredit upon the 
        profession of law, upon the Central Authority or the 
        Recommending Authority.

            iv. Record of Professional Ethics and Competence.

            Each applicant hereunder shall submit detailed information 
        of the following, including the resolution thereof:

                    1. All instances of professional sanction or 
                discipline involving the applicant during the course of 
                his or her legal practice;

                    2. All disciplinary and/or professional complaints 
                currently pending against the applicant;

                    3. All malpractice claims made against the 
                applicant, or against the applicant's firm that 
                resulted in a lawsuit being filed, settlement being 
                paid, or the appointment of an attorney by the 
                applicant's malpractice insurance carrier to defend the 
                applicant or the applicant's firm; and

                    4. Criminal charges, spousal abuse, and/or child 
                maltreatment and/or indicated or founded child abuse 
                charges filed against the applicant while the applicant 
                is or was a member of any bar (the applicant shall 
                submit an original or certified copy of the results of 
                an inquiry made with all relevant bodies in the 
                applicant's home state/territory concerning said child 
                abuse and maltreatment charges).

            v. Conformity With State and Federal Laws, Rules and 
        Regulations.

            The applicant shall at all times have conducted his or her 
        legal and adoption practice in full compliance with all laws, 
        rules and regulations which apply to such practitioner, 
        including specifically at ethical obligations and requirements 
        in each of the jurisdictions in which the Applicant is 
        licensed.

            vi. Interview.

            Each applicant shall complete a personal interview, at a 
        time and place to be set by the Recommending Authority, the 
        subject of which shall include, but not be limited to, the 
        substantive knowledge of the applicant with regard to adoption 
        in general and the intercountry adoption process in particular.

            vii. Additional Documentation.

            Each applicant shall submit a written statement describing 
        his or her practice and procedures as they relate to 
        intercountry adoption. The statement shall include, but not 
        necessarily be limited to, the following areas:

                    1. A sample of the written agreement which the 
                attorney intends to employ between the applicant and 
                his or her clients (the prospective adoptive parents or 
                birth parents), setting forth all of the understandings 
                between the attorney and the client, which agreement 
                shall include the following:

                            a. A statement of the client's rights and 
                        responsibilities;

                            b. An explicit submission on the part of 
                        the applicant to the jurisdiction of the 
                        Central Authority and compliance with the 
                        Convention, and notice to the client that the 
                        client may file any complaints against the 
                        applicant with the Central Authority;

                            c. A clear itemized statement of estimated 
                        and/or actual expenses to be incurred by the 
                        client in connection with the adoption, 
                        including legal fees and disbursements;

                            d. A statement certifying that the 
                        applicant is in good standing with the 
                        applicable bar association(s) and state 
                        licensing board(s);

                            e. A statement certifying that the 
                        applicant has applied for certification by the 
                        Central Authority;

                            f. An explanation of the applicant's system 
                        for providing pre- and post-adoption services 
                        to the client and the adoptive child; and

                            g. A statement detailing whether the 
                        applicant will derive a fee, other 
                        consideration or thing of value in connection 
                        with the adoption from any source other than, 
                        or in addition to, the client.

                    2. A statement detailing of the applicant's 
                procedures to deal with the disruption of an adoption 
                placement (both before and after the physical placement 
                actually occurs), whether occurring in the country of 
                origin or in the country where the adoptive parents 
                reside.

                    3. A statement detailing the policies and 
                procedures for disclosure by the attorney to the client 
                of all known medical and social history of the adoptive 
                child (if the client is the adoptive parent) and of any 
                background information concerning the adoptive parents 
                (if the client is the biological parent and such 
                disclosure is permitted by all applicable laws and 
                rules and is authorized by the adoptive parent).

                    4. Policies and procedures for financial accounting 
                and record keeping, including an escrow account for 
                client retainers, both for fees and costs advanced, 
                prompt itemization by the applicant to the client of 
                all costs and fees incurred, and prompt return to the 
                client of all funds to which the client is then 
                entitled.

                    5. Policies and procedures for retaining the 
                records relating to intercountry adoptions in 
                accordance with state law.

            viii. Other Memberships.

            Each applicant shall disclose the names of the professional 
        organizations of which the applicant is a member.

            ix. References.

            Each applicant shall provide three (3) letters of reference 
        from persons with whom the applicant does not have a familial, 
        partnership or other business relationship, attesting to the 
        applicant's good moral character and fitness, and the 
        applicant's expertise in the area of domestic and/or 
        intercountry adoption.

            x. Malpractice Insurance.

            Each applicant shall provide evidence that the applicant is 
        covered by professional malpractice insurance, provided by a 
        recognized professional malpractice insurance carrier, with 
        coverage that includes the applicant's role as an intercountry 
        adoption attorney, in an amount of not less than $250,000 per 
        incident or occurrence.

            xi. Bankruptcy.

            Each applicant shall certify that he/she has not petitioned 
        for, been declared or been adjudicated a bankrupt within five 
        years prior to the date of application.

            xii. Release of Information/Indemnification.

            1. Each applicant shall execute a general authorization to 
        obtain information about the applicant.

            2. Each applicant shall certify that he/she understands 
        that the application contains an agreement indemnifying the 
        Central Authority and the Recommending Authority from any 
        claims arising from the certification process or otherwise.

            xiii. Academy Membership.

            An applicant's present or past membership in the American 
        Academy of Adoption Attorneys shall not be a criterion for 
        recommendation hereunder.

    4.C. Review of Application.

            i. The Recommending Authority or its designee shall review 
        each application and submit its recommendation to the Central 
        Authority.

            ii. Each application shall be given a preliminary 
        procedural review prior to substantive review.

            iii. Applications shall he complete when submitted. 
        Incomplete applications shall be returned to the applicant.

            iv. Incomplete applications which are returned shall be 
        accompanied by a written explanation of the deficiency.

            v. An application complete on its face shall be 
        substantively reviewed.

            vi. The applicant shall receive written notification of the 
        action of the Recommending Authority. In the event of the 
        disapproval of the application, the written notification shall 
        state the reasons that approval was not recommended, and shall 
        be sent by registered mail, return receipt requested.

            vii. If approval is not recommended, the applicant shall 
        have thirty (30) days from the date of the notice to submit a 
        written request for re-evaluation. Said re-evaluation shall be 
        limited to supplementation, clarification or correction of 
        erroneous or incomplete information upon which the Recommending 
        Authority is believed to have relied in reaching its 
        determination. If the decision is not changed, the applicant 
        may not again apply for recommendation for a period of one (1) 
        year from the date of the most recent disapproval.

    4.D. Application Fees.

            A non-refundable application fee as determined by the 
        Recommending Authority shall accompany each application 
        submitted.

5. EXTENSION OF RECOMMENDATION

    5.A. An Approved Attorney may apply for an extension of his or her 
recommendation not earlier than six (6) months prior to the expiration 
of their recommendation term, according to the regulations set forth 
herein.

    5.B. Applications for Extension of Recommendation.

            Applications shall be typewritten on forms provided by the 
        Recommending Authority. All applications and the information 
        contained therein shall be sworn to by the applicant as being 
        true and complete.

    5.C. Criteria For Extension of Certification.

            i. During their most recent approval term, approved 
        attorney seeking extension of his or her certification shall 
        have completed the following requirements:

                Continuing Legal Education.

                    1. Verified attendance at, and completion of, 
                courses or seminars, recognized by the Recommending 
                Authority and/or the Central Authority, in the areas of 
                adoption and/or immigration law.

                    2. Authored publication(s) in the areas of adoption 
                and/or immigration law; and/or

                    3. Taught classes and/or led seminars in the areas 
                of adoption and/or immigration law; and/or

                    4. Demonstrated broad experience in the field of 
                adoptions, by evidence of his or her involvement in:

                            a. adoption finalizations (domestic or 
                        international);

                            b. intercountry adoptions involving a 
                        licensed agency; or

                            c. intercountry adoptions not involving a 
                        licensed agency; and/or

                    5. Other factors demonstrating proficiency in 
                intercountry adoptions.

            ii. Verification of Other Matters.

            Each approved attorney shall verify that he or she 
        continues to be an attorney at law, in good standing, licensed 
        to practice in his or her state/territory, that there have been 
        no instances of professional sanction or discipline, claims of 
        malpractice, criminal, spousal abuse, maltreatment and/or 
        indicated or founded child abuse, charges involving the 
        approved attorney during the course of his or her legal 
        practice and other business activities since the time of the 
        original application for certification (the approved attorney 
        shall submit an original or certified copy of the result of an 
        inquiry made with all relevant bodies in the applicant's home 
        state/territory concerning reports of child maltreatment and/or 
        abuse in which the approved attorney has been an indicated 
        party).

            iii. Additional Documentation.

            Each approved attorney shall submit his or her current 
        written documentation as required under Section 4.B.vii. 
        hereof.

            iv. Malpractice Insurance.

            Each approved attorney shall provide evidence that the 
        applicant continues to be covered by professional at 
        malpractice insurance as required under Section 4.B.x. hereof.

            v. Bankruptcy.

            Each approved attorney shall provide evidence as required 
        under Section 4.B.xi. hereof.

            vi. Licensed to Practice/Good Standing.

            Each approved attorney shall continue be an attorney at 
        law, in good standing, licensed to practice in every state/
        territory in which said applicant practices law, and shall 
        provide documentation from the appropriate licensing body in 
        every such state/territory attesting to his or her good 
        standing status.

            vii. Ethical Consideration.

            The approved attorney, and the approved attorney's law 
        practice, shall be reputed and continue to be of the highest 
        standards of ethics, competence and professionalism, and 
        complies with the code of Ethics, which is incorporated into 
        these Criteria. An approved attorney shall not have engaged in 
        activities which might tend to bring discredit upon the 
        profession of law, upon the Central Authority or the 
        Recommending Authority.

            viii. Other Memberships.

            Each approved attorney shall disclose the names of the 
        professional organizations of which the applicant is then a 
        member.

            ix. Release of Information/Indemnification..

            a. Each approved attorney shall execute an authorization 
        for release of information as required under Section 4.B.xii. 
        hereof.

            b. Each approved attorney shall certify that he/she 
        releases and indemnifies the Central Authority and the 
        Recommending Authority from any claims arising from the 
        certification process or otherwise.

            x. Other Verification.

            The Recommending Authority and/or the Central Authority may 
        request any other verification, substantiation or information 
        which it deems reasonably necessary to review the application 
        for continued certification of the approved attorney.

    5.E. Application Fees.

            i. A non-refundable application fee as determined by the 
        Recommending Authority shall accompany each application for 
        extension of certification submitted.

            ii. In the event that an application for extension of 
        recommendation is received less than three months prior to the 
        expiration of the recommendation term, the attorney assumes the 
        risk that the extension may not be received prior to the 
        expiration of the recommendation term. In that event, the 
        attorney may be precluded from participating in intercountry 
        adoptions until his or her recommendation is reinstated.

    5.F. Denial of Application for Extension.

            If extension of approval is not recommended, the applicant 
        shall have thirty (30) days from the date of the notice to 
        submit a written request for re-evaluation. Said re-evaluation 
        shall be limited to supplementation, clarification or 
        correction of erroneous or incomplete information upon which 
        the recommending Authority is believed to have relied in 
        reaching its determination. If the decision is not changed, the 
        applicant may not again apply for recommendation for a period 
        of one (1) year from the date of the most recent disapproval.

    5.G. Conformity with State and Federal Laws, Rules and Regulations.

            The approved attorney shall represent and warrant that he 
        or she has conducted his or her legal and adoption practice, at 
        all times, in full compliance with all laws, rules and 
        regulations, and Ethical Rules, Disciplinary Rules, Ethical 
        Canons which apply to such practitioner, including specifically 
        all ethical obligations and requirements.

6. REVOCATION OF RECOMMENDATION

    6.A. The Recommending Authority may recommend that a recommendation 
be revoked if it is determined after a hearing, held on notice of not 
less than ten (10) days to the attorney, that:

            i. The attorney was ineligible to receive certification, 
        either at the time of the original certification or at the time 
        of any extension thereof;

            ii. The recommendation was issued to the attorney based 
        upon false or materially incorrect representations, 
        misstatements or omissions made by the attorney;

            iii. The approved attorney failed to abide by all the rules 
        and regulations governing the attorney imposed by the 
        Convention and/or the Central Authority, and all applicable 
        local, state and federal laws, rules and regulations imposed 
        upon attorneys and/or adoption professionals, including any 
        requirements for continuing education and proficiency;

            iv. The attorney failed to pay any fee or charge required 
        hereunder;

            v. The attorney has been the subject to professional 
        sanction or discipline, claims of malpractice, criminal, 
        maltreatment and/or indicated or founded child abuse charges 
        involving the approved attorney during the course of his or her 
        legal practice since the time of the original application for 
        certification; or

            vi. The attorney no longer meets the qualifications 
        established by the Central Authority for such recommendation.

7. NOTICE OF VIOLATIONS

    7.A. The Recommending Authority shall inform the appropriate state 
and local authorities of any material breach by the attorney of the 
ethical and practice requirements set forth herein.

8. APPEALS

    8.A. In the event that the Recommending Authority shall not 
recommend an applicant for status as an approved attorney, or shall 
deny an approved attorney an extension of his or her approval term, the 
individual so denied may request a review of the determination of the 
Recommending Authority by the Board of Directors of the American 
Academy of Adoption Attorneys. The request for said review shall be 
made in writing not more than thirty days from the date of the postmark 
of the notice informing the applicant of the determination of the 
Recommending Authority. The request for review shall be submitted with 
all relevant attachments and exhibits; fifteen complete copies shall be 
submitted. The request shall be accompanied by the filing fee then 
established by the Recommending Authority. The individual requesting 
said review shall be responsible for all costs and expenses which he or 
she may incur in connection with said review. The decisions of the 
Board of Directors of the American Academy of Adoption Attorneys and 
the Central Authority shall be final.

                             CODE OF ETHICS

    In order to further the cause of the ethical intercountry 
adoptions, each applicant and Approved Attorney agrees to comply will 
the this Code of Ethics:

            1. An Approved Attorney shall be duly licensed to practice 
        law in each state in which the Approved Attorney maintains a 
        law office, shall fully comply with the Ethical Rules, 
        Disciplinary Rules, Ethical Canons, or other rules of 
        professional and ethical conduct in effect in each state in 
        which the approved Attorney maintains an office, and shall 
        maintain the highest standards of professional and ethical 
        conduct. An Approved Attorney shall not engage in activities 
        which bring discredit upon the profession of law, the Central 
        Authority or the Recommending Authority.

            2. An Approved Attorney shall assure that the Approved 
        Attorney's clients are aware of their legal rights and 
        obligations.

            3. An Approved Attorney may inform a client as to the 
        Approved Attorney's understanding of the laws of a foreign 
        state in which the Approved Attorney is not licensed, provided 
        that the Approved Attorney disclosed that the Approved Attorney 
        is not licensed to practice in that jurisdiction,

            4. An Approved Attorney shall not purport to represent both 
        the prospective adopting parent(s) and one or both birth 
        parents. Where practicable and where required by state law, the 
        Approved Attorney shall encourage independent representation of 
        all parties to the adoption.

            5. An Approved Attorney shall actively discourage adoption 
        fraud and misrepresentation and shall not engage in such 
        conduct, and shall take all reasonable measures not 
        inconsistent with the confidentiality of the attorney/client 
        relationship to prevent adoption fraud or misrepresentation, 
        withdrawing from representation where necessary to avoid 
        participation in any such conduct.

            6. An Approved Attorney shall assure that clients to an 
        adoption are aware of any laws which govern permissible 
        financial assistance to a birth parents.

            7. An Approved Attorney shall not assist or cooperate in 
        any adoption in which the Approved Attorney knows that the 
        birth parent or parents are being paid or given anything of 
        value to induce the adoption placement, or for the consent or 
        relinquishment for adoption.

            8. An Approved Attorney shall not enter into an agreement 
        for, charge, or collect an illegal or unconscionable fee. Fees 
        shall be commensurate with the services that have been provided 
        by the Approved Attorney. An Approved Attorney shall not, 
        directly or indirectly, charge a finder's fee for locating a 
        birth parent or adoptive child. In determining whether a fee is 
        unconscionable, the factors to be considered shall include but 
        not be limited to, the following:

                    (a) The amount of the fee in proportion to the 
                value of the services performed;

                    (b) The novelty and difficulty of the questions 
                involved and the skill requisite to perform the legal 
                services properly;

                    (c) The time limitations imposed by the client or 
                by the circumstances;

                    (d) The time and labor required; and

                    (e) The experience, reputation and ability of the 
                Approved Attorney performing the services.

            9. An Approved Attorney shall not possess a financial stake 
        in the success of any adoption in which the Approved Attorney 
        is retained as counsel for any party. An Approved Attorney 
        shall be considered to have a financial stake in an adoption if 
        the Approved Attorney enters into a fee agreement by which the 
        Approved Attorney is to receive a greater fee for a successful 
        adoption than is warranted based upon the reasonable value of 
        the services performed by the Approved Attorney, or if the 
        Approved Attorney is contractually entitled to a lesser fee 
        than the reasonable value of the services performed by the 
        Approved Attorney if the attempted adoption is unsuccessful. 
        The Approved Attorney shall not derive compensation or other 
        consideration in connection with the adoption from any source 
        other than or in addition to his or her client, or the party 
        responsible for the payment of the legal fees.

            10. An Approved Attorney shall disburse client trust funds 
        only for those purposes specifically authorized by the client, 
        and the Approved Attorney shall not exercise independent 
        judgment or discretion over trust fund or escrow account 
        disbursement unless the client has specifically authorized the 
        exercise and scope of such discretion. An Approved Attorney 
        shall promptly account for all client funds held by the 
        Approved Attorney upon request by the client, and shall 
        promptly reimburse to the client all client funds due to the 
        client upon reasonable request by the client, as authorized by 
        the retainer agreement between the Approved Attorney and the 
        client, or upon completion of the matter for which the Approved 
        Attorney has been retained.

            11. An Approved Attorney shall not make false or misleading 
        claims in advertisements or promotional materials.

            12. An Approved Attorney shall not enter into any agreement 
        with any person which would have the effect of restricting the 
        Approved Attorney's ability to exercise independent 
        professional judgment on behalf of the Approved Attorney's 
        clients.

            13. An Approved Attorney may, when appropriate and/or when 
        requested by a client, refer parties to competent and 
        professional medical providers, legal counsel, psychological 
        counselors, or adoption agencies. An Approved Attorney shall 
        avoid any appearance of impropriety and shall advise the 
        parties of any familial or professional relationship between 
        the Approved Attorney and any other professional to whom the 
        Approved Attorney may refer a party, including a doctor, 
        hospital, counselor or birthing coach. An Approved Attorney 
        shall receive no referral fee or thing of value from any 
        professional, organization or counselor to whom a party may be 
        referred by a Approved Attorney.

            14. An Approved Attorney shall retain adoption-related 
        records in accordance with state law.

    The Chairman. Thank you.
    Ms. Cox.

STATEMENT OF SUSAN SOON-KEUM COX, VICE PRESIDENT, PUBLIC POLICY 
  AND EXTERNAL AFFAIRS, HOLT INTERNATIONAL CHILDREN'S SERVICES

    Ms. Cox. Thank you. Good morning.
    Mr. Chairman, thank you so much for taking the time to 
support this important legislation and these efforts, and 
Senator Landrieu. And also Senator Smith has a reputation in 
Oregon for being very knowledgeable about adoption, so I am 
especially pleased that he serves on this committee.
    My name is Susan Soon-Keum Cox. I am from Eugene, Oregon. 
And I have been adoption professional for over 20 years. There 
have been worldwide more than 200,000 children who have found 
their families through intercountry adoption. I was number 167. 
And it is in that capacity as an international adoptee that I 
testify today.
    I think it is important to acknowledge that intercountry 
adoption should never be the first line of defense, as Senator 
Landrieu was saying this morning, there really is an important 
priority. However, when a child will not have a family except 
for intercountry adoption, it is not only appropriate, it is 
also preferable to life in an orphanage or institution.
    We have heard a lot today about the importance of training 
and preparation. And I think that it is important to 
acknowledge that children who come to their families for 
adoption deserve the very best families that are possible to 
help them to achieve all that they can as appropriate citizens. 
I think that intercountry adoption provides the lifelong 
response in the individual lives of children.
    And so the mandate for agencies and individuals who will be 
working with children and families in intercountry adoption, 
they must be committed to finding families for children rather 
than children for families. I think that is an important 
distinction that needs to be made. It must be a priority to 
respect not only the birth countries, but also to respect the 
dignity of the child.
    A nation's decision as a matter of policy to permit 
intercountry adoption is a complex and complicated one. And it 
is important that we do not circumvent the sending country's 
adoption system or take shortcuts around their requirements.
    As the acceptance of international adoption has grown, so 
has the opportunities for exploitation and abuse. It is 
unfortunate, but it is also true. And that is why the standards 
and a process of accreditation is essential. It really provides 
safeguards for practice which protects families and children, 
and it also protects the institution of adoption.
    There have been more than 140,000 children adopted in the 
U.S. and Europe from Korea. And while it may have been 
considered a social experiment in the 1950's, I think that we 
certainly have been able to prove, two generations of us who 
are now adults, that we grew up and we have done, for the most 
part, just fine. Thank you very much.
    But there are issues that are unique to intercountry 
adoption. And certainly the most obvious one is that generally 
we grow up a different race than the parents who are raising 
us. We are called upon to validate the realness of our 
adoption, and sometimes by perfect strangers.
    I have had the opportunity to work with hundreds of 
adoptees through heritage camps and other programs for 
international adoptees. I do not know a single adoptee who has 
not been asked, ``Who are your real mom and dad?''
    Three weeks ago, there was an international gathering of 
the first generation of Korean adoptees here in Washington, 
D.C. Over 300 of us from seven European countries and the 
United States came together to celebrate our commonality, our 
common experience of international adoption. And there have 
been some lessons learned along the way. There are some things 
that we have to say, as you have talked about, consulting with 
the adoption community and the experts and so on. I really urge 
you to also acknowledge that we have grown up.
    I participated at The Hague in 1993. And in this forum of 
representatives from 66 countries, I was the only adoptee in 
the room. And I felt an enormous responsibility to speak up and 
to be able to participate on behalf of the adoptees who have 
been adopted, but the hundreds of thousands of children who 
still require adoption to have a family. We are firmly 
committed to having access to our records and the opportunity 
to be able to know about those situations that were at the 
beginnings of our life that are a lifelong process. So I urge 
you to really consider that application.
    One of the things also that has changed as adoption has 
expanded is that single families are now able to adopt and it 
is that there are so many children orphanages around the world. 
We need every appropriate family that can be found for those 
children, and I really see that has been a wonderful thing for 
children as we go into the future.
    I would like to again thank the committee and all of the 
efforts on behalf of adoption. And I look very much forward to 
working with other adoptees to help move this process forward.
    Thank you.
    The Chairman. Thank you.
    Ms. Mary, I seldom have ever heard five witnesses in a row 
say so much in so little time.
    [Laughter.]
    Senator Landrieu. A very good job.
    The Chairman. And I am grateful and I am amazed. Suppose we 
have, including you, Senator Smith, if you have time, 7 minutes 
per Senator to question. And I want this lady to ask the first 
questions. Ms. Mary.
    Senator Landrieu. Thank you very much.
    Dr. Federici, we are all very familiar with your work and, 
in your personal experience, have adopted I think four children 
from Romania and have done a beautiful job. I have had the 
chance to meet your family, and it was quite a thrill.
    When you cited the 1,500 cases, were these, do you think, 
self-selecting cases--in other words, did people who were 
having problems seek you and your colleagues out? Is your 
testimony, this morning, that this sample is representative of 
all of the international adoptions?
    Dr. Federici. Of course, the 1,500 that sought me out, it 
usually was 3 or 4 years post-adoption, when they entered 
school age, had some difficulties. But I think my sample is a 
representation of a larger sample.
    And again, having worked with up to 5,000 and 6,000 
different families and different networks, I think what we are 
seeing is a representation that many, the majority of children, 
who have spent longer periods of time in institutional settings 
do in fact have longer-term issues that require much more 
intensive interventions than just the wait and see or that they 
will recover from minor delays. So there are quite a few in my 
sample that really have long-term issues that again, Senator, 
are representative of probably the more global population.
    Senator Landrieu. Because I think this issue is important, 
and I know you are a strong advocate of international adoption. 
I am sure your intent is not to frighten people. Rather, you 
want to see the barriers come down and medical records improved 
so that there are real opportunities for all children to find 
homes. We both want to make it realistic--I guess the 
expectations more realistic.
    But the fact that there have been thousands and thousands 
of children that have been placed in very positive outcomes, I 
think the issue is just to make sure that parents are prepared. 
Part of this legislation outlines a system where parents can be 
more prepared and there can be more support services to deal 
with problems. We must recognize that there are some real 
serious and negative effects of institutionalization that 
perhaps we have not recognized.
    Let me ask Ms. Holtan, though, not so much a question but 
something that I picked up that you may want to clarify. In 
your comments, you said that you had come across or thought 
that people adopting do not necessarily have the best 
motivations. I am not sure if that was the word that you 
intended to use. I think you might have meant they were not as 
well prepared as they should have been. Were you questioning 
the motivations of people in adoption?
    Ms. Holtan. No. I was questioning some of the motivations 
of people who are providing adoption services.
    The Chairman. Services. OK. Not the families?
    Ms. Holtan. No. After all the years of working with 
families, they are extraordinarily wonderful people, by and 
large. I just want them to have all the facts before they make 
what should be a lifelong decision, so that we do not get calls 
anymore, asking us to replace children from Eastern Europe.
    Senator Landrieu. And along those lines, Mr. Chairman, I 
wanted to point out for the record, I think Ms. Holtan 
testified there were 82 cases of people calling in to her 
agency over a 5-year period. Now there would have been about 
100,000 children adopted each year in that timeframe, 15,000 of 
which would have been international. So over a period of 5 
years, about 75,000 children were adopted. It is important to 
note, and we want to be sensitive to it, 82 out of 75,000 
represents less than one-hundredth of 1 percent.
    Ms. Holtan. Yes.
    Senator Landrieu. Now, some other agencies would have 
received other calls. But the vast majority of international 
adoptions are actually working. I mean despite the fact that 
there is not a terrific system in place, there are many 
instances where these adoptions are working. We still need to 
notice these trend lines. The fact that the number of 
disruptions is going up should cause us some concern also.
    Ms. Holtan. We do not know how many adoptions are working 
or not working, because no one tracks it nationally. The 82 
figure I gave you was our agency only. I would love to know 
what the figure is across the country, but there is no one 
counting that.
    All we can say is that we have never seen anything like 
this in the 27 years of our program. Something is different 
with the children that we are being called on for. All I want 
to have happen is that agencies start preparing families and be 
there after the fact. Why are folks calling Tressler, who are 
strangers to them? Where is their own agency then they need 
help?
    Senator Landrieu. Absolutely. And that is hopeful, Mr. 
Chairman. One good thing about this legislation, and I think 
one of the improvements we could make, is it requires pre-
adoption services, that the agencies would be responsible for. 
We must make sure such services are provided in the middle and 
back end as well.
    Ms. Harding, you suggested or said that there have been 
some development of steps to accreditation. Could you take a 
minute to just briefly describe some of those steps that an 
agency or an individual may have to go through in your mind to 
become accredited, or the types of things they would have to do 
to serve at that standard or to reach that standard?
    Ms. Harding. I talked to the CEO of the Council on 
Accreditation a week ago. And apparently there is 25 agencies 
who are working in international adoption who have already 
received accreditation, and at least 12 to 15 more in the 
process. And there are different estimates of how many agencies 
will elect to become accredited, but some say 200.
    Our agency did go through accreditation 2 years ago. It was 
very rigorous. It took us 2 years to complete our accreditation 
process. I will not say it was easy. I will say that our agency 
is much better for it.
    I think that Susan brought up a point that is very valid. 
This has been a whole social situation that has really 
developed over the years. International adoption has increased. 
We have learned. And part of the accreditation process is to 
help other agencies learn to do their job better.
    Peer reviewers who specialize in international adoption, 
who are social workers, come into the agency and look at every 
aspect of the agency. They look at your financial records, 
which must be audited. They talk to your board of directors. 
They interview your families. They look at all of your records, 
or any random sample that they want to. They track your client 
recordkeeping. They look at all of your policies and 
procedures.
    So I think that it is a very good system, and there are 
people in place that are doing this very well.
    Senator Landrieu. OK. I have some additional questions. My 
time is up. But maybe we will get a second round.
    The Chairman. Go ahead.
    Senator Landrieu. Mr. McDermott, you mentioned that you 
think one of the changes in the bill would have to be a 
technical correction made on the accreditation issue between 
agencies and individuals. Explain that a little bit more, in 
the sense that some of us are hoping that if you are an agency 
or a lawyer or an individual, that you would have to maintain, 
or believe you should maintain, the same standards and have to 
meet the same accreditation requirements, or at least something 
similar.
    Can you comment on that? Because I know this was a big part 
of the discussion, and that is a very important thing for us to 
try to work out in this final language.
    Mr. McDermott. Yes, Senator. Let me start by saying we are 
not contending in any way that the standards should be lower or 
less or in fact different, other than where they have to be to 
fit the situation. We are in favor of rigorous standards for 
qualifications to perform intercountry adoption services. That 
is why we are strongly in favor of the Convention. And I think 
the criteria that I have submitted that we did just for 
attorneys for the record is instructive in that regard. We feel 
they are pretty rigorous.
    In fact, now that we have had some of the ideas that we 
have gotten from S. 682, we would add those things in there, 
like the translation of records and so forth.
    But the Convention itself contemplated this. This is 
something that we, as the Academy and part of the U.S. 
delegation, were involved in this. It was a major issue for the 
State Department. The U.S. delegation believed in this, that 
there should not be artificial restrictions on who can provide 
adoption services.
    And in the Convention itself, Article 22.1 is the article 
that addresses accredited agencies. And Article 22.2 is the 
article that addresses others. And it speaks in terms of bodies 
and persons other than these accredited agencies, but makes it 
clear that they need to be regulated, approved and controlled, 
and there has to be a lot of oversight.
    So your point is well taken, Senator, that there should be 
no suggestion that there be a lower standard applied to these 
other people who are going to be allowed to provide 
intercountry adoption services.
    Senator Landrieu. But you all are objecting, though, to 
having to follow the standards as outlined for an agency under 
the idea that you are not an agency, but yet you are in some 
ways going to be functioning like an agency. So I think we have 
to work through that and see. And maybe there is some ways that 
we can sharpen that language. And I am open to your suggestions 
and I know the chairman is.
    Mr. McDermott. And we are very much looking forward to 
working with you as this project goes on.
    Senator Landrieu. And, finally, to Ms. Cox. I want to 
commend you for your great work in hosting the recent 
international gathering of Korean adoptees. You can, of course, 
speak from personal experience, but I think it was really a 
life-changing event for many of the over 300 or 400 people, Mr. 
Chairman, that participated in the first gathering.
    You talked about single parents, and I wanted to revisit 
that for a moment, because I think while it would be ideal for 
every child to grow up in a family with two parents, it does 
not happen even in the United States. It does not happen in 
many places in the world. The chairman and I have talked about 
that issue, in trying to find a way to work through our 
differences of opinion.
    In our own domestic adoption system, I do not think--
correct me if I am wrong--there is a State that prohibits a 
single person from adopting, is that correct?
    Ms. Cox. I think that is correct.
    Senator Landrieu. From your experience, while many of the 
Korean adoptees came into two-parent families, some of them 
have either ended up or came in initially to a single family. 
Can you describe their reaction? Was it positive or negative?
    Ms. Cox. Senator and Mr. Chairman, I agree. I am very glad 
that I had both a mother and father. But the fact of the matter 
is I have seen children in orphanages and institutions around 
the world, and we need as many families as possible for them. 
So I do not think there is any disagreement that a two-parent 
family is preferred, that certainly single parents also provide 
that.
    Now, it is also a recognition of what does the sending 
country, what are their requirements. Korea, for example, does 
not--they are not open to single-parent adoptions. That is a 
guidance of the Korean Government. However, many other 
countries, and certainly China, has been an opportunity for 
many, many little baby girls to have families, who otherwise 
would not have any due to the single-parent provision. So I 
really urge that that is something that is included.
    Senator Landrieu. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. In our shop a few days ago, we received a 
letter from a parent in Washington State who supports S. 682, 
and emphasized the need for consumer protection laws in 
international adoptions. Please bear with me as I read some of 
what this lady wrote regarding her adoption of a 12-year-old 
girl from Russia, named Inga. And I quote her:

          Despite very specific questions of the adoption 
        agency prior to picking up Inga, some crucial facts 
        were not--and she underscored that--not disclosed to 
        us. We were shocked to learn that she had been placed 
        with two Russian families. She could not read or write 
        Russian at the age of 12. She was a smoker. And she was 
        a habitual runner--meaning running away from home. She 
        had a history of being picked up by the police and 
        brought back to the orphanage. Had we known any of 
        these facts, the lady said, prior to traveling to 
        Russia to pick her up, we would not have proceeded.

    Now, obviously Inga's adopted family was unable to cope 
with the child and is now attempting to dissolve the adoption. 
She is now a ward of the State. She has gone through six 
families and two hospitalizations. And according to the lady's 
letter, the adoption agency has been--and I am quoting the 
lady--has been reluctant to admit any responsibility whatsoever 
for its neglect in accessing pertinent, easily available 
information. End of quote.
    Now, that leads me to ask, and I want any of you to respond 
to it, what is the current legal responsibility of adoption 
agencies to provide parents with full disclosure of physical 
and mental disabilities?
    Dr. Federici. Mr. Chairman, I have a statement that I would 
like to enter into the record, as provided by Secretary of 
State Tabacaru, of Romania, who says that any and all 
documentation can be obtained from the family, from the 
hospital, and should be provided in great detail to the family. 
And his position in Romania is that when there are statements 
made to American agencies or agencies to families that the 
information is not available, that is typically not correct.
    I have personally sought out for many families when I have 
been on trips to Romania to go back and find information that 
was told to them by the agency was not available, and have 
retrieved it immediately by going to the institution. What you 
just mentioned, Mr. Chairman, is one of the big issues that, 
again, in my sample of working with families, they said, had 
they known more information, they would have not adopted.
    In the cases that I have been working on in litigation, 
where my records have been subpoenaed and they retrieve the 
original records from different agencies in different 
countries, it was very clear that information was withheld. And 
I have seen this, and this has been a big topic of litigation. 
So this is something that I have heard countless time. And, 
again, for the Romanian Secretary of State to say that the 
records are readily available, it is just that no one asks for 
them in the correct way.
    The Chairman. Thank you, sir.
    Ms. Cox?
    Ms. Cox. Mr. Chairman, I would also like to add that in 
addition to what are the legal requirements, there are also 
ethical requirements. And even if it is not required by law, 
anyone that is working in adoption needs to get as much 
information as possible not only for the parents who are 
adopting the children, but for the children themselves, so that 
that information is available to them as they are growing up 
and into their adulthood.
    Ms. Holtan. And just one other thing, Mr. Chairman. It is 
difficult in some situations to get full background information 
on both internationally born kids and children here in the 
United States. So what we suggest at Tressler is that you train 
your families in sort of more general terms. In other words, if 
you are adopting from Russia, you know the alcoholism rate in 
that country, therefore it is not a shock that a lot of the 
children in the orphanages will be affected by fetal alcohol 
syndrome.
    So you as a parent need to decide, can you take that risk? 
Can you choose this child, knowing that it may not say he has 
fetal alcohol syndrome or he has been sexually abused or 
whatever the issue is, but that might have happened anyway? If 
you can do that, then go for it. But if even thinking about it 
makes you afraid, then imagine living with the situation.
    So agencies say, well, we did not know, so how could we 
tell? You know enough to talk in general terms about what 
institutionalization does for kids. And that is what you have 
to teach.
    The Chairman. Thank you.
    Ms. Harding?
    Ms. Harding. One of the emphasis of Joint Council for the 
last few years is parent preparation and training staff to do 
better medical collection. I think that this is such a new 
area, Eastern European adoptions really have proliferated in 
the last few years, starting about 7 years ago in Russia, it 
has been a learning experience. It is a challenge to get these 
records, I can tell you.
    These people in these orphanages are oftentimes spending 
most of their time trying to feed the children. They are 
working for a communist system that does not pay them. They are 
not highly motivated people. They do not have copy machines. 
They have a lot of challenges in their life. And so we have to 
find creative ways or hire enough staff to do the work 
ourselves.
    We have staff now that speaks Russian, that literally calls 
over there and talks to the doctors, because we cannot always 
get the written medical information. We send the videos to the 
parents. We send them to doctors who specialize in this in the 
United States, who then ask us more questions, and we call over 
there.
    But the parents have to be willing to pay for this. And if 
the parents are just going to adopt from any organization or 
any individual that is unwilling to go to these lengths and 
have this quality assurance, they are going to or it could have 
problems.
    The Chairman. Thank you.
    Mr. McDermott?
    Mr. McDermott. To respond further to the chairman's 
question about the current standards, that is somewhat outlined 
by our legal system under this emerging tort called wrongful 
adoption. And what the cases say in that area is that an agency 
is required certainly not to conceal information that they do 
have. And beyond that, they are required to exercise reasonable 
care in gathering information that is relevant to the decision 
that is being made by the adoptive parents.
    There are more and more of these cases that are wending 
their way through the courts in the United States. But that is 
not a good thing, because these are after-the-fact fixes for 
tragic situations. And hopefully, through the legislation that 
we are considering here today, these things can be prevented at 
the front end and there will not be as many wrongful adoption 
cases.
    The Chairman. Very well. Now, this one I am not going to 
ask you to answer now. I want you to take the thought home, the 
question home, and think about it and, if you do not mind, 
write the Senator or me, or both of us, your answer to this 
question. And I want you to be specific. What disclosure laws 
do you believe would be useful in ensuring that parents will be 
most fully aware and prepared for the special needs of adopted 
children?
    [The information referred to was not available at press 
time.]
    The Chairman. Now here is a question I want all of you to 
answer now as briefly as possible. Although exact statistics on 
the cost of adoptions are not available, typical fees according 
fees according to our folks who looked into it, appear to be 
around $15,000 to $20,000. I do not know whether that is 
reasonable or not.
    Would each of you provide your understanding of what these 
costs are for? What is the money used for, sir?
    Dr. Federici. Well, sir, since I am not an adoption agency 
nor am I involved in it, I can only refer to an interview that 
was completed while one of the remaining officials were here. 
And his opinion, in Romania, is that a Romanian adoption should 
cost no more than $4,000 to $5,000 from start to finish.
    His question that he left the American agencies with is: 
What happened to the other money, because it is not making its 
way back into the Romanian orphanage system? It is somewhere 
lost between transit, between cash money sent over to the 
country, to the NGO's, and he is not exactly sure and they are 
trying to find some accountability.
    So that is the best answer that I can give as a non-agency.
    The Chairman. Do you agree with that?
    Ms. Holtan. Senator, in 1975, our adoption of our first son 
cost $2,000, and that included the plane fare. Today, the quote 
that you gave is accurate. I have heard as high as $30,000 and 
$40,000. All these years, I have been waiting for the bottom to 
fall out of this and people to say, I am not paying that. It 
has not. It just keeps escalating.
    I do not know what could possibly cost that much money.
    Ms. Harding. The adoption ranges that I hear most are 
$15,000 to $20,000, $22,000. A lot of this includes the travel 
of the parent. They stay in the country for 2 to 3 to 4 weeks. 
Intercontinental travel, bringing the children back, you have 
to have home studies done in the United States.
    You have to hire the staff to do overseas what we mentioned 
earlier to collect the information to care for the children to 
bring the parents to the courts. You have a staff here in the 
United States. We personally have 25 staff members here in the 
United States, and I feel like they are all going to quit any 
day because they are underpaid and overworked, including 
myself. And we only do 200 adoptions a year.
    So it seems to me like the services we provide are getting 
greater, and yet we have to make sure that we keep the costs 
down. And it takes a lot of accountability. I do not think Dr. 
Tabacaru understands how the system is really working in 
Romania. We tried to do adoptions there for 2 years at that 
price.
    Unfortunately, the Romanian foundations that they have set 
up seem to have the control of the children. And they ask a 
certain amount. And if you do not pay that amount, the American 
families do not get those children. Now, whether that is right 
or wrong, it is the reality of what is happening.
    And particularly if there are so many individuals working 
on it, and a parent can adopt with simply a home study, when 
they do not have an agency that they know what they are doing 
to protect them. It should not be what the market should bear.
    The Chairman. Good.
    Mr. McDermott?
    Mr. McDermott. I would agree with that range being accurate 
and the description of the services. It is just a matter of 
life that when all these services are involved, there is going 
to be expenses to pay for those. I know this is not germane 
today, but that is one of the reasons why we are also vitally 
interested in an extension on the adoption expense tax credit 
legislation that the Congress passed a few years ago.
    Another thing I would highlight is that if any of these 
costs are going to foreign facilitators as finder fees, that is 
one thing that we are very concerned about.
    Ms. Cox. Senator, I believe that fees are one of the most 
important barriers between children and families in adoption. 
And while I agree with Tomilee, it is absolutely necessary to 
provide fees for services, but they need to be appropriate fees 
for services. And I cannot imagine that adoption could be 
justifiably beyond $20,000. I really do think that fees are an 
incredibly important issue.
    You need to provide good services. But also, some times 
these fees, the higher fees, do not necessarily mean that 
families are getting better services. So there are a lot of 
things in this very complex issue besides just the amount of 
money.
    The Chairman. Well, my understanding is that most adoption 
agencies are 501(c)(3) organizations for tax purposes.
    Ms. Cox. Correct.
    The Chairman. And I asked myself, and I ask you to ponder 
it, do you believe that the cost of adoptions appropriately 
reflect the cost of the adoption only and not profit for 
individuals providing the service? That may be a question that 
varies from instance to instance.
    Senator Landrieu. Could I make a comment, if I could?
    The Chairman. Sure.
    Senator Landrieu. I wanted to jump in for just a minute to 
say that I think one of the goals of this Treaty is to keep the 
cost down and to keep the cost appropriate and to create more 
transparency in this whole process. So by being more 
transparent, it becomes sort of a self-monitoring system, if 
you will. The problem now is it is not transparent at all. And 
it is quite difficult, and so tremendous abuse can occur.
    But I want to say for the record that the cheapest adoption 
is not always the best adoption. And I think we have to keep 
that in mind. And there are some agencies that provide 
tremendous and terrific services and they are legitimate, and 
it costs money to do that, as has been testified to. And I 
would just say, Mr. Chairman, on that point, the tax credit 
that the Congress adopted is currently a $5,000 tax credit for 
adoption and you have to show expenses to claim it.
    But we, with your help, have put in a proposal to improve 
that tax credit, to double it, No. 1, to $10,000, and to make 
it real for special needs children--sibling groups, children, 
international, domestic adoptions of non-infants, you know, 
States that would determine what are special needs, and whether 
you have expenses or not, you could still take the $10,000.
    Now, most international will have expenses, but some 
domestic for special needs children do not. And so we want this 
tax credit to work both international and domestic. And I hope, 
Mr. Chairman, we can get that done. Of course that is a 
separate piece of legislation, but we hope that could be done 
this year also.
    The Chairman. Do you have any further questions?
    Senator Landrieu. No.
    The Chairman. I have kept you longer than I intended, and I 
have another meeting that I must preside over in 30 minutes. 
You have been very good about answering questions. Could I 
impose on you one more time? There are going to be Senators who 
wanted to come and who could not, who would like to ask you 
questions. There will be probably the chairman who wants to ask 
other questions. Would you grant us the privilege of forwarding 
to you further questions and would you respond to them and get 
them back to us? It would be so helpful if you would do that. 
And I will personally appreciate it.
    Ms. Mary, anything else?
    Senator Landrieu. No other questions. I would just say I 
really appreciate the testimony and all the hard work that is 
gone into this. And as I said, we have got improvements to make 
and some changes that have been mentioned today that we hope we 
can work through, but we are on our way. And I thank the 
chairman again. And hopefully we can--I do not know what your 
timeframe is--is it possible we could move this, do you think, 
this Congress?
    The Chairman. We can give it the old college try.
    Senator Landrieu. Well, I will start working on my side, 
the chairman said he will start working on his side, to see if 
we can get this moving forward. Thank you all so very much.
    The Chairman. Thank you all. And I thank you all folks for 
being here.
    If there be no further business to come before the 
committee, we will stand in recess.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]

 
                            A P P E N D I X

                              ----------                              


             Additional Material Submitted to the Committee
                             for the Record

                                  American Embassy,
                                            Moscow, Russia.
Hon. Jesse Helms,
U.S. Senate, Washington, DC.
    Dear Senator Helms: American citizens continue to adopt Russian 
orphans at a brisk pace. In the first five months op this year, the 
embassy issued one thousand six hundred and seventy immigrant visas to 
Russian orphans adopted by American families. At this rate, we may well 
exceed last year's record number of Russian orphan visa issuances, four 
thousand one hundred and seventy seven.
Danger in the Caucasus
    Because Russian law requires that both adoptive parents be present 
for the court hearing, the large number of American adoptions in Russia 
means that many thousands of American citizens come here every year 
expressly for this purpose. Unfortunately, some U.S. adoption agencies 
are arranging adoptions in areas of Russia--such as the Caucasus--that 
are extremely dangerous. Our consular information sheet and the state 
department webs site warn against travel to the area. In fact, I 
prohibit embassy personnel from traveling to the Caucasus.
    Adopting families are very attractive targets for kidnaping 
because, in addition to being foreigners, it is well known that they 
are spending large amounts of money in the adoption process. There is 
also the problem of deadly random violence; car bombs are a frequent 
aspect of daily life in this unstable part of Russia.
    This is not a theoretical problem. Four foreigners were kidnaped 
and decapitated in the Caucasus last year. An American missionary has 
been held hostage for the past several months because he and his family 
decided to ignore the embassy's advice in the belief that their good 
work and extensive local contacts would protect them. He has since lost 
part of his hand and is still a hostage of a criminal gang. No 
foreigner is safe in the republics that constitute the Caucasus: 
Chechnya, North Ossetia, Dagestan or Ingushetia. Even Russians are at 
risk; a Russian army general is currently being held captive.
    I want to emphasize that we do not object to agencies facilitating 
adoptions in these dangerous localities. Rather, it is the unsafe 
practice of sending American citizens into areas we consider dangerous 
that is our concern. My consul general has written to several agencies 
that have arranged adoptions recently in the Caucasus to suggest that 
if they are committed to working in this region, they establish an 
arrangement whereby the adoptive parents can accomplish the adoption by 
proxy or by some other mechanism that does not endanger their clients.
Russian adoption regulations still delayed
    As you know, the Russian government in July 1998 amended its family 
code with respect to international adoptions. However, the government 
still has not announced guidelines and regulations to implement the 
law. The guidelines will address important matters such the 
registration of foreign adoption agencies, and documentary requirements 
for foreign adoptions. Once the regulations are known, we expect that 
foreign adoptions in Russia will become more time-consuming and 
expensive. We are nonetheless confident that foreign adoptions will 
continue.
    Lacking guidelines since the law was amended, there has been even 
less uniformity than usual in how Russia's eighty nine jurisdictions 
have processed adoptions. This has caused some adoptions to be delayed. 
As I mentioned to you in my last update, the court in Irkutsk has been 
particularly obstructionist. To ameliorate the situation, we have 
invited a member of the Irkutsk court that handles adoptions to visit 
the U.S. as a participant in a United States Information Agency-
sponsored program entitled ``Russian Children and America: 
Understanding the U.S. Adoption Process.'' The judge has accepted our 
invitation and will travel to the U.S. in late June and return to 
Russia in early July. USIA, the sponsoring agency, is arranging for the 
judge and other participants in the program to meet with Congressional 
members and staff. Also, an embassy officer will travel to Irkutsk next 
week to meet with local officials to discuss ways of allowing adoptions 
to proceed.
Fiancees
    While it has become a well-known fact that embassy Moscow issues 
more orphan visas than any other post in the world, you may not be 
aware that we also handle a large number of fiance (k-i) visas. We are 
second only to Manila in the volume of fiance visa cases processed, and 
the number is steadily rising. In order to improve customer service to 
the prospective brides and grooms, my consul general has Worked out an 
expedited scheduling plan that in most Instances allows us to process a 
fiance visa in about four weeks, the minimum time necessary to complete 
the required name check. This has cut the waiting time by fifty 
percent. Once we receive an approved fiance petition from INS, and 
assuming the applicant is otherwise qualified, we can issue the visa 
the same day as the interview.
    I want to assure you that we will continue to do all that we can to 
assist U.S. citizens with adoptions and other visa matters, and to keep 
you informed of developments here.
            Sincerely,
                      James F. Collins, Ambassador,
                                  American Embassy, Moscow.
                               __________

  Statement Submitted by William Pierce, National Council for Adoption

    Mr. Chairman, the National Council For Adoption (NCFA) welcomes 
this opportunity to submit testimony on S. 682, the Intercountry 
Adoption Act. We are pleased and honored by your leadership in respect 
to this important legislation. We are also grateful for the bipartisan 
nature of S. 682, as reflected by the co-sponsorship of Sen. Mary 
Landrieu (D-LA). We have participated in and closely monitored the 
progress of the Hague Convention for a decade and, based on our 
experience, we believe that, all things considered, S. 682 is the 
superior legislative approach and therefore strongly endorse your bill.
    NCFA is a national organization, formed in 1980, which has four 
major functions--part research body, part public education body, part 
advocacy group and part membership group. This statement reflects our 
interests in all four categories.
    In terms of research, we have looked closely at intercountry 
adoption issues and professionally, I have been involved with the issue 
for more than 30 years of my career in social services. For the last 10 
years, I have spent perhaps half of my time on the Hague Convention, 
first in preparation for the sessions, then as a member of the U.S. 
Delegation, and since 1993, working collaboratively with people in the 
U.S. and around the world to ensure that implementation is as 
appropriate as possible.
    In terms of public education, we spend an enormous amount of time 
trying to convince people who are interested in adopting abroad to do 
their homework and do it right, but many people do not listen and then 
make major, life-changing mistakes. We also take many, many calls and 
complaints, some forwarded by government agencies, some by elected 
officials, trying to help citizens after the fact.
    In terms of advocacy, we have, thanks to your excellent staff and 
their outreach to the broad adoption community, had an opportunity to 
provide our views about implementing legislation prior to the 
introduction of S. 682 and subsequent to S. 682's introduction. We have 
provided your staff with extremely detailed suggestions for making a 
good bill even better and we will not repeat those voluminous remarks 
in this Statement.
    In terms of membership, we are perhaps unique in that we have as 
members not-for-profit adoption agencies, adoption attorneys, social 
workers, physicians, adoptive parents, adult adopted persons, persons 
who have placed children for adoption, academics, members of the 
media--in short, several thousand persons in every state and even some 
members in other countries. Perhaps half of our present membership of 
130 member agencies is currently involved in some fashion in the 
provision of services to persons considering international adoption, 
and virtually all the rest are considering this area of service because 
of the tremendous numbers of children languishing, without families, in 
other countries. Of our attorney membership, only a small percentage 
currently are involved with intercountry adoption, just as only a tiny 
percentage of attorneys generally are presently involved with 
intercountry adoption, except for re-adoptions here in the U.S.
    But, and this should be stressed, our views here and always are not 
primarily those of a professional association of either agencies or 
attorneys: we see our constituents as a much broader group including 
women faced with crisis pregnancies, children who have a right to live 
with parents who are willing and able to provide them with a sound 
moral framework in which to grow to responsible, productive adulthood 
and not just a place and family to live with. For that reason, we are 
frequently seen as a critic of poor adoption services, and rightly so: 
we believe that the best way to protect the good things in 
international adoption is to ensure that the incompetent, whether well-
meaning or not, and the unethical are not in the ranks of adoption 
providers here or abroad.
    We are also sometimes seen as not sufficiently responsive to the 
interests of children, especially children who have been adopted as 
minors and who, as adults, believe that they have a right to intrude 
into the lives of the women who bravely and humanely granted them both 
the opportunity to be born and the chance for a better life. We are 
keenly aware of the challenges facing women who are pregnant, and who 
are often unmarried--challenges which are complicated by religious, 
ethnic, political, language, cultural and national differences. Not 
every woman who chooses adoption or feels she has no real choice but 
adoption, given the circumstances in which she finds herself, fits the 
media stereotype of a birth mother anxious to have the adopted person 
come knocking at her door. In some countries and in some cultures, a 
knock on the door may be far more than an embarrassment or an uncaring 
exhibition of curiosity--it may literally destroy lives. The American 
culture, with its all-too-frequent preoccupation with sexuality and 
casual acceptance of nonmarital relationships that result in pregnancy, 
is not the sort of culture from which many of the children who come to 
the U.S. for adoption originate. I believe that the American approach 
to human rights and the rights of women to place their babies with 
whomever they choose, within the laws that prevent baby-selling and 
obviously improper activity, should be respected. That means, in my 
view, that a woman should have the right, without any governmental view 
that the country ``owns'' children interfering, to exercise her 
Constitutionally-protected right to travel, whether pregnant or with 
her baby, and to arrange an adoption. If, for instance, she was born in 
Mexico, or Canada, or Ireland, or the Philippines--or any other country 
other than the U.S.--she should have the option of returning there or 
going wherever she wishes to place her child with the parents of her 
choice or through the adoption provider of her choice. By what 
reasoning should our government try to second-guess her decision? It 
certainly is obvious that at present a woman who is a U.S. citizen has 
the opportunity to travel abroad if she wishes to arrange an abortion 
and she should have exactly the same right to travel abroad if she 
wishes to arrange an adoption.
    We now offer comments on some of the topics that have been raised 
during the years the Hague Convention has been under discussion, 
including topics or statements made in connection with the Oct. 5, 
1999, hearing.
    The U.S. as the major adopting country. Asst. Sec. Mary Ryan and 
others have stated that they believe that the U.S. adopts more children 
from abroad than all other countries combined. I note for the record 
that no data were presented to support this estimate. The fact is that 
there are other countries and localities, Quebec Province being just 
one example, where the rate of adoptions from other countries exceeds 
that of the U.S. Gross numbers alone may distort the picture since the 
U.S. is a nation with a very large population.
    HHS and its role in intercountry adoption and the Hague Convention. 
As a professional, I have worked in Washington since 1969 and had 
numerous interactions with the various federal agencies which have been 
mentioned as having a role in implementing the Convention. The fact is 
that one of the reasons we strongly support S. 682 is that the bill 
recognizes the necessity for locating the responsibility squarely in 
the Department of State. HHS indeed is the lead agency for domestic, 
special needs adoptions but its role during the last 20 years in 
particular has been anything but positive in respect to intercountry 
adoptions in general and to adoptions of children across racial and 
ethnic lines in particular. There have been numerous occasions when 
former U.S. Senator Howard Metzenbaum, who represented Ohio, has 
criticized HHS for its failure to carry out his MultiEthnic Placement 
Act. Some of these critiques have been before Congressional hearings, 
others with the media and this last Spring in a panel presentation at 
our Annual Conference. Because intercountry adoption is almost always 
interethnic and substantially inter-racial in nature, it would be a 
grave error to allow HHS to play any role whatsoever of a substantive 
nature in the implementing legislation. HHS has also demonstrated its 
lack of interest by its absence from the policy discussions of 
intercountry adoption since 1989. I did not see HHS as part of the U.S. 
Delegation. Only when implementing legislation began to be discussed 
and there was a need to consider what agency would have the role of 
overseeing agency accreditation did HHS appear. HHS does have 
substantial experience in some accreditation functions but not in 
intercountry adoption. Whichever federal agency is assigned this role 
by Congress, and I urge the Committee to hold fast to a single 
designation for State, that agency will need to hire consultants or 
staff or train existing personnel to gear up for the responsibility. It 
will be just as easy for State to do this as HHS and since State has a 
reputation for being adoption-friendly and helpful to citizens 
traveling overseas to adopt, State is quite properly the best choice. 
State is the only agency of the three agencies mentioned in hearings 
and discussions--State, INS and HHS--with any sort of track record of 
responsiveness to citizens, or even to Congress. Not a month goes by 
that I do not receive a call from some Member of Congress who is 
frustrated by a lack of responsiveness from INS, and INS is head-and-
shoulders above HHS in its competence and ability to work in 
international adoptions. The surest way to miss deadlines and to foul 
up international adoptions for U.S. citizens is to allow HHS to get 
involved in the process. There are many reasons why HHS has not been 
involved to date, not the least of which is its ``family preservation 
at all costs'' philosophy, an approach which sometimes even intrudes 
into the refugee and AID precincts of State.
    Abuses and problems as a reason for the Convention. Many of those 
who comment on the Convention focus on the relatively few abuses and 
problems in intercountry adoption rather than the astounding successes. 
This focus on the negative was present in the 1960s and continues to 
this day, a reflection of the fact that there have been isolated 
instances of problems--trafficking and fraud and bribery and 
misrepresentation and ineptitude--which have gotten headlines. And the 
light of public opinion is a strong disinfectant, one we like to see 
applied liberally. There were terrible miscarriages of justice in 
Argentina and some bad practices in Colombia (before our Ambassador 
helped his colleagues in Colombia root out the problematic people and 
organizations) and some mis-steps with the Vietnamese Baby Lift and 
some well-intentioned movements to pull children out of war-torn or 
disaster areas. But these are a minority of cases, and no reason to 
discard adoption across national borders. It is statistically 
predictable that there will be problems in any field of endeavor and 
our job is not to shut down those activities but to root out wrongdoers 
and prevent any repetition of improper, illegal or unethical acts. The 
Convention is designed to help ensure that when such problems arise 
they will be promptly and effectively dealt with. The Convention will 
ensure that intercountry adoption is as ``clean'' as humanly possible.
    Case-tracking and the temptations of public servants to expand. 
During these years of discussions, the matter of ``case-tracking'' has 
come up again and again and we would like to draw your attention to 
this matter. While no doubt there will be a need for State to develop a 
system, and INS will need to be involved, there are concerns about the 
size and scope of this case-tracking system. As a part of a delegation 
of organizations working under the ad hoc ``Hague Alliance'' I recall 
vividly hearing an exchange between two individuals, one from State and 
one from INS, the sense of which was that State and INS intended to 
spend a great deal of time and perhaps as much as a million dollars 
developing a tracking system. I would urge the Committee to keep a 
close eye on this case tracking system, so that it does not become 
either a waste of taxpayer or appropriated funds, or that it delays 
implementation of the Convention. The Convention should not be used as 
the excuse to do what well-intentioned public servants have had on 
their agenda for years.
    Post-placement and post-finalization involvement of government. 
These are two very important issues that we respectfully urge the 
Committee to monitor. First of all, there is a significant difference 
between post-placement and post-finalization. Once an adoption has been 
finalized by a court, and this is usually a court in the child's 
country of origin, that is a complete adoption. That family is legally 
the same as a family formed by biology and should not be subject to 
ongoing monitoring and especially should not be subject to intrusion. 
In the U.S., we do not interfere in the sanctity of the family without 
very good cause, and an adoptive family is no different than a family 
formed through biological reproduction within marriage. It is clear 
that countries of origin are concerned with the outcome of children 
placed with American and other families and who grow up outside the 
countries of their births. It should be possible for voluntary 
understandings to be reached which accommodate the legitimate interests 
of the orphanage and other officials to know how the children are 
faring, in a general way. But neither government entities nor adoption 
providers can or should be empowered to play ``Big Brother'' for the 
years of an adopted child's minority. This is an area where sound 
diplomacy and extremely good adoption practice can combine to protect 
family autonomy and reassure countries of origin. Secondly, there have 
been many references made to ``post-adoption services'' during the 
years the Convention has been under consideration and we would like to 
point out some concerns about this aspect of adoption. First, there is 
virtually no limit to what the government could end up paying for if 
``post-adoption services'' becomes a feature that must be paid for as a 
part of international adoption services. Just as foster care and other 
related services have mushroomed into a multi-billion dollar 
``industry'' so also could the present crowd of consultants, so-called 
experts and actual experts do to international adoption what they have 
done to domestic adoption. We urge great caution in respect to any 
mention of ``post-adoption services'' in legislation and specifically 
suggest that any regulations relating to this subject be required to be 
cleared in advance by the Committee on Foreign Relations because of the 
professional and diplomatic considerations involved.
    Uniformity among the States. Adoption is a matter of family law and 
in essence should be left to the various states. Although there are 
claims about ``trends'' and ``the movement of the field'' in one 
direction or another, much of this discussion is a matter of wishful 
thinking on the part of advocates for one position or another. As a 
case in point, consider North Carolina and its laws on privacy of 
adoption records. Although a number of state legislatures have seen 
fit, unwisely in our opinion, to water down promises made to women who 
bravely chose adoption for their babies and to retroactively change 
laws so as to inhumanely destroy their reputations and lives, North 
Carolina has not done so. Neither have a number of other states moved 
to allow adopted persons to disrupt the lives of the women (and, less 
frequently, men) who made it possible for them to have the gift of life 
with parents who were ready and willing to take on child-rearing 
responsibilities. The most ambitious move to achieve uniformity, the 
Uniform Adoption Act, has been endorsed and actually supported by 
groups like the American Bar Association and NCFA, but not the American 
Academy of Adoption Attorneys. We find it odd that some have testified 
as to the need for uniformity in international laws about adoption 
while resisting rather minimal uniformity in domestic laws about 
adoption. We strongly urge that, to the extent possible, the Committee 
resist attempts to ``federalize'' adoption laws, even in supposedly 
innocuous plans such as setting up Federal Adoption Reunion Registries, 
a pet scheme of Sen. Levin of Michigan for two decades. It is true that 
state licensing is uneven in its content and application. So also is 
state monitoring of intercountry adoption operations and complaint 
processing. But the only thing worse than imperfect administration of 
programs at the state level is imperfect administration of programs at 
the federal level, with the complications of dozens of jurisdictions 
and the necessity for layers and layers of bureaucracy.
    Accreditation, approval and quality considerations. Great hopes 
have been attached to the accreditation of agencies as a means of 
ensuring quality services for American citizens and proper protection 
for children. And undoubtedly, if accreditation is properly carried 
out, the net effect will be an improvement of quality. But 
accreditation is essentially a consultative process, not a policing 
process, at least as carried out by human services accrediting bodies. 
Therefore, there should be no illusion about any accreditation, even if 
NCFA were to take on such a role (and this is highly unlikely), 
guaranteeing or ensuring quality. I have spent nearly 30 years working 
in the field and seeing first-hand how membership standards and 
accreditation actually work and can assure the Committee that these are 
very much a matter of art and not science. At bottom, there are many 
variables which account for quality: staff; supervision; turnover; 
board leadership; dedication to mission; consumer service; financial 
accountability; creativity; flexibility; relationship of fees to 
services provided; activity of consultants, contract employees and 
various facilitators. An agency I would rate as ``A'' one year may, in 
the course of a few months, become a ``C'' agency because its CEO has 
retired and its director of intercountry adoption services has 
resigned. By the same token, an agency that is new or struggling or 
marginal can substantially improve its quality of service and go from a 
``D'' to a ``B.'' The same is true for those who may be seeking 
approval under the Convention. Just as there are good agencies and 
marginal or bad agencies, there are good attorneys and social workers 
and marginal or bad attorneys and social workers. Good as the oversight 
of accreditation will be from State, I can assure you that even if I 
had that task (and I will not have that assignment) there would still 
be a need for independent and ongoing monitoring by others in State to 
ensure that citizen complaints are promptly answered and actions taken 
to improve services. Accreditation or approval, even if it met the sort 
of requirements I outlined in the law review article published in 1996 
by the Catholic University of America, which is provided as an 
attachment to this Statement, would still not provide the sort of 
assurances that the Committee would prefer.
    Adoption counseling. Much has been made of the difficulty that 
would be encountered were S. 682's provisions calling for pre-adoption 
education and preparation of prospective adoptive parents. There are 
many models available which the Committee could use to tailor more 
precisely its language, but the essential wisdom of the provision 
remains. To ensure that something happens to help prepare people for 
the challenges of intercountry adoption, there needs to be a specific 
requirement in the law. Certainly there will be uneven application of 
the requirement. Some training will be better because the people 
preparing the curriculum or doing the training are more experienced and 
competent. We urge the Committee to require at least one hour of 
training per week over a period of six weeks and leave the details of 
the training to regulations.
    Adoption provider responsibility. Most intercountry adoptions today 
are finalized prior to the time that the child leaves her or his 
country of origin, so that if a placement breaks down it usually is 
after the child comes home to the U.S. with the adopting family. We 
believe that it is proper for the implementing legislation to address 
the issue of provider responsibility. Our view is that the law should 
require the adoption provider, whether an agency, an attorney, a social 
worker or any other entity, to provide for permanent legal parents for 
the children they place. This means that if an adoption breaks down, 
there should be a clear responsibility for the provider to take custody 
and responsibility for the child if the adoption has not been finalized 
by a court. For finalized adoptions, we believe that the legislation 
should strongly encourage but not require adoption providers to step 
in, because it is impractical to hold providers responsible. In terms 
of those few adoptions that do break down after court finalization, we 
believe that data should be gathered but in such a fashion as to 
respect the privacy of the family and within the practical limits of 
adoption providers.
    Central information source. We noted with interest the statement in 
Asst. Sec. Ryan's statement that ``Under the Convention, the U.S. 
Central Authority will arrange for access to a central source of 
information on U.S. state laws relevant to intercountry adoption.'' We 
are concerned about how this statement might be implemented, given the 
past history of adoption information and the federal government. A GAO 
study, INTERCOUNTRY ADOPTION: Procedures Are Reasonable, But Sometimes 
Inefficiently Administered, April 1993 (GAO/NSIAN-93-83), done at the 
request of Sen. Specter of Pennsylvania commented, at p. 29, on the one 
HHS activity that directly related to intercountry adoption, the 
National Adoption Information Clearinghouse, operated under contract. 
The GAO report says ``The information is broad based and generally 
useful, but it contains some mistakes that could cause a processing 
delay or confusion. For example, prospective parents are advised that 
an approved home study is needed when submitting an orphan application 
for advance processing when, in fact, the home study may be admitted 
later. Also, according to the [NAIC] information, the orphan petition 
should be filed when the child is legally adopted in the foreign court. 
To the contrary, it should be filed as soon as possible [emphasis 
added].'' We hope that the Committee would preclude any use of HHS or 
its Clearinghouses to provide such information. We also experience, 
each day, dozens of calls from citizens who have not been able to get 
answers from any other source and call us thinking that somehow we are 
a federal, taxpayer-supported organization. We clarify that we are a 
private charity but do try to help, especially if a person or couple is 
about to make a terrible or costly error. We even take calls from 
citizens of other countries who are temporarily residing in the U.S., 
who have been referred by their embassies to us. The kind of 
information Asst. Sec. Ryan mentioned is critical to provide and we 
urge the Committee to ensure that this information be provided by 
State, or if not directly by State, by competent, adoption-savvy and 
adoption-friendly sources. Today, much excellent information is on the 
internet and State has excellent resources on its site but there is 
also a great deal of misleading information.
    Limiting adoption to married couples. One of the aspects of S. 682 
which has drawn comment is the requirement that U.S. children who are 
adopted by persons who are citizens of other countries be adopted only 
by married couples composed of a male and a female. Some of the 
comments and statements have called this ``an unprecedented standard'' 
and predict various dire consequences. For the record, we would point 
out, as Susan Cox of Holt did in her oral testimony, that the country 
which has the longest and, arguably, the most successful intercountry 
adoption program, the Republic of Korea, has had a general rule of this 
sort from the outset. There have been exceptions, of course, as there 
always are to general rules, for good cause. But the policy has been 
proven out in research findings which have reflected outstanding 
results for children from Korea adopted by American couples. Korea's 
policy has not restrained other countries, such as China or Russia or 
Colombia or others, to put any similar restriction in place. If this is 
an approach which the Committee believes is best for American children, 
then we would strongly support this viewpoint not just because of the 
precedent from Korea but because of the evidence from child development 
research as well as common sense, evidence once again confirmed by the 
comments in the Hearing, that all things being equal a child benefits 
from having a Mom and a Dad rather than only a Mom or, less frequently, 
only a Dad. We are aware that there are groups who wish to expand on 
adoption practices allowed in some states and allow unmarried couples, 
whether of the same gender or otherwise, to adopt. We are gravely 
concerned about this approach and urge the Committee to reject such a 
drastic step. Those who cannot or will not commit to each other legally 
can hardly commit to a lifetime of parenting and legal responsibility 
for a child. By the same token, we are quite aware and applaud the many 
single parents who have stepped forward and are very successfully 
raising adopted children. We would not wish our concerns about 
adoptions by unmarried couples to be misread as opposition to adoption 
by single, unmarried persons when the situation is in the best 
interests of the child.
    Twelve month waiting period. We have serious concerns about this 
provision in S. 682 for the reasons outlined at length in previous 
communications to the staff of the Chairman. We urge its deletion or, 
if any waiting period is retained, that it be applied only to those 
children who are within the public child welfare system. Any waiting 
period for newborn children would be profoundly problematic and could 
lead to unintended consequences. As stated above, we believe that if a 
woman wishes to plan adoption for her newborn, this is her right and is 
not subject to interference by federal, state or local officials, by 
tribal or parental interests, or by any other party except, where 
indicated and appropriate under applicable state law, the biological 
father of the baby. On the other hand, an argument could be made that 
if a child is a ward of the state then the state could determine to 
wait a year and seek a U.S. family for the child. We would hope that 
such a policy decision would not be made, but it would have the virtue 
of recognizing ``parental'' or ``in loco parentis'' status.
    Privacy considerations. Having been a member of the U.S. 
Delegation, I had the privilege of hearing the debate at The Hague 
about privacy. It is clear that many sending countries desire to 
protect the privacy of biological parents. It is also clear that some 
of the receiving countries, especially those in Western Europe, have 
views on privacy that are quite different--views that would place the 
rights of the child to intrude upon a parent above the rights of the 
very parent who carefully decided to carry a baby to term or to place a 
child for adoption precisely because of privacy guarantees. We urge you 
to ensure that those privacy guarantees are respected and, as 
necessary, that loopholes which would endanger the reputation (and at 
times, the very life) of a woman would be closed.
    Findings on outcomes of children. There have been various reports 
issued about the health and developmental status of adopted children 
prior to and as part of the Hearing. We would urge the Committee to 
carefully review any claims about outcomes and determine how much 
scientific validity is present. It is true that substantial numbers of 
children from Romania (and to a lesser extent, from other Eastern 
European countries) have been diagnosed with serious developmental and 
other problems. Reports on these children, however, are largely from a 
self-referred sample and are likely to be the result of well-meaning 
attempts to provide homes to children who were portrayed on the media 
as languishing in orphanages established in Romania's Ceaucescu era. 
Similarly, reports of good outcomes for children from Eastern Europe, 
at least to date, appear to be from selected samples. Much more study 
is required before any definitive conclusions can be drawn about 
children from Eastern Europe.
    Consumers of adoption service. We have noted with interest some of 
the letters and statements provided to the Committee for the Hearing, 
especially those which reflect profound dissatisfaction with services. 
We urge the Committee to import into S. 682 substantial portions of 
legislation drafted by Rep. James Traficant of Ohio, legislation which 
aims to improve the odds that consumers of adoption service will have 
information they need to make informed choices. We would also point out 
that these consumer protections are part of the assignment that all 
Central Authorities are expected to take on not just in respect to 
their own citizens but in order to be able to exchange information with 
other Central Authorities.
    Conclusion. We are deeply grateful to the Chairman for his 
leadership on this important issue. We believe that S. 682 is a sound 
piece of legislation. As Sen. Landrieu stated in the Hearing, it is not 
``perfect'' but it is an astounding contribution to intercountry 
adoption and to the millions of children whose futures depend on the 
Hague Convention--now and in the years to come. We urge the Senate to 
approve S. 682 and stand ready to be of assistance or counsel as the 
legislative process moves forward. We respectfully request that the 
Senate complete its work during this calendar year. The birth mothers, 
the children and the adoptive families need action now.
                               __________

       Statement Submitted by the Child Welfare League of America

    The Child Welfare League of America (CWLA) welcomes this 
opportunity to submit testimony on S. 682, the Intercountry Adoption 
Act. We commend the efforts of the bill's bipartisan sponsors for 
taking steps to both ratify the Convention on Protection of Children 
and Co-operation in Respect of Intercountry Adoption (the Convention) a 
id to put forth legislation to implement the Convention.
    CWLA is an 80-year-old association of more than 1,000 public and 
private nonprofit community-based agencies that serve more than three 
million children, youth, and families each year. CWLA member agencies 
provide the wide array of services necessary to protect and care for 
abused and neglected children, including child protective services, 
family preservation, family foster care, treatment foster care, 
residential group care, adolescent pregnancy prevention, child day 
care, emergency shelter care, independent living, youth development, 
and adoption. Nearly 400 of our member agencies provide services that 
enable children to secure loving, permanent families through adoption. 
Of that total, approximately 125 agencies provide international 
adoption services.
    CWLA and our member agencies were active participants throughout 
the convention process. The Child Welfare League of Canada's former 
executive director was part of the official delegation from Canada to 
the Hague Conference on Private International Law that led to the 
enactment of the Convention on Intercountry Adoption. CWLA provided 
direct input to the official United States delegation during the 
negotiations leading up to the United Stat s signing the treaty in 
1994. CWLA member agencies were represented on the Study Group on 
Intercountry Adoption convened by the United States Department of 
State. Following the adoption of the Convention, CWLA member agencies 
and others in the forefront of intercountry adoptions drafted 
accreditation standards consistent with the Convention. These draft 
accreditation standards are available for review and/or revision and 
implementation by the United States central authority to be designated 
in legislation to implement the treaty. CWLA also provided input into 
the proposed implementing legislation transmitted to Congress by the 
Administration.
                            need for action
    Intercountry adoption can offer children the advantage of a 
permanent family for whom a suitable family cannot be found in his or 
her country of origin. Increasingly, families in the United States are 
choosing to build their families by adopting children from abroad. The 
number of children from other countries who were adopted by families in 
the United States has nearly doubled in the past 10 years.

  <bullet> In the last 10 years, almost 100,000 children have joined 
        United States families through intercountry adoption.
  <bullet> In 1988, a total of 9,356 international adoptions were 
        completed.
  <bullet> In 1998, 15,774 international adoptions were completed in 
        the United States. That number is expected to increase 
        significantly in the next decade.

    There is substantial public and governmental interest in attending 
to and monitoring the international process to protect children from 
exploitation and abuse and further to ensure their safety and well-
being. Recognizing this need, the United States signed the Convention 
on Intercountry Adoption in 1994. The Convention prescribes a framework 
for cooperation and a legal structure to safeguard children, birth 
parents, and adoptive parents involved in intercountry adoption. The 
Convention addresses safeguards to ensure that intercountry adoptions 
are in the best interest of children. It establishes a system of 
cooperation among countries to prevent abduction, sale of, or traffic 
in children.
    The United States signing of the Convention was only the first 
step. The treaty is not legally binding until it is ratified by the 
United States Senate. To become operational, implementing legislation 
also needs to be passed by both the House and Senate. As other 
countries ratify the Convention, they agree to place children for 
adoption only with countries that offer the same protections. Delay or 
failure of the United States to ratify and implement the treaty could 
result in thousands of American families not being able to adopt 
children from other countries.
                    comments on provisons of s. 682
    We agree with the important goal of the legislation: to ensure that 
children joining families through adoption across national borders be 
better protected. Today we offer comments and recommendations on S. 
682.
Establishment of Central Authority
    The United States is unique from other countries in that adoption 
is governed by state laws, which leads to as many as 50 different 
offices with related but somewhat different eligibility requirements, 
forms, and procedures for other foreign governments to interact with to 
complete an intercountry adoption. This variability is very confusing 
to other countries that have one central authority for handling 
adoptions and one set of eligibility requirements, forms, and 
procedures.
    Establishing a national central authority will ensure that the 
United States has a single authoritative source of information about 
the laws and procedures for intercountry adoptions in the United 
States. The central authority will serve as a single point of contact 
for other party countries to look for reliable information about 
adoption laws in the United States. The central authority will also be 
responsible for monitoring United States implementation of the 
Convention, to ensure that the adoption procedures outlined in the 
Convention are followed. These procedures include ensuring that the 
necessary consents for adoption have been obtained, the country sending 
the children has determined that the child is eligible for adoption, 
and the country receiving the child has determined that the potential 
adoptive parents are eligible and suited to adopt. S. 682 designates 
the United States Department of State as the central authority with 
total responsibility for these functions. CWLA agrees that the State 
Department should have a pivotal role in overseeing intercountry 
adoptions.
Accreditation Oversight
    Under the Convention, all agencies providing international adoption 
services have to be accredited. CWLA helped prepare draft accreditation 
standards that are now available for review and/or revision and 
implementation by the designated United States Central Authority. These 
standards of practice detail the fundamental requirements for providing 
quality intercountry adoption services. Given the complexity of 
intercountry adoption, standards of practice need to be consistent 
throughout the country, and agencies need to be accredited to 
demonstrate their competence in this specialized field of adoption. 
This accreditation process will ensure that agencies doing adoption 
services are reputable, have knowledge of the special issues and 
expertise needed to do intercountry adoptions competently, and follow 
sound business practices.
    Licensed, nonprofit adoption agencies play a pivotal role in 
ensuring protections both for the children and the families seeking to 
adopt. Although independent intercountry adoptions have been possible 
in the United States and can continue under the Convention, CWLA 
believes that, due to the complexities inherent in adoption, all 
adoptions, domestic or intercountry, need to be completed through a 
licensed, nonprofit social service agency. The added complexity of 
intercountry adoption increases the need for the involvement of social 
service agencies to ensure that the children have been voluntarily 
released by their birth parents or freed for adoption in a legally 
correct manner, and that services were offered to birth parents if they 
are known, to ensure that they made an uncoerced decision with full 
knowledge of the implications of their decision.
    Social service agencies are also in the best position to prepare 
families for the challenging and rewarding experience of intercountry 
adoption and to support them following placement and following the 
legal completion of their adoptions. Not only do families need to deal 
with the usual issues of adoption--grief and loss, attachment, 
explaining adoption to their children, assisting with self-concept, and 
integrating the reality of both birth family and adoptive family into 
their own identities--but they must also be prepared to help children 
with abrupt changes in language, customs, food, climate, dress, and 
behavioral expectations in their new country.
    S. 682 assigns oversight of accreditation to the United States 
Department of State. CWLA believes that role should be assigned to the 
United States Department of Health and Human Services (HHS). That 
agency has the knowledge and expertise in child welfare policy and 
practice including adoption services. CWLA suggests that HHS, in 
coordination with the Department of State, be delegated the 
accreditation responsibilities prescribed by the Convention.
Need for Post-Legal Adoption Services
    CWLA strongly recommends that S. 682 add provisions to promote the 
development of post-adoption services. Article 9 of the Convention 
states that the central authority shall promote the development of 
post-adoption services yet, S. 682 makes no provision for these 
services. Families adopting children from other countries are likely to 
need assistance after the adoption is finalized. In addition to the 
issues related to changes in culture and language increasing numbers of 
children adopted from other countries are older; in some instances, 
they have experienced years of living in orphanages or other 
institutions and need help adjusting to living within a family. A 
significant number of children are reported to have problems related to 
attachment and bonding with their new families. Post-adoption services 
such as respite care, counseling, and parent education and training can 
support parents in meeting the specific needs of their adopted children 
to maintain safe, nurturing, permanent families. Post-adoption services 
are the key to preventing adoption disruptions and dissolution and 
should be available to all adoptive families.
Married Couple Requirement for the Adoption of U.S. Children
    CWLA recommends that the requirement set forth in S. 682, that 
parents adopting United States children be a ``married man and woman'' 
be dropped. That proposal creates an unprecedented standard for both 
United States or intercountry adoption and creates additional barriers 
for children in need of permanent adoptive families. CWLA Standards for 
Adoption Practice state that all applicants should have an equal 
opportunity to apply for the adoption of children and receive fair and 
equal treatment and consideration of their qualifications as adoptive 
parents. The needs of the child are always the priority consideration 
in adoption. The imposition of this type of limitation may result in 
other countries reciprocating by imposing similar restrictions on 
United States adoptive parents. This would result in fewer children 
finding permanent families CWLA opposes any measure, such as the 
restriction contained in S. 682, which would restrict permanency 
options for the children in need of permanent families.
Access to Identifying Information
    Article 30 of the Convention mandates that information on the child 
concerning the child's origin--in particular information concerning the 
identity of his or her parents as well as the medical history--be 
preserved. The Convention also states that the child or his or her 
representative should have access to such information, under 
appropriate guidance, in so far as is permitted by the law of the 
state. S. 682, however, prohibits access to identifying information in 
adoption records. The evidence is increasingly clear that individuals 
who were adopted as children need information about their backgrounds 
for their optimal mental health. While such information is often 
fragmentary in intercountry adoptions, what is available should be 
shared. CWLA suggests that S. 682 be changed so to allow identifying 
information to be maintained, and provisions and conditions for access 
be determined, as set forth in the Convention.
Twelve-Month Waiting Period to Adopt Children in the United States
    S. 682 prohibits the adoption of a child from the United States 
until 12 months after the child has been made available for adoption. 
CWLA suggests that this provision be dropped. CWLA opposes any 
restriction that would delay placement of children into permanent 
families. The imposition of this type of limitation may result in other 
countries reciprocating by imposing similar restrictions on children 
leaving their countries. This would result in unnecessary delays for 
children in need of permanent families.
Annual Report on Disrupted Adoptions
    The annual report prescribed in S. 682 includes data on the number 
of disrupted adoptions, including the reasons for the disruption and 
the resolution of the adoption. Disruptions usually refer to ending an 
adoption between the time the placement agreement is signed and the 
adoption is finalized. In intercountry adoptions, 80% of the adoptions 
are finalized in the sending country prior to the child entering the 
United States. The burden of measuring disruptions in intercountry 
adoptions, therefore, falls exclusively on individual adoptive 
families. This requirement imposes an intrusive burden on adoptive 
families, violating their right to privacy. We suggest that this data 
element be dropped from the annual reporting requirements.
    In sum, we again commend this Committee for moving forward to 
implement the Convention on Protection of Children and Co-operation in 
Respect of Intercountry Adoption. We applaud the efforts of the 
Senators who worked diligently in developing this legislation, which we 
believe can and should move forward, with improvements. We look forward 
to continuing to work with you to help protect children as they move 
across national borders to find loving, permanent families.
                               __________
                      American Bar Association,    
                       Governmental Affairs Office,
                                  740 Fifteenth Street, NW,
                                  Washington, DC, September 1, 1999
The Honorable Joseph R. Biden. Jr.,
Ranking Member, Committee on Foreign Relations,
U.S. Senate,
Washington, DC.
    Dear Senator Biden: On behalf of the American Bar Association 
(ABA), I write to express our interest in continuing to work with you 
and your colleagues on the Committee on Foreign Relations as you hold 
hearings on S. 682, the Intercountry Adoption Convention Implementation 
Act of 1999.
    Recently, the ABA Sections of Family Law and International Law 
jointly developed the enclosed comments in support of the ratification 
of the Hague Convention on the Protection of Children and Cooperation 
in Respect of Intercountry Adoption and the proposed implementing 
legislation, entitled the Intercountry Adoption Act (IAA), submitted by 
President Clinton to Senate leaders and Administration officials. The 
comments on the proposed IAA are presented on behalf of the Family and 
International Law Sections. They have not been approved by the ABA 
House of Delegates or the Board of Governors and, accordingly, should 
not be construed as representing the position of the Association.
    We are writing to transmit these comments and request that this 
letter be made part of the record ot the Committee's hearing of 
September 15, 1999 as the debate continues over the many complex issues 
involved in developing uniform international legal procedures to govern 
intercountry adoptions.
    Should you wish to obtain further information on the ABA's role in 
dealing with the Convention or adoption issues, please do not hesitate 
to contact Irving Daniels in this office. We look forward to working 
with you and your Committee to assist in the passage of this important 
legislation.
            Sincerely,
                                   Robert D. Evans.
                                 ______
                                 
                      American Bar Association,    
                             Section of Family Law,
                                750 North Lake Shore Drive,
                                         Chicago, IL, May 17, 1999.
The Honorable Mary Landrieu,
Hart Building, Room 702,
2nd & C Streets, NE,
Washington, DC.
    Dear Senator Landrieu: The Section of Family Law and the Section of 
International Law and Practice of the American Bar Association (ABA) 
submit these comments in support of the ratification of the Hague 
Convention on the Protection of Children and Cooperation in Respect of 
Intercountry Adoption (hereinafter the Hague Convention treaty). We are 
also submitting comments on proposed implementing legislation for the 
Hague Convention treaty. The proposed implementing legislation includes 
the Intercountry Adoption Convention Implementation Act of 1999 (IACIA) 
(S. 682) which has been introduced to the 106th Congress and the 
Intercountry Adoption Act (IAA) which was transmitted by President 
Clinton along with the Hague Convention treaty to the 105th Congress. 
IAA has not yet been transmitted or introduced to the 106th Congress.
    The comments on the legislation are presented on behalf of the 
Family and International Law Sections. They have not been approved by 
the House of Delegates or the Board of Governors and, accordingly, 
should not be construed as representing the policy of the ABA. The 
comments, however, are consistent with the ABA's current resolution, 
adopted in February 1994, which urges the United States to ratify the 
Hague Convention treaty and urges enactment of legislation to implement 
the treaty. The resolution states:

          RESOLVED, That the American Bar Association urges that the 
        Senate of the United States give its advice and consent to the 
        ratification of the Hague Convention on Protection of Children 
        and Cooperation in Respect of Intercountry Adoption, the final 
        text of which was adopted by the Hague Conference on Private 
        International Law on May 29, 1993.

          BE IT FURTHER RESOLVED, That the Congress of the United 
        States enact implementing legislation to permit the United 
        States to participate in this multilateral Convention.

    The Hague Convention is a multilateral treaty that sets out uniform 
international legal procedures to govern intercountry adoptions while 
at the same time recognizing the freedom of each ratifying country to 
establish its own system for implementing the Convention. Intercountry 
adoptions occur when a country of origin--the home State of a child--
permits adoptive parents from a receiving nation--the home State of the 
parents--to adopt and move a child across international borders. The 
Hague Convention is the first treaty to endorse intercountry adoption 
as an option for children in need of a family as long as the 
internationally established norms of the Hague Convention are followed.
    We urge Congress to ratify the Hague Convention on Intercountry 
Adoption. The Hague Convention treaty and implementing legislation will 
provide a legal framework for facilitating intercountry adoptions. 
Without the treaty and accompanying implementing legislation, U.S. 
citizens eventually may be unable to adopt abroad as more and more 
countries ratify the Hague Convention and require other States to be a 
party to the treaty for an intercountry adoption to take place.
    Many children, oftentimes in institutions and orphanages, are being 
permitted by their country of origin to participate in an intercountry 
adoption. U.S. parents are seeking to adopt those children designated 
by their country of origin as adoptable. The Hague Convention treaty 
standards have thus become crucial to connecting prospective parents 
with adoptable children. Without the Hague Convention standards, there 
are no internationally recognized norms or procedures to protect the 
individual participants involved in the adoption triangle--the child, 
the biological parents, and the adoptive parents--or to ensure that 
States of origin and receiving States have coordinated with each other 
to complete the necessary steps for a final adoption that respects the 
legal procedures of each State.
    The treaty is an international bridge between adoptable children 
and adopting parents. All members of the adoption triangle are 
protected by the rules requiring accreditation of adoption agencies and 
registration of those agencies with The Hague Conference on 
International Law Permanent Bureau. All parties are protected by the 
prohibitions against excessive remuneration in any adoption. All 
parties' ability to complete an intercountry adoption is increased by 
the creation of Central Authorities--governmental entities in each 
participating State responsible for coordinating intercountry 
adoptions.
    We believe that any implementing legislation should be consistent 
with the Hague Convention treaty principles. Our general comments on 
any proposed implementing legislation for the Hague Convention on 
Intercountry Adoption are listed below. We also make some specific 
comments on the IACIA, introduced as S. 682, and on the proposed IAA, 
which was transmitted to the 105th Congress, but which has not been 
transmitted or introduced to the 106th Congress.

    1. The Hague Convention treaty requires that the United States 
designate a Central Authority. We support the designation of the U.S. 
Department of State as the U.S. Central Authority. The Department of 
State negotiated the treaty and has experience with assisting U.S. 
parents adopting abroad and with coordinating with other States who are 
parties to the Hague Convention. This experience should enable the 
Department of State as the Central Authority to keep the adoption 
paperwork moving so that parents and their adopted children may come 
home without unnecessary delays. Likewise, sufficient funds and 
resources should be specifically allocated for the performance of Hague 
Convention treaty functions. We support a fee retention mechanism that 
permits fees charged to be designated specifically for Central 
Authority functions.
    2. The Hague Convention treaty legislation may establish a troika 
of federal agencies--Department of State, Health and Human Services 
(HHS), and the Immigration and Naturalization Service (INS)--to 
implement the Hague Convention treaty or just two agencies--Department 
of State and INS--may be responsible for implementing the Hague 
Convention. Any agencies that are assigned Central Authority functions 
should be required to coordinate and consult with each other about 
implementing policies and regulations that affect intercountry 
adoptions before establishing such policies and regulations.
    In the case of INS, for example, the rule that persons immigrating 
show proof of certain vaccinations was passed without considering the 
effect on immigrating children. After it was implemented and caused 
substantial hardship and anguish for traveling families, the 
vaccination requirement was changed for immigrating adopted children. 
Many adopted children receive no vaccinations in their country of 
origin and could not be safely vaccinated before traveling to the 
United States. Although the problem was eventually corrected, this 
issue could have been avoided if the effect of new policies on 
intercountry adoption was considered before implementation.
    3. IACIA requires that the Central Authority provide reports on the 
status of the Hague Convention treaty and implementing legislation to 
appropriate congressional oversight committees on a regular basis once 
the Hague Convention treaty has been in force for a set period of time. 
We support the statutory requirement of providing annual reports on 
intercountry adoptions.
    4. An independent advisory or oversight board, consisting of 
adoption and international law experts, adoptive parents, agencies and 
attorneys working in the field of intercountry adoption, and others who 
could provide input and advice on an ongoing basis to the Central 
Authority and other federal agencies responsible for implementing the 
legislation, should be created. This advisory or oversight board could 
ensure that the responsible officials receive timely information about 
the implementation of the Hague Convention treaty from the adoption 
community.
    5. HHS or the State Department may be delegated the accrediting 
functions under the Hague Convention. In preparing regulations on the 
accreditation of adoption agencies and approved persons for working in 
the field of intercountry adoption, either agency should be statutorily 
mandated to give serious consideration to recommendations on 
accreditation standards from the appropriate adoption groups and 
professionals familiar with intercountry adoption practices and 
procedures. We support the IACIA and IAA statutory requirement that 
consideration be given to such accreditation recommendations.
    6. Under the Hague Convention treaty, governmental entities that 
provide adoption services have a preferred position. State and local 
governmental agencies, under Section 203(b)(3) of the proposed IAA, are 
to be considered only as approved persons for the purposes of the 
accreditation of governmental entities to provide adoption services 
under the Hague Convention. IACIA may require state and local agencies 
to meet the same accreditation standards as private agencies. The 
legislation should be made consistent with the Hague Convention treaty 
so those governmental agencies providing adoption services are granted 
preferred status as permitted by the Convention.
    7. Under both the IACIA and the proposed IAA, the U.S. Department 
of State is designated as the U.S. Central Authority for implementation 
of the Hague Convention. The Department of State is responsible for all 
``central authority functions,'' which is defined as follows in Section 
3(8) of IACIA and in Section 2(f) of IAA:

        Central Authority Function.--The term ``central authority 
        functions'' means the duties imposed upon central authorities 
        by Chapters III and IV of the (Hague) Convention.

    The definition of 11central authority functions'' is too narrow. 
The reference to Chapters III and IV of the Hague Convention is correct 
but the other chapters of the Hague Convention should be included in 
the definition. For example, Chapters I, II, V, VI, and VII of the 
Hague Convention are not included. Unless the designated U.S. Central 
Authority is given responsibility for overall Hague Convention 
compliance, not just certain portions or chapters of the Hague 
Convention, critical Hague Convention requirements will not be clearly 
assigned to a federal agency.
    8. The Hague Convention treaty itself does not contain provisions 
on voiding adoptions completed under it; however, the proposed IACIA 
and IAA contain such provisions in Section 305 on Voiding of Adoptions 
for Cause. Under Section 305, an U.S. state court may void a decree, 
and must give full effect in the United States to another country's 
proceedings vacating an adoption under the Convention, if certain 
requirements specified in the statute are met.
    First, the provisions of Section 305(a)(1)(2)(A) assume that in all 
cases there would have been birthparent consent or consent by a 
relative to the adoption. In abandonment cases, however, consent would 
have been properly given at the time of the adoption by an institution 
such as an orphanage, and in cases where parental rights were 
terminated for abuse or neglect, parties other than the birthparents 
would have granted the appropriate consents to the adoption. Thus, the 
voiding of adoptions for cause section should recognize other types of 
valid consents that were legally recognized under the law of the 
country of origin at the time that they were granted. Otherwise, the 
mere absence of birthparent consent could be grounds for vacating an 
adoption even where such consent was not required at the time the 
adoption was granted.
    Second, if provisions on voiding adoptions conflict with individual 
U.S. state law, the section does not make clear which law will govern--
federal or state. In particular, the reference to state law in Section 
305 (a)(2)(A) does not make clear, which ``state'' law is being 
referenced--the U.S. state where the child was adopted or the sending 
country from which the child immigrated.
    Third, in Section 305 Voiding of Adoption for Cause, the provision 
set out in Section (a)(5), stating that no adoption may be voided after 
two years has passed since the adoptive parents obtained custody of the 
child, should be modified to provide that the two years start to run 
when the parents have legal or physical custody of the child, whichever 
occurs first.
    9. A new certification procedure for Hague Convention intercountry 
adoptions in Sections 301 and 302 of IACIA and IAA is created. As set 
out, the U.S. Central Authority will certify that a particular adoption 
is in compliance with the Hague Convention and the U.S. implementing 
legislation. This certification is then sent to INS. INS uses the 
certification as the basis for issuing a visa for the adopted child to 
immigrate to the United States.
    The two sections--Section 301 (b)(l) and 302 (b)(2)--dealing with 
this certification procedure are not consistent. Section 301 (b)(1) 
requires that the State Department issue the certification (1) when the 
Department of State receives appropriate notification from the Central 
Authority of the child's country of origin that the adoption is in 
compliance with the Hague Convention and (2) when the Department of 
State has verified that the requirements of the IACIA or IAA have been 
met. Section 302 (b)(2), however, requires the Department of State to 
send to INS a Certification that provides that the Central Authority of 
the child's country of origin notify the U.S. Central Authority that 
the adoption is in accordance with the Hague Convention and IACIA or 
IAA as the case may be (emphasis added).
    The issue is whether the Central Authority of the child's country 
of origin must notify the Department of State that the adoption 
complies with both the Hague Convention and the IACIA or the IAA or 
whether the Central Authority of the child's country of origin notifies 
the Department of State that the adoption complies with the Hague 
Convention and the Department of State determines if the adoption 
complies with the U.S. law, i.e., IACIA or IAA. It will be difficult 
for the country of origin to represent that the adoption is in 
compliance with the U.S. implementing legislation because its access to 
the statute and its regulations and knowledge about how to apply the 
provisions to a specific case may be limited. The Department of State, 
when the United States is the receiving country, would be in a better 
position than a foreign jurisdiction to make the determination 
necessary for issuing the Hague certification described in IACIA or 
IAA.
    10. IACIA and IAA impose criminal penalties in Section 404(c) 
Criminal Penalties on any person who knowingly and willfully does the 
following:

          (1) provides adoption services in the United States to 
        facilitate a Hague adoption without appropriate accreditation 
        or approval in accordance with title II;
          (2) makes a false or fraudulent statement or 
        misrepresentation of material fact, or offers, gives, solicits 
        or accepts improper inducement intended to influence or affect:
                  (A) decisions concerning the accreditation of 
                agencies and approval of persons to perform adoption 
                services and central authority functions under this 
                Act;
                  (B) the relinquishment of parental rights or parental 
                consent relating to the adoption of a child within the 
                scope of this Act;
                  (C) the decisions or actions of persons and entities 
                performing central authority functions pursuant to the 
                Convention and this Act.

    The Hague Convention treaty does not require or mandate that any 
participating State impose criminal sanctions upon adoption service 
providers or any other participants in the intercountry adoption 
process. Thus, the criminal sanctions are inconsistent with the Hague 
Convention treaty parameters, which were designed to cover the civil 
law aspects of intercountry adoption. Criminal sanctions in general may 
be unnecessary in light of the Hague Convention treaty's reliance on 
the accreditation and approval process to enforce the standards imposed 
upon adoption service providers. Also, the term ``improper 
inducement,'' which applies to both criminal and civil sanctions, 
should be clearly defined. The statute needs to make a clear 
distinction between improper inducement that is intended to influence a 
specific adoption matter and other types of actions frequently 
undertaken by adoption agencies or by adoptive parents, such as making 
ongoing charitable contributions to orphanages of medical supplies, 
toys, or clothing. These charitable contributions are typically not 
intended to induce a specific action by an institution caring for 
children. Rather the contribution of supplies by agencies, parent 
support groups, and individual parents is designed to assist those 
children who remain in the institutions. The statute should clearly 
permit humanitarian assistance to go forward without the fear of 
criminal sanctions serving to discourage or deter such efforts. We 
recommend that a narrow definition of improper inducement be added to 
the legislation.
    11. The Hague Convention treaty regulates the adoption of 
emigrating U.S. children when individuals residing in another Hague 
Convention State seek to adopt a child residing in the United States. 
The following comments apply to the case of U.S. children emigrating 
for the purpose of intercountry adoption:

  <bullet> There is no requirement in IACIA or IAA for prospective 
        adoptive parents, who are residents of another Hague country, 
        to include the results of a nationwide criminal background 
        check in their home study, before they are permitted to 
        finalize an adoption of a U.S. child who will emigrate after 
        the adoption is completed. Our recommendation is that a 
        nationwide criminal background check from the receiving State 
        of the prospective adoptive parents should be required before 
        they are permitted to adopt an emigrating U.S. child. Certain 
        criminal offenses, in particular child abuse or neglect or 
        spousal abuse, should be considered grounds for prohibiting the 
        intercountry adoption.
  <bullet> The Hague Convention treaty, in Article 4 (b), provides that 
        an adoption shall take place only if the competent authorities 
        of the State of origin ``have determined, after possibilities 
        for placement of the child within the State of origin have been 
        given due consideration, that an intercountry adoption is in 
        the child's best interests.'' (emphasis added). Section 303 
        (b)(1) (B) of IAA requires that a determination be made that 
        the child ``cannot expeditiously be placed for adoption in the 
        United States.'' (emphasis added).

    IAA essentially proposes the policy that U.S. born children should 
        not be adopted by residents of a receiving State, unless the 
        child cannot be adopted expeditiously in the United States. 
        Elsewhere, the proposed implementing statute authorizes the 
        making of regulations changing procedures for adoption by 
        relatives, but it is not clear that this will include a 
        preference for relatives where the child could be placed 
        expeditiously with nonrelatives who are U.S. residents. The 
        statute should permit a state court judge to give due 
        consideration to an adoption by relatives or for other parties 
        with a ``significant relationship'' with the child (such as 
        those who have been responsible for the child for a significant 
        period of time, or were named in the parent's will).

    IACIA, on the other hand, requires that 12 months must elapse since 
        the accredited person made efforts to place the child in the 
        U.S. before a child may be placed in a permanent home in 
        another Hague country. IACIA also requires that in every case a 
        determination be made in accordance with the federal Adoption 
        and Safe Families Act of 1997 that the child cannot be placed 
        in the U.S.

    Overall, we recommend that any implementing legislation mirror the 
        language in Article 4 (b) of the Hague Convention treaty so 
        that ``due consideration'' is given to the opportunity for a 
        child to be placed in the U.S. The 12-month automatic wait 
        period may not be in a child's best interest in every case and 
        the requirement that there be a finding that the child cannot 
        be placed expeditiously in the U.S. likewise may not be in the 
        child's best interest in all cases. The due consideration 
        standard from the Hague Convention permits the state court 
        judge to better consider the individual circumstances of a 
        particular child.

  <bullet> For emigrating children, it would be useful to clarify that 
        provisions in Article 16 of the Hague Convention, stating that 
        a Central Authority of the State of origin shall ``give due 
        consideration to a child's ethnic, religious and cultural 
        background'' is not intended to conflict with provisions of the 
        federal Multiethnic Placement Act prohibiting delaying or 
        denying an adoption on the basis of race or ethnic background.
  <bullet> Under both IACIA and IAA, state court judges retain the 
        discretion to issue an adoption decree for an emigrating child, 
        and in those cases, the courts should be encouraged by statute 
        or regulation to appoint counsel for the child involved in an 
        intercountry adoption from the United States.
  <bullet> The provision in IACIA Section 303 (b)(1)(B) effectively 
        prohibits single persons from adopting emigrating U.S. children 
        and unnecessarily limits the opportunities for children to be 
        adopted. We recommend that IAA Section 303 (b)(1) be adopted 
        and that single persons be permitted to adopt emigrating U.S. 
        children.

    12. The Hague Convention, in Article 3, covers intercountry 
adoptions between participating States for children before they reach 
the age of eighteen years old. As proposed in both statutes, children 
over the age of sixteen will continue to not be eligible to immigrate 
under the rules governing visas for children adopted by U.S. citizens 
abroad. Any legislation should be consistent with the treaty so that 
immigrating adopted children up to the age of eighteen may participate 
in an intercountry adoption.
    13. Some sending countries do not grant a final decree of adoption; 
however, they do grant to the adoptive parents legal custody and 
permission to immigrate for the purpose of adoption--a process known as 
``simple adoption''. Neither IACIA nor IAA say what effect, if any, a 
foreign authority's grant of custody or certification of availability 
for adoption should have in an U.S. court. By its silence, the 
legislation as written almost invites de novo reconsideration of all 
the substantive and procedural aspects of the child's adoptability that 
were made by the sending country. The statute does not specify what law 
should apply to questions like the timing of the relinquishment. Any 
implementing legislation should at least say that the foreign 
authority's determination regarding adoptability is entitled to 
presumption of validity, and that the law of the nation of origin 
governs on issues of relinquishment and availability for adoption.
    14. The avenues for administrative review of adverse action in the 
accreditation of agencies and approved persons are non-existent in the 
statutes. The implementing legislation should contain an administrative 
review process for those agencies or individuals who are adversely 
affected during the accreditation process. The current statutory 
structure of providing only judicial review is not adequate. 
Administrative review procedures are important because (1) a regulatory 
agency is usually better equipped than a federal court to obtain and 
review information needed to assess adverse actions at a reasonable 
cost, and (2) the dockets in some federal courts are crowded, and a 
civil action seeking judicial review may take a very long time to 
process.
    15. Section 105 (b)(1) of IAA and Section 103 (d)(1) of IACIA 
establish a case registry on ``all adoptions involving immigration into 
the United States, regardless of whether the adoption occurs under the 
Convention''. This section implies that data on any adoption involving 
immigration, including those of any person who is immigrating to the 
U.S. with adopted children, will be included. The registry is 
presumably intended to cover just intercountry adoptions under section 
101 (f) and (g) of the Immigration and Nationality Act, i.e., those 
where the U.S. parents adopt a child from a sending country regardless 
of whether the country is a party to the Hague Convention. The statute 
should make clear what adoptions are covered by the registry.
    16. The Hague Convention, in Article 31, requires that personal 
data gathered or transmitted under the Convention shall be used only 
for the purposes for which such data were gathered or transmitted. The 
proposed legislation, which establishes certain monitoring and registry 
procedures, should make clear that the intent of the legislation is to 
be consistent with Article 16 of the treaty. Likewise, in Section 203 
(b)(1)(C) of IAA and Section 203 (b)(1)(D) of IACIA a reference should 
be made to require accredited agencies to maintain such records and 
reports and information in accordance with applicable federal and state 
privacy laws.
    17. Any fees established by INS, HHS, or the Department of State 
for implementing the Hague Convention should be set via a rulemaking 
procedure. In particular, the fee amounts to be set under Section 204 
(d)(2) of IAA or Section 202 (d)(2) of IACIA should be subject to a 
notice and comment rulemaking procedure under the Administrative 
Procedure Act.
    18. Under Section 205 (d)(1) of IAA and Section 204 (c)(1) of 
IACIA, a change should be made so that it is clear that agencies and 
adoptive parents can seek judicial review of adverse accrediting 
decisions. These sections should also be modified so that the reference 
to an adverse action by the federal agency responsible for selecting 
the accrediting body includes the cancellation or failure to designate 
an accrediting entity or an action whereby the accrediting body fails 
to accredit an agency or person for practicing in the field of 
intercountry adoption.
    19. Both proposed bills do not make clear whether accrediting 
agencies must renew their accreditation. The implementing legislation 
or regulations need to establish provisions and timeframes for renewal 
of accreditation of agencies and approved persons. An accreditation 
renewal process for agencies and approved persons would help to ensure 
that the standards imposed by the Hague Convention are met on an 
ongoing basis.
    20. Both IACIA and IAA require the Secretary of State to monitor 
the rate of disruption of all intercountry adoptions. The term 
``disruption'' is not statutorily defined, and the purpose for which 
such data will be collected is not stated.
    21. The reference in Section 302 (b)(2) of IAA to paragraph (b)(1), 
(g) or (h) of section 101 of the Immigration and Nationality Act 
appears to be incorrect; the reference is probably intended to be to 
(b)(1)(G) or (H).
    22. The provision in Section 303 (b)(3)(C) of IACIA and IAA 
regarding the responsibilities of accredited agencies providing 
intercountry adoption services in the case of an emigrating child 
should proscribe that the documentation and information that a U.S. 
Central Authority may require an accrediting body to provide must be 
identified in published regulations so that agencies know in advance 
what specific information must be sent on each individual case.
    23. Under both IACIA and IAA, U.S. states may impose additional 
requirements upon Hague accredited agencies providing services for 
emigrating children. Any such additional requirements should be 
required by statute to be transmitted to the U.S. Central Authority, 
and the U.S. Central Authority should be required to communicate such 
requirements to the Hague Conference Permanent Bureau. Then prospective 
adoptive parents from other countries will have ready access to 
information regarding the practices of U.S. states.
    24. IACIA, unlike IAA, does not permit individual persons, such as 
attorneys or social workers, to be accredited to provide adoption 
services under the Hague Convention as ``approved persons,'' a term 
defined in Section 2(d) of IAA. We recommend that IAA standards 
permitting approved persons, not just accredited agencies, to provide 
adoption services be included in the Hague Convention implementing 
legislation.
    24. We support the changes that both IACIA and IAA make to the 
Immigration and Nationality Act (INA) so that adopted children from 
Hague participating countries of origin may obtain an U.S. visa in 
cases where the child's birthparents voluntarily consented to the 
adoption by the U.S. parents. We endorse the modifications to the INA 
that make it possible for more children adopted by parents from the 
U.S. to obtain a visa to enter the U.S.
    25. We recommend that the implementing legislation include 
provisions permitting a child to be granted U.S. citizenship upon 
completion of an adoption so that U.S. adoptive parents are not 
required to apply for such approval separately.

    Our letter does not include comments on each and every aspect of 
possible implementing legislation for the Hague Convention treaty. We 
do anticipate, however, that additional comments on any various 
proposed versions of implementing legislation will be submitted as the 
need arises.
    In conclusion, we recognize the historical importance of this 
landmark treaty. Never before has intercountry adoption received such a 
positive endorsement. Many prospective U.S. parents fight their way 
through the arduous process of intercountry adoption. Oftentimes they 
call upon a Senator or Congressman to assist in ending delays or 
unforeseen glitches. In the meantime, children who are eligible for 
international adoption wait to be united with loving, adoptive 
families. We support the Hague Convention treaty and implementing 
legislation that uses sensible and practical legal procedures to 
encourage and facilitate the intercountry adoption process.
    Our Sections appreciate the opportunity to comment on the Hague 
Convention treaty and to provide input and suggestions on implementing 
legislation for the treaty.
            Respectfully submitted,
                                        Maurice Jay Kutner,
                                      Chair, Section of Family Law.
                                         William M. Hannay,
                  Chair, Section of International Law and Practice.
                               __________
Hon. Jesse Helms,
Chairman, Committee on Foreign Relations,
U.S. Senate, Washington, DC.
    Honorable Chairman Helms, Thank you for the opportunity to testify 
at the hearing on ``S. 682.'' I was so proud of the way you chaired the 
meeting. You are my idea of a true gentleman, a trait that is not 
always considered necessary in our modern society, yet one I believe to 
be the foundation of civilization. You make people feel valued, while 
getting to the heart of the issue.
    You asked us to comment on our idea of useful disclosure laws: My 
analysis is rather blunt, but I trust you will understand my motives 
and use it to benefit the children.
    Thank you for the opportunity to do so.
Adoption agencies are dependent on foreign facilitators and have 
        limited control
    Unfortunately, in the last few years, the ``tail has started 
wagging the dog''. Since we do not live overseas, it is necessary to 
hire foreign nationals to do the majority of the work. Even though we 
pay them, they are still independent. They lack the business skills, 
which we take for granted in a free-enterprise society (such as time 
management, keeping appointments, performing tasks in a reasonable time 
frame, and providing an acceptable level of service).
    At worst, they have no loyalty or sense of ethics (as we perceive 
ethics) and sell their service to the highest bidder. Since their 
service is the adoption of children--well, you can see the obvious 
outcome.
    If I offer a facilitator reasonable payment for his work, but he 
can get hundreds or thousands of dollars elsewhere, he will be gone. If 
I ask for complete medicals, great videos, detailed descriptions of the 
child, and fast, reliable and honest service; he may very well work for 
someone who has easier requirements--or none.
    Although, we struggle to provide adequate service to families, it 
is getting more difficult. The last time I was in Russia, at least six 
people knocked on my door to ask if they could work for Christian World 
Adoption. They had no experience in adoption, but where drawn by the 
perceived profits. They asked ridiculous fees and promised incredible 
things. Although we were experienced enough to turn them away, others 
are not.
    If these individuals are motivated strictly by money, and not 
controlled by ethical, knowledgeable agencies, all sorts of abuses 
occur. Officials may be bribed, medical records ``fixed,'' and children 
offered to one family, then taken away when another offers more money. 
In some cases, children have even been abducted.
    The abuses are rampant and growing. Eventually, it will close 
adoption in Russia, as it has in so many other countries. Russians view 
adoption as a business because of the money paid, and believe that 
capitalism is evil. Since birth, they are taught that capitalism allows 
the rich to abuse the poor and that the middle class does not exist. 
Every time we bring Russians to the U.S. to visit, they are amazed at 
how well our society functions and realize that they have been lied to 
all of their lives.
    The more adoption turns into a competitive business, the more 
difficult it is to help the children. Distrust grows and corruption 
flourishes.
    China was beginning to have this problem three years ago. The 
government was wise enough to outlaw private facilitators and required 
that all agencies work through their central authority. They receive 
the parents' dossier, match a child to them,, and approve all of the 
foreign adoptions in the country. The criteria are the same for all 
families, and the fees are the same.
Foreign facilitators and or government officials have limited control/
        authority to provide adequate services
    Even when we have foreign facilitators who are good at their job, 
they are limited in what they can do. These folks are trying to survive 
under communist regimes or democratic rulers who are really dictators; 
controlling their countries through oppression, fear or military might.
    They have seen friends and families murdered for opposing the 
government--they understand that safely means anonymity. They are often 
afraid to appear too cooperative, as they may be accused of taking 
bribes and ``selling'' children. Many orphanage directors, caregivers, 
judges, doctors, and government officials are not paid to perform, they 
are paid to follow orders and not cause trouble (and often they are 
paid poorly, or not at all). They are NOT motivated to do the extra 
work necessary to complete an adoption.
    Their priority is finding enough to eat and keeping safe and warm, 
not doing extra paper work for demanding rich Americans.
How do we encourage cooperation and limit corruption?
    First, and foremost it is critical that the facilitators not be 
able to play adopting parents against each other. As long as a foreign 
facilitator can refer a child to any American who holds a Home Study, 
they will act as ``free agents.'' While competition might be good in 
some industries, it has terrible consequences in international 
adoption. There are far more parents who want healthy, Caucasian 
infants than there are children available. It drives up cost, and 
allows facilitators to do substandard work, or worse.
As ``S. 682'' is written, a parent can adopt without using an 
        accredited agency
    I fear that if the Hague Implementing Legislation is passed as it 
is, current practices will NOT change.
    Thousands of social workers, exempt from accreditation under the 
Hague, are allowed to write Home Studies. With any Home Study, a parent 
has the right to adopt directly from a foreign facilitator without 
using an accredited agency.
    Many agencies, while well intentioned, do not have the budget or 
the staff to travel, train, monitor, manage and truly understand the 
laws and system of the child's birth country. They are at the mercy of 
the facilitators overseas and do not provide parents with the 
protection they need.
Facilitators live in the U.S. and act as agencies without any licensing
    Incredibly, there are a large number of people living in the U.S. 
who are acting as adoption agencies WITHOUT ANY licensing. They 
advertise adoption services on the Internet, in Adoptive Families of 
America magazine, in newspapers and appear at trade shows. I personally 
know of several, as does Maureen Evans, Director of JCICS. You are 
welcome to call us for details. They are not attorneys, and some have 
even been denied state licensing. The parents do not realize that these 
people are not licensed and the various State Departments of Social 
Services are too overwhelmed to do anything.
    I know of one Vietnamese mother and daughter who were convicted of 
stealing humanitarian aid intended for orphans, who have been denied 
licensing in South Carolina, Las Vegas, and Pennsylvania and who have a 
class action suit pending against them by angry parents. DSS in SC has 
asked me to report their activities and has sent letters to desist; yet 
they continue to operate, year in and year out.
    It is very discouraging to have these individuals sully the 
reputation of agencies, while reputable organizations are working their 
hearts out to provide excellent services.
We must make it mandatory that parents process their adoptions through 
        an accredited agency
    Accreditation is a rigorous, process. The standards used by COA 
(Council on Accreditation) were written by experts in the international 
adoption community based on the Hague. They are relevant and demand 
full disclosure of fees and services in every step of the adoption 
process. Although nothing is foolproof, I can not think of a better way 
to establish and monitor sound practice. Accreditation requires proof 
of quality case management, ethical practice and sound financial 
status.
    I truly believe that accreditation will provide better consumer 
protection, because it looks at the total picture and requires agencies 
to function in an ethical manner, using sound business and children's 
welfare practices.
    If you would like an outline of the standards used to review and 
accredit adoption agencies by the Council on Accreditation, I would be 
glad to provide it.
            Sincerely,
                                   Tomilee Harding,
              Executive Director, Christian World Adoption.
                               __________

      Statement Submitted by the National Council of Birthmothers

                   keep foreign adoption records open
    We urge you to kill this bill that would close forever adoption 
records of those who are foreign born.
    This is a country that prides itself on its freedoms--and welcomes 
people from all over the world who come to be a part of this land of 
opportunity.
    How can this land of freedom and opportunity--extend its hand to 
the peoples of the world and use that same hand to slap the face of 
adopted people who are foreign born?
    We are only beginning to see the tip of the ice berg when it comes 
to the horrors that have been visited upon the people's of other lands 
when it comes to foreign adoptions. Is it any wonder that Russia, 
India, Korea, China, and other countries are re-examining their 
policies on foreign adoption--some in fact closing their borders to 
foreign adoption?
    Our own STATE DEPARTMENT has travelers warnings for Americans 
traveling in Guatemala--NOT TO BE SEEN WITH GUATEMALAN CHILDREN as this 
could be very dangerous for them--due to the deplorable record of the 
``American adoption'' industry operating in that country. An industry 
that preys on the poor of that country, that steals children from their 
families--and presents them to unsuspecting American families.
    This type of activity goes on in many countries around the world. 
We read of illegal adoption rings and their practices--involving 
foreign countries and individuals within the United States regularly.
    The sealing of foreign adoption records will only help to protect 
the individuals and groups involved in these illegal activities by 
hiding the record of their crimes.
    Sealed adoption records are a practice peculiar to the United 
States. The majority of the world have open records--in that an adopted 
person when they reach adulthood--is given access to the records of 
their birth.
    It is accepted as a matter of course that an individual has a right 
to government held records pertaining to themselves.
    In the past few decades we have come to realize the tragedy of 
sealed adoption records and the folly of leaving the dispensing of such 
information up to the whim of third parties. We have seen adoptees die 
from lack of medical information--when such medical information was in 
the hands of adoption agencies who refused to pass along the 
information--or judges who have decided medical emergency was not 
``good cause'' to open the records. We have information in case upon 
case of government officials willfully defying the law in not providing 
critical information to adoptees, adoptive parents, and birthparents.
    The American Academy of Pediatrics has the following in their 
Policy Statement:

          Recent adoption research and considerable anecdotal evidence 
        challenge the wisdom of maintaining permanent separation of 
        mature adoptees and their biological families. [2-6] The 
        interests of each member of the adoption triad often change 
        over time. As adoptees reach adolescence, their interest in 
        learning about their biological families frequently increases. 
        This is almost always unrelated to the degree of stability of 
        their adoptive family relationship and is usually seen as a 
        healthy and normal aspect of their personality development. 
        Concomitantly the interest of birth parents in preserving their 
        anonymity may diminish over time. Several studies of birth 
        mothers show that they frequently reconsider and remain 
        uncomfortable with the decision they made to surrender their 
        child. [2,5,6] Often their feelings of guilt, grief, and loss 
        are unresolved, and often they believe that their sense of loss 
        might be lessened by knowing what actually happened to their 
        child. Sometimes the third member of the triad, the adoptive 
        parents, may feel threatened by the desires of their adopted 
        children to search for birth parents when these children become 
        adults and begin to develop their own independent lives, [5,6] 
        but often adoptive parents support their children's efforts to 
        search for their birth parents.
          As more and more adult adoptees began to challenge 
        confidential court records and search for their birth parents, 
        support groups and advocate organizations evolved to help 
        organize searches and to lobby for less restrictive state laws.
          The actual number of adult adoptees who search for 
        information about their birth parents is unknown but thought to 
        be a small (yet recently increasing) percentage of total 
        adoptees, and the motives of those who search are quite varied. 
        [6] Some are at risk for certain medical problems in which 
        knowledge of a family medical history is important. Others wish 
        to have children and want to know more of their genetic and 
        medical history. (All states require a medical and genetic 
        history to be obtained at the time of adoption, but these 
        histories are often incomplete and inaccurate.) Other adult 
        adoptees just believe that they have a right to find out their 
        birth names and family heritage to fill the void that makes 
        them feel incomplete and separates them from their pasts.
          Adoption researchers are learning about reunions between 
        adoptees and the birth parents and the impact these reunions 
        have on each member of the adoption triad. [5-7] During the 
        past decade, there seems to have been a change in general 
        attitude among adoption professionals towered search and 
        reunion. Previously the idea of searching for one's birth 
        family was seen as either harmful and/or neurotic. Now such 
        searches and reunions are often seen as healthy and a helpful 
        endeavor for all concerned.

    With all we have learned about adoption and its present and future 
implication for all the families involved--let us not take a step 
backward into the Dark Ages by passing a law that forever renders 
foreign born adoptees to the permanent status of second class citizens 
in our country.
    Let our shores still continue to represent the free and the brave.
                                        Teri Leber,
               President, National Council of Birthmothers.
                               __________
                                        Rosalind Maya Lama,
                                              Santa Cruz, CA 95062.
Hon. Jesse Helms,
U.S. Senate Foreign Relations Committee,
Washington, DC 20510.

ATTN: S. 682--TESTIMONY

    Dear Senator Helms: Kindly accept this testimony regarding S. 682, 
a bill intended to implement the provisions of the Hague Convention on 
Intercountry Adoption.
    I would like to point out that Section 401, containing sealed 
records and secrecy provisions, is in violation of the United States 
Constitution, in particular the 14th Amendment. It also violates the 
Freedom of Information Act--a restriction normally imposed only with 
respect to matters of national security. Secrecy and sealing of records 
of children brought into the U.S. for the purpose of adoption is 
moreover an encouragement to various types of fraud, crime and 
violations of civil and human rights. Such secrecy is not in the best 
interest of children, adult individuals who are affected by it, or the 
State. It is in the best interest of adoption agencies and other 
persons who are employed in the adoption and foster care industries, 
because it assures a steady stream of children who may be treated as a 
commodity. The American public has shown an interest in the conditions 
under which consumer goods are produced, such as those manufactured 
using child labor, prison labor, and under slave-type working 
conditions. The public also has an interest in knowing the origins of 
children brought into this country for adoption. Not knowing ones own 
origins and history can have tragic and far-reaching consequences for 
individuals and society as a whole.
    It is a fact that children are obtained through various means 
which, if they saw the light of day, could not be legally or morally 
permitted. It is a fact that many children who have been brought into 
this country for the purpose of adoption end up in foster or 
institutional care due to emotional damage stemming from the conditions 
in which they were kept prior to entering this country. It is also a 
fact that there are at least 500,000 children currently in foster or 
institutional care in the U.S. Many of these are free for adoption but 
are unwanted due to not being of a preferred color or age. However, 
even these rejected children provide a livelihood for employees of 
adoption agencies and the various departments of social services that 
provide foster and institutional care. It is big business.
    The U.S. is the single biggest recipient of foreign children 
brought in for the purpose of adoption. The children have included 
those who were kidnapped, bought or coerced from poor women, those who 
have been abandoned due to draconian legislation regarding reproductive 
rights in their home country, and the victims of racial and religious 
oppression.
    Human beings have natural curiosity and a need to know their own 
origins. Children are not a blank slate on which parents, whether 
natural or adoptive, can write their own script. Whatever the reason, 
psychological, medical, legal or simply in the pursuit of satisfaction, 
people in this country have the right to personal information regarding 
themselves, and to be treated equally under the law.
    I have had personal experience with the closed records adoption 
system. In November of 1959 I gave birth to a son, Marcus, in NYC. I 
was 16 years old, a senior at the prestigious H.S. of Music and Art. 
His father was a fellow student who had graduated in 1958. We had been 
high school sweethearts and intended to marry, but this was 
objectionable to my parents due to racial differences. We had no desire 
or intention to give up our son. My son's paternal grandparents 
expressed their wish to take him home but were prevented from doing so 
by the Bureau of Child Welfare and an adoption agency that had become 
involved due to my parents efforts. I was able to obtain a record of 
the case kept by the Administration for Children's Services through a 
FOIL request, as well as some relevant court documents pertaining to my 
prosecution as a delinquent. I was told that if I signed surrender 
papers I would not be prosecuted. As I refused, my parents and a 
sectarian social service agency connected with the adoption agency 
brought charges against me with hopes of having me committed to a 
mental asylum for the purpose of terminating my parental rights. At 
that time unwed fathers did not have parental rights. My son's father, 
braving the possibility of being prosecuted for statutory rape, signed 
paternity papers and paid for unwanted, unnecessary and inhumane foster 
care provided by the adoption agency and the Bureau of Child Welfare. 
In fact, we did not know, and still do not know, where our son was kept 
during the time I supposedly had full legal custody, according to the 
documents of the BCW.
    It is not necessary at this time to go into the details of the 
manner in which a signature on the various documents of surrender was 
coerced. The end result was the total psychological destruction of my 
son, who died by his own hand at age twenty. Unlike most biracial 
children, who probably made up the majority of institutionalized 
children at the time, my son was adopted. The adoptive mother, when I 
finally found her in 1996, asked me where I had been when she needed 
me, and stated that she felt the outcome (of my son's life) would have 
been different if he had had the support of his ``true'' parents. She 
told me my son continually asked for his parents from the time he 
entered adolescence. The adoption was a disaster for all concerned, 
except for the numerous persons whose livelihood depended on 
terminations of parental rights, foster and institutional care, 
casework, psychiatry and adoption. The adoptive mother had been 
Superintendent of Children's Institutions in NYC. Her sister-in-law 
told me she ``found'' my son in an institution.
    The records I obtained through the FOIL request had been altered, 
with numerous additions, deletions, and false quotes and statements in 
order to bring the record up to the minimum standards of legality for 
the time. A number of these falsifications, including some in my court 
record, can easily be verified. This includes a notation on the court 
record of my school grade, given as 8th, suspended, in order to give 
the impression of feeble-mindedness. I never attended the 8th grade, as 
I skipped it, had completed my junior year in high school, been 
accepted at the college of my choice, and had taken medical leave from 
my senior year.
    I will be available to supply further information regarding my own 
case and my position that secrecy in adoption practice encourages 
various types of cruel and illegal activities which do not serve a 
civilized society. I object to adoption triad members such as myself, 
adopted children and adults, and adoptive and foster parents not being 
called as witnesses in this serious matter.
            Yours truly,
                                Rosalind Maya Lama.
                               __________
                               James C. and Dawn M. Dooley,
                                            Fayetteville, AR 72704.
Hon. Jesse Helms,
U.S. Senate Foreign Relations Committee,
Washington, DC 20510.

ATTN: S. 682--TESTIMONY
    Dear Senators: It is a great concern to me that you have decided to 
sponsor S. 682. As adoptive parents, we cannot see where this provision 
will benefit anyone related to international adoption. For ourselves, 
we feel that our child should have the right to know and find his birth 
parents if he so desires. By passing this provision, you are 
effectively taking that right away from them. There is also a greater 
medical precedence in that if a donor organ is needed or other life 
threatening situation, this provision will not allow the adoptee to 
gain the information to allow them to continue living. In essence, a 
death warrant!
    When we decided to adopt internationally, it was not by some 
flippant thought or impulse decision. We spent many months deciding if 
we wanted to go international or domestic, what country we felt was 
best for us. Now based upon our decision our son would be persecuted 
for being adopted.
    I am further appalled at the decision to only allow members of the 
adoption industry to testify. Do we as American citizens no longer have 
a voice in what is passed into law? I propose a lottery of adoptive 
parents be allowed to testify at this hearing. I am sure it would shed 
much light on the proper and correct provision for adoptees.
    I am trying to decide if this provision was just poorly written or 
does it speak of possible racial prejudice. I would hope that it was 
merely a oversight of proofreading that caused this great injustice.
    Our son, Elijah Lee, came home on April 16, 1999 and is now at the 
wonderful age of 1 year. He does not know about this provision and as 
the best parents we can be, are speaking for him on his behalf.
    We finally urge you to not sponsor S. 682, Section 401, which goes 
against ALL internationally adopted children!
            Sincerely,
                                   James C. Dooley,
                                    Dawn M. Dooley.
                               __________
                                       Marylee Munson Oddo,
                                              Charleston, Illinois.
Hon. Jesse Helms,
U.S. Senate Foreign Relations Committee,
Washington, DC 20510.

ATTN: S. 682--TESTIMONY

    Dear Sirs and Madam: After reviewing the upcoming legislation of 
S.682 on Intercountry Adoption, I must strongly argue against it's 
intent and content, especially section 401. As I interpret it, it 
absolutely negates what the original Hague Convention Intercountry 
Adoption proposes.
    And, Ms. Landrieu, I am quite shocked that you would support such a 
move. I was at the International Gathering of the First Generation of 
Korean Adoptees in Washington, D.C., as were you, and I find it 
particularly disturbing that you, of all people, would support such a 
turn. One of the more topical issues discussed in the formal Adoptee 
discussion groups was the need and desire to search for information 
regarding our biological past. Though many of us Adoptees may not wish 
to seek out this type of information AT THIS TIME, we may wish to in 
the future. Lacking the desire to search does not equal lack of desire 
for freedom of disclosure.
    I am also dismayed to hear that the petition I signed at the 
Gathering, in support for the Hague Convention, was modified with the 
before mentioned changes UNBEKNOWNST to me. I forthwith withdraw my 
previous support.
    I feel the Federal government should not be maintaining 
confidential files on American citizens solely because they were 
adopted from outside the U.S. All citizens deserve to be accorded equal 
dignity and respect under the law. Specifically restricting the ability 
of international adoptees to access their personal files and exempting 
them from the Freedom of Information Act is discriminatory and un-
American.
    A double standard for adoptee rights is unacceptable. While states 
like Oregon and around the country are moving toward opening records to 
adoptees, S. 682 threatens to make these gains meaningless for 
international adoptees. S. 682 goes against the national trend toward 
greater openness.
    Many foreign countries, such as Korea, have open records. Yet, S. 
682 would perpetually seal the records of adoptees like myself that 
enter the U.S. from those countries. We legally lose our right to our 
identities and knowledge about our heritage when we become Americans. 
Our nation should lead in protection of these rights rather than 
following these other nations.
    The purpose of the Hague Convention is to mandate accountability 
and integrity in the international adoption process, and to provide 
minimal standards for protecting the rights of adoptees, including the 
right of adoptees to information on their identities and heritage. But 
Section 401 of S. 682 appears to go against both the intent and letter 
of the Convention.
    I personally am trying to find out more information about my 
biological past. I have flown to Korea and visited the site of my 
former orphanage as well as searched for records that may uncover any 
information regarding my birth family and personal history. 
Unfortunately, I have uncovered so very little at this time. As an 
older adoptee adopted over 33 years ago, searching is a long, 
difficult, and often expensive task. But one I feel well worth all my 
resources and efforts. Please do not limit or terminate my ability to 
search.
    I am a Korean adoptee and will support only legislation that:

          (1) Acknowledges that all adult adoptees deserve their 
        records;
          (2) All adoptees deserve medical information;
          (3) All records should be maintained and preserved;
          (4) All adoptees have the right to their identities and 
        knowledge about their heritage;
          (5) Adoptees should have the right to participate in the 
        drafting of such legislation, as opposed to those who have no 
        personal knowledge of the situation; and
          (6) Senators should recognize and respect that international 
        adoption is a lifelong process and enable legislation that 
        reflects that.

    Let me finish by saying that I hope that this is legislation that 
will happen only after each of you has taken serious time to explore 
all realms of it and particularly of the children involved who will 
become adults. I would also like to add that I do fully support the 
Hague Convention, but in its original form and intent.
    Please do not consider only the adoption agencies, birth-parents, 
and the adoptive parents for input. Our perspective has been 
overlooked. Please consider the perspective of the adoptee as this 
directly affects us. I ask you to talk with ADULT adoptees. We also 
have first-hand knowledge and experiences on these issues.
    Please understand that this is important and it affects people's 
lives. Please forward this to interested parties. Thank you for your 
time and consideration on this important matter.
            Sincerely,
                               Marylee Munson Oddo.
                               __________
                                              Tracy Houser,
                                              Santa Rosa, CA 95401.
Hon. Jesse Helms,
U.S. Senate Foreign Relations Committee,
Washington, D.C 20510.

ATTN. S. 682--TESTIMONY

    Dear Mr. Helms: As an adoptee who has been reunited with my 
birthparents for almost 7 years now, I find the possibility of S. 682 
passing totally disturbing.
    Adoption, contrary to what you may believe, isn't just about a 
young, unwed woman giving birth to an unwanted child and ``getting rid 
of the problem'' by giving it to two wonderful and loving parents to 
raise it as their own. Somehow, the world loves to paint the fairy tail 
of the grateful little adoptee living happily ever after never 
wondering where he or she came from. Almost as if the fact that they 
were given up unselfishly by their ``first mother'' just erases the 
fact that she ever existed.
    I don't know why, or how this myth ever evolved, but it's the most 
ludicrous thing I have ever encountered. Where society got the idea 
that you could just take a child from it's mother in the name of 
``what's best for the child,'' forge a so-called ``birth certificate'' 
by erasing the child's natural parents name, and adding in the adoptive 
parents instead (and assume this child will never have a need to know 
who they are and where they came from) is beyond me.
    We, as adoptees, deserve the same rights as any other person who 
walks on this earth. Most people in the United States have the freedom 
of knowing who their natural parents are (because they are raised by 
them), know what their nationality is, know who they look like, and 
know their families medical history. We, as adoptees, don't have these 
rights. Somehow this was deemed ``fair'' by someone in The Stone Ages 
and now we have to live with this even in this day in age.
    I found my birthparents by going through an ``underground.'' I paid 
$150 to find my birthmother's last name, and I searched on my own and 
found her 3 months later. It is so absurd that I had to actually pay 
someone to find out what was rightfully mine to begin with. I don't 
understand why we as adoptees are the one's that suffer the most when 
the whole ``adoption process'' is supposedly in the ``best interest of 
the child.'' It's almost as if we have to suffer for the 
irresponsibility of our mothers.
    Although I had a great childhood with parents that love me dearly, 
my adoption affects me on a deeper level that I can't put into words. 
To know that there are still people out there who seriously think it's 
better to keep a child birthright a secret, regardless of where they 
were born, makes me sick. Just because a child is born outside the 
U.S., and is adopted into the U.S. doesn't mean their feelings will be 
any different from mine. EVERY adoptee should know from the earliest 
time possible where they came from, who there natural parents are and 
what their names are, and how they can contact their natural parents 
when the time is right FOR THE CHILD. It's time for the lies to stop, 
and to truly start making the adoptive child's best interests a 
priority. In terms of ``best interests,'' the ranking at this point in 
time in the adoption triad goes the adoptive parent first (keeping the 
child's adoption records sealed so that the adoptive parent will not be 
threatened by a birthmother or birthfather butting into the child's 
life at any time). Second, the birthmother (keeping the child a secret 
depending on her circumstance).
    And third, the adoptive child (last on the list of priorities of 
course, since we never had any say in the matter to begin with).
    In closing, I would like to say that I am not anti-adoption. I 
believe as a last resort, in cases of abuse, etc., that adoption may be 
in the best interest of the child. However, even so, ALL PEOPLE 
wherever they are born, MUST know who they are!!! This is totally 
unacceptable! Adoptees have needs like everyone else. We are not some 
kind of caged animal that you can control as you see fit. It seems 
everyone who is NOT adopted comes off as an expert in adoptee 
psychology where in reality they truly do not have a clue as to how we 
feel or what's right.
    If this bill passes, it will be a big mistake. A child born outside 
the U.S. is entitled to know who they are.
    They have the right to find the woman who gave birth to them when 
they feel they are ready. Every human being should have the right to 
know their mother. By taking that right away, you violate everything 
this country stands for.
            Sincerely,
                                      Tracy Houser.
                               __________
                                             Ellen Garlich,
                                          Christiansburg, VA 24073.
Hon. Jesse Helms,
U.S. Senate Foreign Relations Committee,
Washington, DC 20510.

ATTN. S.682--TESTIMONY

    Dear Senator: I am writing in opposition to S. 682--Intercountry 
Adoptions Convention Implementation Act of 1999. In particular, I am 
concerned about the adoption secrecy provisions contained in Title IV, 
Section 401.
    First of all I would like to express my concern that people 
affected by adoption, such as myself, and international adoption in 
particular, have not been invited to testify on this bill. Instead, I 
understand that only adoption industry professionals were asked to 
present testimony at scheduled hearings for S. 682. Americans who have 
experienced adoption firsthand, whether as adoptees, adoptive parents, 
or birthparents, are in a position to provide meaningful feedback which 
should not be ignored in the drafting of adoption related legislation.
    I am an adoptee who has been searching for medical information for 
over 17 years. My adoption was handled privately and arranged by a 
doctor. It baffles me why no one, especially the doctor, found it 
important to get a medical history to pass on. It could have been done 
with no identifying information given out to my adoptive parents or 
myself. It angers me that as a tax paying citizen I am not entitled to 
information pertaining to myself. I am told that it is to protect the 
rights of the child. I am no longer a child. I have an ailment that the 
doctors can't pinpoint, and with no medical history it's like finding a 
needle in a haystack. My doctor has even written the state to request 
copies of my files, but to no avail. Even my adoptive parents have 
written letters, but get the same response. I have children that would 
benefit from knowing their mothers medical history. Unless your are an 
adoptee, you can't even relate to what it is like to have no heritage 
to pass on to your children, to not even know your nationality or your 
genealogy. For a school project, my daughter was to see how far they 
could track her ancestors. She couldn't do it on my side because I 
don't even know it. It's embarrassing to tell your children ``I don't 
know who my ancestors are'', its embarrassing to constantly be asked 
what nationality I am and say ``I don't know''. I have nothing to link 
myself to. It's like an empty void that can't be filled. According to 
the Freedom of Information Act, I have a right to any information on 
myself, but this law is ignored as well when it comes to adoption. I 
should not have to spend thousands of dollars to have a private 
investigator find out information that should be my basic rights as an 
American tax paying citizen.
    I ask you to prayerfully reconsider this bill. S. 682, as proposed, 
not only short-changes adoptees, but also goes against the intent of 
the Hague Convention, which it claims to ``enable''. Consideration 
needs to be given to the rights of the adult adoptees to documents held 
on them by the government.
    Thank you for taking the time to read and consider my testimony. I 
hope that before you even consider passing this bill, that you will 
agree to hear testimony from our side, not just testimony from so 
called professionals that have not experienced firsthand the effects of 
adoption.
            Sincerely,
                                     Ellen Garlich.
                               __________
Hon. Jesse Helms,
U.S. Senate Foreign Relations Committee,
Washington, D.C. 20510.
    Dear Senator Helms: As an adult Korean adoptee, I write to you out 
of a profound concern that the privacy provisions in S. 682--the 
Intercountry Adoption Convention Implementation Act of 1999 that you 
and Sen. Mary Landrieu introduced earlier this year--may actually 
contradict both the letter and the spirit of the Hague Convention on 
Intercountry Adoption that the bill is ostensibly intended to help 
implement. The most worrisome provisions in S. 682 are Section 401 
(b)(1) and 401 (2)(abc):
401 (b)(1) Consent Required.
    Except as provided in subsection (d), identifying information 
contained in Convention adoption records shall not be disclosed.
401 (2) Application of Privacy Act.
    a. An individual, or an individual's parent or guardian, who would 
otherwise have a right to access any Convention adoption record 
pursuant to section 552a of title 5, U.S. Code, shall have such right 
with respect to identifying information in such record only to the 
extent that such right is not restricted by this section.
    b. No Disclosure to Child Under 18. A child who is the subject of a 
Convention adoption record shall not be afforded access to identifying 
information in such record, and such information shall not be disclosed 
to such child, unless the child has reached the age of 18 years.
    c. Freedom of Information Act Exemption. Information contained in 
records of the Department of State and the Immigration and 
Naturalization Service relating to adoption cases subject to the 
Convention shall not be disclosed to any person pursuant to section 552 
of title 5, U.S. Code.
    Rather than help implement the Hague Convention, these privacy 
provisions, if enacted into law, would actually undermine it; they 
would make it extremely difficult if not impossible for many adult 
intercountry adoptees to pursue a search for information on the 
circumstances of their birth and adoption; and they would virtually 
preclude the possibility of a search for birth parents, even under 
conditions of mutual consent. Even in situations in which the birth 
mother and an adult adoptee are simultaneously searching for the birth 
mother--not an uncommon scenario at all--the privacy provisions of S. 
682 would erect an impenetrable wall between the adoptee and the birth 
parents. Clearly, the creation of such insurmountable obstacles to 
search was not the intent of the Hague Convention and it is contrary to 
the emerging consensus within the adoption community about the right of 
adult adoptees'' access to information about their circumstances of 
birth and adoption where such access does not seriously infringe upon 
the privacy of the birth parent(s).
    Speaking personally, I have recently decided to pursue a search for 
my birth parents, and the lack of records from the period of my birth 
and adoption (1960-61) and the time already elapsed since then make the 
chances of a successful search already low; the privacy provisions of 
S. 682, if enacted, would almost certainly deprive me of any additional 
information about the circumstances of my birth and adoption. It is 
quite possible that my birth mother may still be alive, and she may 
even be searching for me; with both of my adoptive parents now dead, 
she would be the only parent remaining to me; S. 682 could well ensure 
that we never meet again.
    I urge you, then, to excise the aforementioned privacy provisions 
from S. 682, and I submit this letter as testimony to my opposition to 
S. 682 as currently drafted.
            Sincerely,
                                Pauline Park, Ph.D.
                               __________
                                        Kimberly A. Turner,
                                            New Brighton, MN 55112.
Hon. Jesse Helms,
U.S. Senate Foreign Relations Committee,
Washington, DC 20510.
    Dear Senator, As an adult, International Adoptee, and American 
citizen, I want to strongly urge you to reconsider provision S. 682 of 
the Intercountry Adoption bill.
    When I took my two daughters (6 & 4) to see Tarzan this summer, I 
got a lot more than the usual kids movie I was expecting. Who would've 
thought an old story retold (and the accompanying Phil Collins 
soundtrack) would become a somewhat cathartic experience for me? What 
could I possibly have in common with Tarzan and his family of apes?
    I was born thirty-eight years ago in Korea, adopted at the age of 
one, and raised in Iowa. Like Tarzan, those I grew up with were the 
only family I knew and loved. I have always considered myself very well 
adjusted to life as I knew it--to the point that I felt to give any 
thought of where I came from to be fantasy, and I was much too 
realistic.
    Though my Mom always encouraged me to know more of my biological 
heritage, I wanted nothing to do with it. Just as Tarzan, I wanted to 
fit in, to not be considered different. The reflection in the mirror 
may have been Asian, but American is all I have ever known.
    It was when I was pregnant with my first daughter that I allowed 
myself to consider my own beginnings, and to realize that they were 
actually human--I didn't just magically appear. What is the right 
balance between adoptive and biological heritage? Especially if there 
are two totally different cultures and you really have no connection to 
one.
    My first connection came on September 10-12, 1999. I had the 
opportunity to attend The Gathering in Washington, DC, a conference 
which explored the various aspects and effects of international 
adoption on the first generation of Korean Adoptees. Not only are we 
the first generation adopted from Korea, but we have paved the way for 
international adoption as it has come to be known in the U.S. and 
Europe.
    I attended the conference with curiosity and trepidation. The 
prospect of being surrounded by Asians was something I was not used to, 
nor comfortable with. What I found was my innermost thoughts and 
feelings being voiced by strangers who looked like me, without ever 
having told them a thing. After three days they knew me in ways those 
who have known me a lifetime will never understand.
    This brings me to the Intercountry Adoption Convention 
Implementation Act of 1999 which is under your consideration now. 
Specifically provision S. 682, sections 401 (b)(1) and 401 
(2)(a)(b)(c).
    You cannot begin to comprehend what it is like to have no knowledge 
of your background as it relates to international adoptees, unless you 
yourself have experienced what we have. It has taken me thirty-seven 
years to even acknowledge that being ``well adjusted'' doesn't mean you 
have to deny your origination. It will have devastating and long 
lasting repercussions to take away adult adoptees rights as it pertains 
to the privacy provisions you are now considering.
    For the first time I have given consideration of possibly returning 
to the country of my birth. I may find that reality is what I always 
thought it to be, that there are no real answers for me, but even then 
I can put to rest some of those nagging feelings that are deep within. 
Like Tarzan I think I will be grateful to have better understanding of 
where I came from and will also realize that my family and home are 
where they've been for the last thirty-seven years.
    We can learn the importance of identity and healing knowledge from 
this simple children's story, of how Tarzan transformed from the 
anguished young boy to a confident man, as he came to find out where he 
was from and how he came to be with those who raised him. Disney is 
probably grateful to have another profitable venture, but the 
connection it can provide to international adoption is amazing.
    Please take the time to listen to the voices of we International 
Adoptees and allow us to help you understand the full ramifications of 
your vote on this issue.
            Sincerely,
                                Kimberly A. Turner.
                               __________
                                        Anita Walker Field,
                                            Skokie, Illinois 60077.
Hon. Jesse Helms,
U.S. Senate Foreign Relations Committee
Washington, DC 20510.

ATTN. S.682--TESTIMONY

    When the Senate drafts legislation, I believe it is imperative that 
our elected representatives listen carefully and thoughtfully to the 
people about whom the legislation revolves. In the matter of S. 682, an 
adoption bill, the views of adopted citizens must be taken into 
account. I am a 62 year old adopted woman who finds it unacceptable 
that only representatives from the adoption industry were invited to 
give testimony to the Senate on S. 682.
    Did you ever wonder what it is like to be adopted; to live your 
life without any knowledge of your biological origins? What do you 
think it is like to lose your original parents, your name, your 
religion, and your culture with just one stroke of a judge's pen? You 
become a new person when you are adopted; a person created not by your 
biological parents but by the state. The Superior Court of the District 
of Columbia, in a case known as ``In re Female Infant,'' referred to 
the adult adoptee's plight as a form of ``genealogical bewilderment.'' 
And this court was talking about adoptees born in the United States.
    Imagine, if you can, how a child born in another country and into 
another culture must feel when he or she is brought to the United 
States through the process of adoption. How ``genealogically 
bewildered'' must he or she feel? These children have a different 
primary language, a different culture, and often, a different face. 
Will their heritage be lost to them forever? It most certainly will, if 
S. 682 is enacted into law.
    Section 401 of this bill is of particular concern to me. It states 
that upon reaching the age of maturity, internationally adopted 
children will be forbidden by federal law to ever access information 
pertaining to their original identities. Section 401 sanctions the 
federal government to permanently seal the birth records of 
international adoptees in the United States.
    This provision flies in the face of the current trend of open 
records in our country. In 1998, the voters in Oregon overwhelmingly 
approved a ballot initiative to unconditionally release original birth 
certificates to adult adoptees.
    That same year, The United States Sixth Circuit Court of Appeals 
upheld a 1996 Tennessee adoption records law giving adult adoptees 
access to their original birth records. [Roe v Sundquist] In 1997, the 
United States Supreme Court declined to review Roe v Sundquist, thus 
letting stand the Sixth Circuit Court of Appeal's decision that the 
federal constitution does not prevent a state from making birth records 
available to adults adopted as minors. And just this month, the Supreme 
Court of Tennessee upheld this open records legislation.
    To further muddy the waters, Section 401 states that international 
adoptees would be exempt from using the Freedom of Information Act to 
obtain any information about themselves which is being held by the 
federal government. This exemption is normally made only for matters of 
national security. This is blatant discrimination against one class of 
people whose only ``crime'' was to be born in another country and 
adopted by United States citizens.
    The Joint Council on International Children's Services also 
expresses serious reservations about S. 682. They write, ``. . . the 
Hague Convention in Article 30 specifically mandates that information 
on the child, `in particular information containing the identity of his 
or her parents,' is preserved and that appropriate access be allowed.''
    It is evident that S. 682 is in conflict with that which it 
proposes to implement--The Hague Convention on Intercountry Adoption.
    Adoption is a fluid, lifelong process. That which is in the best 
interests of adopted ``children'' is not in the best interests of 
adopted adults. Sealing birth records of adopted ``children'' promotes 
the adoption process and serves to preserve the adoptive family unit. 
But continuing to keep the records sealed after adoptees reach 
adulthood is most decidedly not in the adult's best interests! Because 
this practice causes us adoptees to be ``genealogically bewildered'' 
all of our lives.
    I believe it is the civil right of every adult citizen of the 
United States, regardless of the circumstances of his or her birth, to 
request and receive, unconditionally and without falsification, his or 
her original birth certificate.
    Honorable Senators, I urge you all to vote against S. 682 unless 
Section 401 is amended to remove the secrecy issues.
        Thank you,
                                Anita Walker Field.
                               __________
                                American Adoption Congress,
                                              New Castle, DE 19720.
Hon. Jesse Helms,
U.S. Senate Committee on Foreign Relations,
Washington, DC 20510.

RE: S. 682--TESTIMONY.
    Dear Senator Helms: The American Adoption Congress (AAC) 
appreciates this opportunity to present its response to the testimony 
submitted by adoption organizations and individuals on Tuesday, October 
5, 1999, concerning S. 682.
    The AAC, founded in 1978, is a national organization comprised of 
individuals, families and adoption professionals committed to adoption 
reform. We represent all whose lives are touched by adoption. Through 
education and advocacy, we promote honesty, openness and respect for 
family connections in public policy.
    AAC supports ratification of the Hague Convention on Intercountry 
Adoption if and only if implementing legislation establishes adequate 
safeguards for children and parents.
    Article 30 of the Convention states that identifying information 
and the medical history of the child must be preserved and that the 
child or his representative shall have access to such information. 
Section 401 of S. 682 deprives adoptees of this access. We urge you to 
revise this section so that it conforms to the language in Article 30.
    Our organization strongly supports the requirement in Section 
105(a)(3) that the number of disrupted intercountry adoptions be 
reported. While we respect the Child Welfare League and the Joint 
Council on International Children's Services, we do not agree with 
their request that this requirement be deleted. Dr. Ronald Federici and 
Barbara Holtan of Tressler Lutheran Services presented testimony on 
Tuesday about the rising number of disrupted adoptions in the past few 
years. With over 15,000 children immigrating into the United States for 
adoption in 1998 alone, it is critical that these disruptions be 
tracked, including the country of origin and the responsible agencies 
or persons providing adoption services in both countries.
    The requirement that children emigrating from the United States 
must be adopted by a married couple should be deleted (Sec. 
303(b)(1)(B)). There is no similar requirement for children immigrating 
into the United States. The requirement may cause other Convention 
countries to retaliate and restrict adoption of their children to 
married couples in the U.S.
    We also heard testimony that many agencies and facilitators are not 
available to the adoptive parents once the adoption is finalized and 
the fees, often exorbitant, collected. AAC recommends that Adoption 
Services, as defined in Section 3(3)(F), be revised so that an agency 
responsible for arranging an adoption is also required to provide a 
full range of post-adoption services, not simply post-placement 
monitoring. It could reasonably be expected that the number of 
disruptions would decrease as adoptive parents have an opportunity for 
counseling and other post-placement services. As Barbara Holtan said so 
well, ``Adoption is not an act; it is a process. Far too many adoption 
agencies and facilitators see it only as the act of getting the child. 
Far more attention must be paid to the long view: the process of 
raising that child to adulthood.''
    Thank you for allowing us the opportunity to present our position 
on this important legislation.
            Respectfully submitted,
                                     Carolyn Hoard,
                                      Legislative Director.
                               __________
                                  Parent Finders of Canada,
                               West Vancouver, B.C. V7V 3J5 Canada.
Hon. Jesse Helms,
U.S. Senate Committee on Foreign Relations,
Washington, DC 20510.

RE: S. 682--TESTIMONY
    Dear Senator, We are writing to support your efforts to have the 
United States ratify the Hague Convention on Intercountry Adoption and 
to strongly oppose any provisions which would officially and 
permanently seal the records of international adoptees in the United 
States, specifically S. 682, Section 401.
    Parent Finders of Canada was founded 25 years ago in Vancouver to 
promote openness and understanding in adoption, to provide a volunteer 
service to the adoption community in general, and specifically meet the 
needs of adult adoptees and birth relatives, Today we have are over 29 
chapters across Canada and 2 chapters in the United States, with a 
total of over 56,000 people registered in our Canadian Adoption Reunion 
Registry.
    Canada's 1998 International adoption statistics show that the 
United States was one of the ten leading countries from which children 
were adopted. There are also a significant number of Canadian children 
who are adopted by United States citizens each year. The Hague 
Convention on Intercountry Adoption seeks to establish minimum 
``safeguards to ensure that intercountry adoptions takes place in the 
best interests of the child and with respect for his or her fundamental 
rights as recognized in international law''. We therefore support your 
efforts to ensure that the United States ratifies this treaty.
    However, we strongly oppose S. 682, Section 401, which seeks to 
officially and permanently seal the records of international adoptees 
in the United States, as Section 401 contravenes international law 
including; Universal Declaration of Human Rights, the International 
Covenant on Civil and Political Rights, the United Nations Convention 
on the Rights of the Child, as well as the spirit and intent of the 
Hague Convention on Intercountry Adoption.
    You should be aware that the Tennessee Supreme Court in Doe v. 
Sundquist, just last week, recognized an adoptee's right to 
retroactively access their personal records (http://
www.tsc.state.tn.us/BARISTA/Tsc/993/Doeopn.htm). In addition, the U.S. 
Sixth Circuit Court of Appeals has also upheld an adoptee's right to 
access their personal records (http://www.law.emory.edu/6circuit/feb97/
97a0051p.06.html).
    The United States Senate's proposal to seal international adoptees' 
records would therefore thwart the openness and disclosure provisions 
of several States and some Provinces. For example, if a child was 
adopted from the province of British Columbia, which permits adoptees 
to access their records, or the State of Tennessee, which also permits 
adoptees to access their records, the Senate's proposed S. 682, Section 
401 would negate access to records rights which already exist for these 
international adoptees.
    We therefore respectfully call upon the United States Senate to 
ratify the Hague Convention on Intercountry Adoption without any rider 
provisions which would seal any records of international adoptees in 
the United States.
            Sincerely,
                                       James Kelly,
                                         Legislative Chair,
                                          Parent Finders of Canada.
                               __________
                       Adopted Peoples Association,
                           Irish Adoption Contact Register,
                                               Republic of Ireland.
Hon. Jesse Helms,
U.S. Senate Committee on Foreign Relations,
Washington, DC 20510.

RE: S. 682--TESTIMONY: U.S. Hague Convention will Permanently Seal 
Records of International Adoptees; S. 682, Section 401, which contains 
the sealed records and secrecy provisions.
    All at the APA (Adopted Peoples Association (Ireland)) are deeply 
saddened at this development in the U.S. Senate. We are genuinely 
outraged at this regressive step which is completely out of line with 
the international movement of openness in adoption. Would somebody 
please inform these Senator's that secrecy in adoption only causes 
heartbreak and frustration to all concerned.
    It may be of interest to note that over 2,000 Irish born children 
where adopted by U.S. couples in the 50's, 60's & 70's. As adults the 
APA has assisted many of these people to successfully reunite with 
their natural families. As a result we have acquired a specialised 
knowledge of the affects of inter country adoptions.
    Late last year one these reunions was front page news in the 
influential Irish Voice newspaper and the story was syndicated around 
the U.S.--why? Because it showed the world the raw emotions involved in 
adoption search and reunion, i.e., that blood ties can never be broken? 
The adopted person in this case searched for over twenty years 
travelled over 3,000 miles 3 times, just to find his mother.
    This is not something he wanted to do, this was something he had to 
do! His mother was overjoyed. She recalled never seeking 
confidentiality, it was imposed by the all knowing authorities. This 
imposed confidentiality ensured the loss of over twenty years of a now 
flourishing relationship--those years are lost, they can never be given 
back.
    Only a very poorly educated person would seek to deny a person a 
right to know their very own mother?
    It may also be of interest to note that the Heads of Bill entitled 
the Post Adoption & Associated Issues Bill has been under preparation 
by the Dept. of Health & Children and will be presented to the Republic 
of Ireland's Cabinet (The Government's 15 Ministers) January next for 
approval.
    This Bill when enacted will give all adopted people over the age of 
18 in the Republic of Ireland the statutory right to obtain their 
original birth certificate and surrounding adoption placement 
information. The Bill will also provide for the establishment of 
statutory search and reunion services to assist adopted people and 
natural family members to trace one and other.
    The Government regard this legislation as a top priority. The 
relevant Government Minister, Frank Fahey TD stated in speech given in 
Dail Eireann (the Irish Parliament) earlier this year that his priority 
is to enact legislation that will enable adopted people access their 
birth record information which he believes is their birthright.
    The Dept. of Health & Children are also preparing the Head of a 
Bill to enable Ireland comply with the terms of the Hague Convention on 
the Protection of Children with Respect to Inter Country Adoption which 
is due to be presented for Cabinet approval in May/June of next year.
    One of its main provisions will be that the child's natural family 
background information must be received by the Irish Central Adoption 
Authority before the child will be issued with an entry visa by the 
Irish Department of Foreign Affairs (except in clearly defined truly 
exceptional circumstances). This background information will be made 
available on request to the adopted person at the age of 18.
    Put simply--No background information--No adoption.
    This measure will also work the other way i.e. if an Irish child is 
to be adopted in a foreign jurisdiction the child must have the same 
rights as a child adopted in Ireland.
    A proposed adoption of an Irish child to a jurisdiction with less 
rights than an Irish adopted child will be vetoed.
    Regrettably we will be making representations through all 
diplomatic channels available to us concerning this nightmare measure.
    We will start with Sen. Edward Kennedy, the American Ambassador to 
Ireland, and the Irish Minister Foreign Affairs, David Andrews TD.
                                      Kevin Cooney,
                            Research & Information Officer,
                             Adopted Peoples Association (Ireland).
                               __________
     Re: S. 682--Intercountry Adoption Convention Implementation Act of 
1999, 106th Congress

Mr. Chairman & Committee Members: Thank you for providing us with this 
opportunity to express our concerns regarding S. 682--Intercountry 
Adoption Convention Implementation Act of 1999 (``S. 682'' or the 
``Bill''. Bastard Nation is an incorporated not-for-profit organization 
dedicated to preserving and restoring the rights of adoptees.
I. Executive Summary and Recommendation
     We believe that the Hague Convention on Protection of Children and 
Cooperation in Respect of Intercountry Adoption (the ``Hague 
Convention'' should be enabled by the United States in a manner such 
that the rights of intercountry adult adoptees to know their identities 
will be protected and affirmed.
     We have the following areas of concern:
            (i) Title iv, Section 401 of S. 682.
          We are concerned that S. 682 Section 401 will impose by law a 
        form of secrecy on the adoption process which is, by its 
        nature, unfair and discriminatory toward Americans adopted from 
        foreign countries.
            (ii) The hearing process for S. 682.
          We are concerned that no apparent effort was made to invite 
        American citizens personally affected by international 
        adoption, including adoptees, adoptive parents and birthparents 
        and the voluntary organizations representing them, to submit 
        testimony to the Committee regarding S. 682, despite the fact 
        that the Bill may have a direct impact upon their lives and the 
        lives of all Americans touched by adoption.

     We urge the Committee to amend Section 401 of S. 682 to protect 
the right of adult intercountry adoptees to freely access any Hague 
Convention-related information held on them by American government 
agencies where such access would not explicitly contravene the Hague 
Convention. Failing amendment of Section 401, we request the Committee 
to reject S. 682 in its entirety. We also request that in the future 
the Committee makes appropriate efforts to provide timely notification 
of relevant hearings and pending legislation to American citizens 
personally concerned with the international adoption process so that 
they may participate more meaningfully in the legislative process.
II. Concerns with S. 682 (Title IV, Section 401)
     Adult adoptees everywhere deserve the information held on them by 
public agencies and courts concerning their identities, heritage and 
development.
     We are concerned that secrecy provisions far more stringent than 
those required under Article 30 of the Hague Convention are included in 
S. 682. We believe that American intercountry adoptees have an interest 
in seeing their access to such information legally preserved instead of 
prohibited, and we also believe that this interest takes precedence 
over whatever foreign interests S. 682 seeks to protect by prohibiting 
such access.
     It is our view that the Federal government should not be 
maintaining secret files on American citizens in the absence of a 
national interest for doing so, nor should the Federal government 
require state and local administrations to do likewise through Federal 
legislation. However, Section 401 (b) seems to have the effect of 
legally requiring the maintenance of such secret files, and of 
permanently preventing adoptees from accessing them.
     Our system of government requires that all citizens deserve be 
accorded equal dignity and respect under the law. Specifically 
restricting the legal ability of adult intercountry adoptees to access 
their personal files and exempting them from the Freedom of Information 
Act of 1966, as amended, violates the dignity of such adults, and is 
discriminatory. Section 401(c) provides for such an exemption, which we 
understand is normally made only where interests of national security 
or public safety are involved. There are no interests of national 
security or public safety involved in providing non-criminal and non-
suspect American citizens with access to their own records, even where 
such records come into the possession of our government from foreign 
sources through the Hague Convention adoption process.
     In addition, Section 401 appears to go against the will of the 
American people in respect of the treatment of the government-held 
records of adoptees. State legislatures have enacted or are considering 
the enactment of laws to allow domestically adopted adults access to 
certain adoption records. Oregon and Tennessee have recently enacted 
legislation permitting access to identifying information. On Friday, 
September 27, 1999, the Tennessee State Supreme Court ruled that such 
legislation is permitted under their state constitution, dismissing 
attempts by plaintiffs to overturn the state law in question (Doe v. 
Sundquist). This follows a ruling by the U.S. 9th Circuit Court 
upholding the same law, as well as by the refusal of the U.S. Supreme 
Court to grant cert. to those opposed to the law in their petition to 
stop it from going into effect. On July 16, 1999, a lower court in 
Oregon issued a similar ruling (Doe v. Kitzhaber) relating to that 
state's new law permitting adult adoptees to access their Original 
Birth Certificates--a law which was approved by [57%] of Oregon voters 
in a state initiative in November, 1998. Furthermore, recent public 
opinion surveys conducted by organizations such as CNN have shown that 
a vast majority of Americans support the ending of adoption secrecy 
laws. S. 682 threatens to make these gains meaningless for intercountry 
adoptees. It is unclear why the sponsors of this legislation, Senators 
Jesse Helms and Mary Landrieu, appear to be going against the national 
trend toward greater openness.
     America's states are not the only governments which give 
recognition to the rights denied by S. 682. Many foreign countries also 
provide adoptees with access to government-held records, including 
countries who regularly allow children to be adopted in the United 
States. Yet S. 682 seeks to perpetually seal the records of adoptees 
who enter the U.S. from all countries, regardless of the adoption 
practices prevalent in those countries--an extreme form of adoption 
secrecy which is not required under the Hague Convention or any other 
international instrument. If S. 682 is passed as written, adoptees 
coming from certain countries would legally lose their right to 
information about their identities and heritage only when they become 
Americans under the provisions of S. 682. Such secrecy requirements may 
also conceivably prevent such adoptees from benefiting under foreign 
programs created to assist adoptees once they become adults. Foreign 
governments have or are considering measures which would provide 
international adoptees with certain benefits. However, the ability of 
future generations of intercountry adoptees to take advantage of such 
benefits may be put in jeopardy by S. 682's secrecy provisions. A case 
in point is the Republic of Korea, which, according to statistics 
provided by the U.S. Immigration and Naturalization Service was the 
source of 1,829 intercountry adoptees entering the United States in 
1998. South Korea provides considerable assistance to adoptees seeking 
to obtain information about their identities, as well as programs which 
provide tangible economic and social benefits to such adoptees, should 
they choose to return to South Korea.
     The right of adoptees to information to their identities and 
heritage is widely recognized and mandated in a number of international 
instruments. These instruments include the Hague Convention (Article 
30), the U.N. Convention on the Rights of the Child (Articles 7, 8 and 
20 (3)), the U.N. Declaration on Legal and Social Principles Relating 
to the Protection and Welfare of Children, with Special Reference to 
Foster Placement and Adoption Nationally and Internationally (Articles 
9 and 24) and the widely accepted Uniform Guidelines for Foster Care 
and Adoption prepared by the International Council on Social Welfare 
(Sections 2.11 and 4.10). Section 401 of S. 682 appears to go against 
both the intent and letter of these instruments, including the 
instrument it purports to enable.
III. Concerns about the Legislative Process in Respect of S. 682
     We are disappointed that no credible attempt was made to solicit 
testimony from individuals and voluntary organizations representing any 
of the parties personally involved in the adoption process. We have 
heard reports to this effect from voluntary groups representing birth-
parents and adoptive parents who have expressed similar concerns. 
Americans who have experienced international adoption first hand as 
adoptees, adoptive parents or birthparents are in a position to provide 
meaningful and substantive feedback to the Committee. We ask the 
Committee to see these people and their organizations as the valuable 
resources they are and to solicit testimony from them. We also believe 
that the involvement of such people in the legislative process offers a 
necessary complement to the views of adoption professionals and others, 
including paid lobbyists, involved with the adoption process in 
remunerated capacities, who may have certain vested interests with 
respect to the outcomes of such process.
IV. Conclusion
     We believe the purposes of the Hague Convention are to mandate 
accountability and integrity in the international adoption process, and 
to provide minimal standards for protecting the rights of adoptees, 
including the right of adoptees to information with respect to their 
identities and heritage. S. 682 as drafted appears to contradict these 
purposes, and thus requires amendment or rejection by the Committee in 
the manner set forth in this testimony.
     We request that the honorable members of the Committee recognize 
that international adoption is a lifelong process and not merely about 
``moving'' children and babies across international borders. The 
American enabling legislation for the Hague Convention needs to reflect 
such a lifelong process, as well as to better protect the interests of 
those who become American citizens through application of its 
provisions. The best means to achieve these ends are to ensure that the 
legislation in question is consistent with the desires of the American 
people, and, in particular, those voters who are personally concerned 
with the adoption process. We stand prepared to assist you in this 
process.
            Yours sincerely,
                                        Ron Morgan,
                                       Executive Committee,
                                                    Bastard Nation.

                                      Julie Dennis,
                                     Legislative Committee,
                                                    Bastard Nation.

                                     Albert S. Wei,
                         Educational Development Committee,
                                                    Bastard Nation.
                               __________
Hon. Jesse Helms,
U.S. Senate Committee on Foreign Relations,
Washington, DC 20510.

ATTN: S. 682--TESTIMONY
    Dear Senator Helms: I previously sent correspondence by fax to both 
you and the Honorable Mary Landrieu regarding the above captioned 
legislation. To date, I've heard no response and want to take this 
opportunity to submit formal testimony to the Committee reviewing S. 
682 in an amicus capacity.
    I am a 39-year old adoptee, born in Ireland, adopted and raised in 
the United States. Moreover, I am also birth mother to an adult 
daughter born and adopted in the US. We were happily reunited in 1997 
and now enjoy a close, loving relationship that extends to her adoptive 
parents, my own family, and that of her birth father.
    Having reviewed the text of S. 682, I am gravely concerned that 
this legislation serves to violate many terms of the Hague Convention 
on Intercountry Adoption, rather than to support or implement its 
articles. The Hague is quite clear in its intent to provide all 
children adopted across national lines with the records of their birth, 
including the original birth certificate. S. 682 actually seeks to seal 
these records and exclude them from the FOIA information most 
naturalised US citizens would be able to request and receive.
    I was able to obtain my original Irish birth certificate using the 
FOIA, along with other important documents, and am grateful that this 
avenue was open to me as a US citizen. Unfortunately, this information 
would have been sealed from me under a 1984 law passed by the 
Commonwealth of Pennsylvania, where my adoption was finalised. It is a 
sad fact that most US adult adoptees do not enjoy the same rights as 
their non-adopted counterparts--that is, access to their original birth 
certificate (OBC). Only Kansas and Alaska have always had open records, 
and now Tennessee (under a very recent Tennessee Supreme Court ruling) 
will reopen theirs. Additionally, Oregon passed Measure 58 this past 
November to reopen access to the OBC, but it is currently under an 
injunction until a legal decision is reached.
    Senator, this very simple piece of documentation is the birthright 
of every other American. Why should any adult be denied this right 
simply because of the status of their birth? In the case of 
international adoption, this document and other information, such as 
medical history, are vital to the transition of children (who will, 
incidentally, one day be voting adults) in our culture. Adoption is not 
a one-time, one-step process. It isa lifetime, full-circle event that 
involves the cooperation and full disclosure of all parties 
involved*the birthparents (inasmuch as possible), the adoptive parents, 
and of course, the child.
    I urge you and the Committee to reconsider the proposed legislative 
context of S. 682 and move instead toward ratifying and implementing 
the full Hague Convention as written. Ireland is currently assessing 
ratification and I am working diligently with government and peer 
groups in that country to encourage that process. I have been active 
here in the US as well for many years in adoption issues, particularly 
relative to open records.
    I would be most happy to provide the Committee any expertise I can 
offer, background materials, or general assistance and testimony. This 
issue is very important to me and one with which I closely identify.
    Please reconsider the wording of this legislation and most 
importantly--consider the voices of those whom it most affects. To 
date, the Committee is represented largely by adoption industry 
members, with little to no representation from individuals affected 
most by the process: adoptees who will become, or are now, adults.
            Thank you for your time and consideration,
                                     Mari T. Steed,
               Pennsylvania State Director, Bastard Nation.
                               __________
                     Joint Council on International
                                       Children's Services.
Hon. Jesse Helms,
U.S. Senate Committee on Foreign Relations,
Washington, DC.
    Dear Sen. Helms: The Joint Council on International Children's 
Services thanks you for your leadership on the U.S. ratification and 
implementation of the Hague Convention on Protection of Children and 
Cooperation in Respect of Intercountry Adoption.
    Joint Council, as the largest and oldest affiliation of licensed, 
non-profit international adoption agencies in the world, has been 
closely involved with the treaty since its historic inception in 1993. 
Susan Freivalds, Joint Council's Hague Convention Policy Coordinator, 
was a delegate to the Hague Conference. Susan Cox, then president of 
the Board of Directors of Joint Council, was also a delegate in 1993.
    Since then, Joint Council has been promoting the Hague Convention 
as an important means of protecting children, and of safeguarding the 
rights and responsibilities of all those involved in adoption, We are 
disappointed that we have not been invited to testify about S. 682 on 
behalf of our 130+ member licensed, non-profit international adoption 
agencies. In the more than 20 years of Joint Council's existence, our 
member agencies have developed an impressive amount of professional 
experience, knowledge, humanitarian aid programs, and commitment to 
children and families.
    We appreciate the opportunity to submit testimony for the record on 
S. 682, and will do so.
    We are aware that speculation has been raised about Joint Council's 
commitment to accountability by agencies. Sen. Helms, in the interest 
of fairness and accuracy, we want to be sure you receive correct 
information.
    For example, Joint Council has taken a leadership role in promoting 
standards of excellence and accountability for adoption professionals. 
We take the accreditation process for agencies very seriously, not 
simply because we recognize it as a vital part of the Hague Convention 
process, but also because it provides rigorous and appropriate 
opportunities for professional accountability.
    In fact, as a result of thoughtful deliberation, in dialogue with 
other adoption-related agencies and federal entities, Joint Council led 
the development and promotion of Proposed Accreditation Standards for 
adoption agencies. (A copy, as published in our February 1997 Bulletin, 
is attached.)
    These proposed standards. developed with the Hague Alliance, were 
sent to the State Department nearly 3 years ago, as a measure of our 
commitment to accountability and service. The Council on Accreditation 
used these proposed standards in the development of their accreditation 
process for intercountry adoption providers. Many of our 130+ Joint 
Council agencies are currently going through the rigorous accreditation 
process with COA, and we expect many more will do so.
    Sen. Helms, we raise this with you as but one example of Joint 
Council's commitment to professionalism and service--well before the 
implementing legislation was introduced. Additionally, you may not be 
aware that our Education Committee has produced two extremely important 
and widely disseminated documents related to preparation and post-
placement services.
    Joint Council believes that preparation is a critical component for 
the success of any adoption. The Adoptive Parent Preparation System, 
published by our Education Committee in 1998, has been widely 
distributed as a minimum standard for preparation in the homestudy 
process. It includes thoughtful readings and an impressive resource 
guide, encouraging both parents and agencies to look at the preparation 
process thoroughly and thoughtfully.
    This year, the Committee produced ``Post-Placement Guidelines and 
Tools for Adoption Professionals,'' as an educational tool signifying 
the importance we place on quality post-placement services.
    Competence, financial soundness, and ethical behavior should be 
considered basic standards for the accreditation process. In other 
words, we are deeply committed to measures of excellence for 
professionals providing adoption services.
    That is, of course, one part of our motivation in promoting the 
Hague Convention. We also hope, as the United States moves toward the 
historic ratification of the treaty, that the adoption process becomes 
more streamlined and effective. Ensuring that children in desperate 
need can join loving U.S. families in an ethical, legal, and efficient 
manner is crucial, and we appreciate your leadership in achieving this 
goal.
    Sen. Helms, thank you for introducing S. 682, and for calling for 
hearings on the Hague Convention. It is our hope that the needs of the 
children will come first in these discussions, and that extraneous 
matters, anecdotal conjecture, or personal agendas will not impede the 
legislation's progress. We recognize your long-standing commitment to 
states' rights issues, and suggest that deference to state law, except 
insofar as it is necessary to implement the Convention, will be 
important.
    We very much appreciate your powerful recognition of the need for 
this treaty, to ensure that adoption is in the best interests of the 
child, and to establish a system of cooperation among counties to 
eliminate the abduction, sale, and trafficking of children. We look 
forward to the United States taking a leadership role In achieving 
these objectives, and thank you for your bard work on behalf of 
children.
            Sincerely,
                                     Maureen Evans,
                                        Executive Director.

                                   Susan Freivalds,
                       Hague Convention Policy Coordinator.

                                 ______
                                 
                    proposed accreditation standards
    The Hague Alliance's proposed standards for recognition as an 
agency qualified to provide intercountry adoption services and 
accredited under the terms of the Hague Convention on Intercountry 
Adoption
A.  Organization Legal Sanction, and Regulatory Compliance
    A.1  The agency is authorized by statute or sanctioned by the state 
authorities through licensure as an adoption agency to deliver adoption 
and/or Intercountry adoption service.
    A.2  For adoptive placements not finalized in the child's country 
of origin, the agency that arranged the placements will accept legal 
custody of the child, up to the finalization of the adoption, as 
allowed by state law.
    A.3  The agency is a non-profit corporation, complying with section 
501(c) (3) of the Internal Revenue Code.
B.  Governance
    B.1  The agency has a governing body responsible for establishing 
its policies, determining its programs, guiding its development, and 
providing leadership.
    B.2  The governing body is organized so that it can provide 
governance and oversight and assure that the agency is funded, housed, 
staffed and equipped in the manner required to carry out its program.
    B.3  The governing body delegates responsibility for the 
administration and management of the agency to a chief executive 
officer or executive director whom it holds account able for the 
agency's performance through a formal evaluation process which occurs 
no less frequently than every two years.
    B.4  Permanent records are kept of the deliberations of the 
governing body.
    B.5  The governing body approves agency policy and assures that the 
agency is in compliance with all applicable laws and regulations 
governing its program of services.
    B.6  The governing body members receive no honoraria or other 
compensation for carrying out their duties, other than reasonable 
reimbursement for expenses associated with service to the agency.
    B.7  The governing body assures that neither the board, volunteers, 
personnel or consultants are favored in applying for or receiving 
adoption services or other services of the agency.
    B.8  Written agency policy prohibits actual or promised payment or 
other consideration to any party directly or indirectly involved in the 
administration of an intercountry adoption service, whether acting as 
an employee or independent contractor, except for the performance of 
routine professional duties necessary to successfully complete the 
adoption process.
    B.9  No payment or other consideration is provided, promised, or 
accepted for referral of applicants to or from the agency.
    B.10  There are no improper financial interests in the assets, 
leases, professional services or business transactions of the agency on 
the part of directors, employees, volunteers, contractors, or 
consultants.
    B.11  Agency salaries and benefits are established in consideration 
of national surveys and those of similar agencies and organizations in 
its area and in the field of adoption, including intercountry practice, 
so as not to unreasonably exceed those norms.
C.  Finances and Fees
    C.1  The agency obtains sufficient financial resources to operate 
its programs at an adequate and continuing level consistent with the 
expectations contained in the Hague Convention on Intercountry Adoption 
and applicable state laws or regulations regarding intercountry 
adoption.
    C.2  The agency complies with all applicable laws or regulations 
governing fee-setting.
    C.3  The agency establishes a written schedule of fees and 
estimated or actual expenses and informs applicants at the point 
service is initiated of the conditions under which fees are charged, 
changed, refunded, waived, or reduced and the manner and timing of 
payment.
    C.4  At the time of or prior to service delivery, clients are 
informed in writing of what they will be charged for services and of 
anticipated fees and costs in the child's country of origin.
    C.5  The agency has a policy that it neither solicits nor accepts 
contributions from adoptive applicants or from persons acting on the 
applicant's behalf during the period of application or before an 
adoption has been finalized, unless such contributions are associated 
with requests made to offer past and present clients by the agency and 
to the public, provided that donation history and placement decisions 
are kept separate, insofar as possible.
    C.6  An annual budget, based upon a realistic appraisal of funding 
anticipated and the costs of operation, is approved by the governing 
body as the financial plan for allocating and managing the agency's 
receipts and disbursements during the program year.
    C.7  The agency follows generally accepted principles of sound 
financial management, has a bookkeeping and accounting system (cash or 
accrual method) that tracks all movements of its funds, demonstrates 
its fiscal accountability through an independent annual audit as well 
as regular reporting of its finances to the governing body, and meets 
the financial reporting requirements of state regulations.
    C.8  The agency can demonstrate compliance with the fund raising 
requirements of the states in which it solicits donations.
D.  Administration and Management
    D.1  The executive director is qualified by education and/or 
adoption services experience and the management skills sufficient to 
assure effective use of the agency resources, delivery of agency 
services, and coordination of the agency's services with those of other 
agencies in the community.
    D.2  The executive director:
          <bullet> delegates responsibilities only to personnel who are 
        qualified by professional education arid/or experience to 
        assume them;
          <bullet> has a written plan for delegation of authority in 
        his or her absence.
    D.3  The agency has a board.approved manual of policies and 
procedures and a manual of personnel policies which serve as guides to 
the governing body, personnel and others, as appropriate.
    D.4  There is a written job description for each agency position, 
including that of executive director, and persons retained are 
qualified in accord with the job descriptions.
    D.5  The agency's policies specify clearly the conditions under 
which personnel are employed and protections against favoritism or 
undue influence in employment practices.
    D.6  The agency actively recruits, employs, and promotes qualified 
personnel broadly representative of the community it serves, and 
administers its personnel practices without discrimination.
    D.7  The agency maintains a secure and confidential system of 
personnel records which include all necessary documentation of the 
hiring, evaluation, and other employment-related processes at the 
agency.
E.  Qualifications and Training of Supervisory and Service Personnel
    E.1  The agency retains social service supervisory personnel with 
prior professional experience in providing family and children's 
services and who have:
          <bullet> a master's degree from an accredited program of 
        social work education; or
          <bullet> a master's degree from an accredited program in 
        another human service field; or
          <bullet> a state social work license at the master's degree 
        level.
    E.2  Direct social service personnel have at least a bachelor's 
degree from an accredited program of social work education or in 
another human service field and prior experience in family and 
children's services.
    E.3  Supervisory and direct social service personnel possess 
knowledge of intercountry adoption service, including knowledge of 
issues of:
          <bullet> separation and loss from family of origin;
          <bullet> bonding to an adoptive family;
          <bullet> development and life cycle phases;
          <bullet> post-traumatic stress disorder;
          <bullet> identity formation;
          <bullet> cultural diversity and cross-cultural issues;
          <bullet> INS rules and regulations.
    E.4  Professional personnel providing intercountry adoption service 
hold the license appropriate in their state to their professional 
discipline, if applicable, and subscribe to the code of ethics of the 
professional organization for their discipline.
    E.5  All new personnel providing intercountry adoption service are 
provided with orientation and in-service training in inter-country 
adoption service, which include:
          <bullet> the agency's goals, services, policies and 
        procedures;
          <bullet> a the cultural diversity of the service population;
          <bullet> respect for client confidentiality;
          <bullet> the lines of accountability and authority within the 
        agency; and
          <bullet> the agency's ethical and professional expectations.
    E.6  Direct social service personnel receive at least 10 hours of 
training relevant to the field annually.
    E.7  Either the executive director, supervisor, or the direct 
social service provider has direct experience in the professional 
delivery of adoption services.
F.  Quality of Services
    F.1  The agency engages in systematic planning and evaluation of 
its services and holds itself accountable for the quality of the 
services it provides.
    F.2  The agency plans for manages, maintains necessary information 
about, and evaluates its programs effectively.
    F.3  The agency provides to its applicants and clients the 
opportunity and means to lodge complaints or appeals when decisions 
concerning them or services provided them are considered 
unsatisfactory.
G.  Generic Service Delivery Standards
    G.1  The agency maintains intake procedures which assure that 
appropriate and timely attention is paid to those requesting service.
    G.2  The agency informs applicants for service about its 
eligibility criteria, the services which are available, and the mutual 
rights and responsibilities of both clients and agency.
    G.3  The agency has written procedures for accepting clients for 
initial screening and for placement on a waiting list.
    G.4  The agency has the capacity to provide, either directly or in 
coordination with other providers acting on behalf of or under the 
responsibility of the agency:
          <bullet> intake screening;
          <bullet> comprehensive assessment;
          <bullet> development of a service plan;
          <bullet> implementation of the service plan;
          <bullet> coordination of services with other necessary 
        providers; and development of a plan for ongoing services as 
        needed.
    G.5 Client records:
          <bullet> are maintained in a confidential and secure manner;
          <bullet> contain the essential information deemed necessary 
        to provide the service; and
          <bullet> comply with legal regulations, including regulations 
        with regard to record retention.
    G.6  The agency has procedures addressing:
          <bullet> protection of the privacy of current and former 
        clients;
          <bullet> legitimate future requests by former clients for 
        information, particularly for that which may not be available 
        elsewhere; and
          <bullet> disposition and future preservation of client 
        records in the event of dissolution of the agency.
H.  Adoption Service Standards
    H.1  The agency identifies the child as the primary client of the 
service and seeks to provide mutually beneficial relationships in an 
adoptive family to children whose birth parents are unwilling or unable 
to provide care for them and who are legally free for adoption.
    H.2  Services for adoptive applicants are provided either directly 
or in coordination with other providers acting under the responsibility 
of the agency or in coordination with other accredited bodies and 
include:
          <bullet> orientation to intercountry adoption, its meaning, 
        the adoption process, agency procedures, and the 
        characteristics of children needing adoption;
          <bullet> disclosure of the general criteria by which the 
        agency determines eligibility for adoptive parenthood;
          <bullet> determination of the ability of the adoptive 
        applicants to meet the needs of an internationally adopted 
        child and preparation of a home study report;
          <bullet> preparation for parenting and placement of an 
        internationally adopted child;
          <bullet> obtaining assurances that at placement the child is 
        legally free for international adoption;
          <bullet> following standard procedures to obtain assurance 
        that the child is or will be authorized to enter and reside 
        permanently in the United States;
          <bullet> full disclosure of all information available to the 
        agency regarding the child's medical and social history as part 
        of the referral information; and assurance that the adoption of 
        the child is finalized.
    H.3  The agency collects and exchanges information about the 
situation of the child and the prospective adoptive parents, so far as 
is necessary to complete the adoption, and ensures that information 
held by the agency concerning the child's origin, in particular the 
identity of his or her birth parents, as well as the medical history is 
preserved.
    H.4  The agency provides prospective parents appropriate time and 
support to consider a child's referral.
    H.5  The agency provides counseling to prospective adoptive parents 
that includes assistance in understanding the child's cultural, ethnic, 
or linguistic background and the impact of leaving familiarities and 
surroundings, as appropriate to the age of the child.
    H.6  Post-placement services include:
          <bullet> providing post-placement reports on the progress of 
        a child, when requested by the country of origin and when not 
        in conflict with the law or public policy of the United States 
        or of the state of official residence of the adoptive parents 
        or parent;
          <bullet> counseling or referral to counseling for adoptive 
        parents and the adoptee, when an adoptive placement is in 
        crisis;
          <bullet> re-placement of the child in the event of disruption 
        of the adoptive placement before finalization of the adoption; 
        and
          <bullet> assurance that the child or his or her 
        representative has access, under appropriate guidance, to 
        information regarding the child's origins that is held by the 
        agency, insofar as permitted by laws governing the agency's 
        operations, the laws of the child's country of origin, and the 
        agency's own policy in this regard.
    H.7  Post-adoption services are available, as appropriate under the 
laws of the child's country of origin and the United States, upon 
request by members of the adoption triad, and include:
          <bullet> delivery of services by persons with prior 
        experience in post-adoption service and who are knowledgeable 
        about the legal, social, cultural, an, emotional issues 
        pertinent to adoption;
          <bullet> provision of information sought by adoptees about 
        their origins, as permitted by the laws of the child's country 
        of origin, the laws governing the agency's operations, and the 
        agency's own policy in this regard;
          <bullet> post-adoption reports on the progress of the child 
        when requested by the child's country of origin and when not in 
        conflict with law or public policy of the United States or of 
        the state of official residence of the adoptive parents or 
        parent; and
          <bullet> post-adoption counseling on family adjustment and 
        adoption issues or referral when requested by the family.
I.  Other Service Standards
    I.1  The agency cooperates with the central authority in all 
matters related to compliance with the terms of the Hague convention on 
intercountry adoption.
    I.2  The agency provides service to applicants seeking to adopt a 
child from another country on the same basis and with no greater delay 
than to those applicants seeking to complete a domestic adoption, if 
the agency places children both domestically and internationally.
    I.3  Adoption studies done by or under the supervision of the 
agency meet agency requirements and applicable state standards and 
comply with the minimum standards established for international 
adoption studies by the United States Immigration and Naturalization 
Service.
    I.4  The agency informs families about how to obtain citizenship 
for their adopted child.
    I.5  The agency does not allow preferential placement decisions 
regarding children the agency might refer for adoption to agency 
directors, employees, contractors, or consultants who are adoptive 
applicants.
                               __________
To: Senator Jesse Helms, Chairman,
Senate Foreign Relations Committee.

RE: S. 682

    We hired Kirk Rector an American Attorney living in Moscow, Russia. 
He was employed by Global Adoption in Global Adoption Agency out of 
Sheridan, WY. They are still in business after taking money from very 
many families. Our story is below.

          1. Originally signed up with Kirk Rector who basically 
        couldn't tell the truth! His stories changed daily about our 
        children and he didn't check things out regarding databank, 
        relinquishment etc. He wasted 6 months of our time and came up 
        with nothing but 4 failed referrals!
          2. Two days before we went to Russia, Ivan Volsky wrote 
        demanding more money and changing his fee due to the fact that 
        he had not been paid the agency fee by another couple who had 
        adopted from Barnual (who had been totally disgusted with 
        Global's performance.)
          3. Got to Moscow * * * no-one to meet us. Ivan Volsky came 
        late.
          4. As soon as he met us, he asked for more money than had 
        been quoted in the contract. From here on in, the ``money 
        talk'' started!
          5. Nick Volsky (Ivan's brother and helper) argued with us 
        that we had only requested one child! From August 96, we 
        requested two children under 4, twins or siblings.
          6. Quoted $125 per day for expenses. When we got there they 
        tried to hit us for $250 as Ivan said, ``this money which had 
        been quoted was totally insufficient''. Nice of him to tell us 
        AFTER we arrived!
          7. We were told (at the last minute) to give $1,000 donation 
        to the orphanage. We offered the money, but were TOLD to buy a 
        computer!
          8. We bought a computer ($1,000), gave $600 of new and used 
        clothing to the children (after we'd checked with Ivan that 
        used clothing was acceptable), toys and numerous other gifts. 
        We were told the day AFTER the court hearing when the Judge, 
        the Head of Adoptions and the Orphanage Director had said YES 
        to the adoption that this was insufficient and we'd have to pay 
        another $1,000 or else ``Global wouldn't be offered any other 
        children for the parents who were waiting and we do still have 
        to get your papers translated and your passports ready!'' We 
        objected to this blackmail! We were told that the orphanage 
        director had been insulted that we had given her 2nd hand 
        clothing and that ``ALL the staff (all 120 of them) in the 
        orphanage, were insulted and furious with us! We had called 
        Russia several times to check things before we took our gifts 
        over. We specifically asked if nearly new clothing was 
        acceptable and we were told yes. The used clothing we gave, by 
        the way, was in excellent condition! We refused to pay the 
        $1,000 as by this time, we didn't trust either Ivan or Nick 
        Volsky and we ended up only paying $250. We don't believe that 
        it went to the Orphanage Director! Ivan then changed his story 
        to say that we should be paying $2,000 per child. Again, none 
        of this was even mentioned before we left for Russia.
          9. When we arrived at the host family's home at 7 a.m. one 
        morning, they never knew we were coming! When we arrived at 
        their home one evening at 9:30 p.m. with two three year olds, 
        they never knew that either. When we paid extra for the 
        children's food (another $20 per day) they didn't know what to 
        give them or when to give it! We relied on Nick to translate to 
        them as they spoke no English and our Russian was limited to 
        Teddy Bears and Dolls talk! Some mornings we waited two hours 
        for the kid's breakfast and when it was ready, it wasn't what 
        we had asked for. We only asked for the same as in the 
        orphanage, porridge and bread. Eggs, cabbage, potatoes, carrot 
        coleslaw and curds came! Oh I forgot the pure cow's milk which 
        gave the kids terrific diarreha. There was constant arguing in 
        the Host family's house due to the confusion and due to the 
        fact that the woman was so old and kept trying to give us other 
        things to eat which the kids hated, and really she shouldn't 
        have been undertaking such work.
          10. Every day between 15 and 20 times, we'd hear about the 
        subject of money from Nick and Ivan. How little they had, how 
        Joyce Volsky never gave them enough, how they couldn't possibly 
        do the adoption for us on this pittance of money unless we gave 
        them more etc. etc. etc. We got so sick of it that on the day 
        they blackmailed us into giving them more for the orphanage, we 
        told them to shut up about money! EVERY DAY IT WAS THE SAME 
        STORY!! It really wasn't what we needed and we knew it wasn't 
        true!
          11. Ivan and Nick argued constantly and we mean constantly! 
        Mostly about money. Surprise, surprise and how they should ask 
        us for more! When we handed over the daily expenses, Nick would 
        turn on Ivan and give out yet another lecture in Russian. When 
        we asked Ivan what it was about, he told us that again, Nick 
        bad asked him to get more money from us and tell us that what 
        we were paying was not enough! EVERY DAY WAS THE SAME STORY! 
        Could you have put up with this?? Going to Vyksa by car, they 
        argued most of the way too! It was a great trip!!!! I don't 
        think!
          12. Paid for translator, Driver and mid day meal every day 
        and some days we were left without them as Nick or Ivan had 
        other things to do, like going back to the orphanage to pick up 
        papers they forgot to get after the court hearing. So sometimes 
        we had no driver, translator or lunch! Good job we took cuppa 
        soups with us! Of course, no refund was offered here!

    There were many problems with Global and I think now they are too 
many to mention. All we can say is that we would NOT recommend them to 
anyone. CERTAINLY NOT! They are unprofessional and certainly do not 
have their act together. The constant harassment over money issues and 
stress brought on by it was just too much. I couldn't bear to talk to 
Nick Volsky for two days due to how angry I was after we were hit for 
another $1,000! It was a very difficult situation as we relied heavily 
on them due to our situation in Russia not knowing how to speak proper 
Russian or being able to get around. (This, by the way, is the first 
country we've been in where we've found ourselves in this situation and 
we've traveled a great deal!)
    We do not have a problem with the Russian system or the people or 
the ``bribery/gifts'' that we had to take. What we do have a problem 
with is when the people we reply so heavily on in a strange country try 
to sting us for every penny they can and they know we are at their 
mercy!
    It has left us with a bad impression of Ivan and Nick Volsky. What 
a shame our adoption was messed up firstly by Kirk Rector and then by 
these cowboys!
    We are happy though that we brought Artiom and Yelena home, 
although we are so sure that the process would have been much smoother 
with another agency.
    The silly thing is that there is a saying ``you only get what you 
pay for''. Under the contract we signed with Kirk Rector, we only paid 
$12,000 for the two unrelated children. We should really relate the 
services rendered to the money paid!
    The only advice we have to people whom is considering using Global 
Adoption Services is DON'T! Unless you want your entire trip to be 
blackmail and talk of hardship and moaning from the coordinators and 
you want to empty the entire contents of your bank account into their 
pockets. . . . please re-think! We only stayed with them as Kirk Rector 
had wasted so much of our time that our seals expired within the month 
and we had already chosen a boy from the video another client had. It 
was just pure luck that a girl came along too.
    What a saga, Fm sure as the happy times start with the children, 
the bad memories of Global will fade!
    Here's hoping!
             Nigel, Joyce, Yelena and Artiom Ryder,
                          The Ryder Family on 7th May 1997.
                               __________
                               Randie Ostroff Sass,
                                                 Akron, OH.
Senate Foreign Relations Committee.
    Dear Chairman Jesse Helms, I understand that the senate committee 
on foreign relations will be meeting next to discuss S. 682.
    Please let me add my voice to be heard. We started our ``journey'' 
in January 1996. We had not chosen an agency to work with, but I knew 
that the first step would be our home study. Our social worker tried to 
help us find agencies that dealt with overseas adoption. We did check 
into those, but it was at a meeting that I was given the email address 
for a list of people in various stages of Russian adoption. It was 
through this wonderful group of people that we learned more than anyone 
had ever told us. One of the parents maintains a list of agencies and 
people willing to talk about them. We originally were going to go with 
an Ohio agency, but later changed because of cost and they were not 
giving us the guidance they claimed they would. Through the list we 
went with Global Adoption Agency out of Sheridan, WY. They were working 
with an American lawyer in Russia, and if you were doing all your own 
paperwork and were ready, they would save you money, etc. That was 
January 1997. We followed their procedures and were told that when 
Joyce Sterkel-Volsky (owner of Global Adoption) went to Russian in 
February, she would bring back our referral. I went out and bought 
$300.00 of new clothing as our gift to the orphanage in my excitement. 
February and March came and went. We were told that Joyce was delayed 
coming home. Then we received a letter stating that Global had severed 
their relationship with this American Lawyer. We were welcome to stay 
with Global. Believing that we were OK, we chose to remain. When Joyce 
went back in April, she brought nothing. She went again in May and we 
were assured that she would return in 2 weeks and we would have our 
referral. Joyce stayed until June and returned something like 2 days 
before our homestudy was to expire. There was no referral and we had to 
scramble to keep our paperwork current. Then we received a letter 
stating we had not paid that part of our fees to receive a referral [we 
hadn't] and would not get a referral until paid. I changed agencies one 
week later. Traveled one month later to Russia and brought our Ben 
home. We did write to the WY government and never heard from them. Even 
checking out references, etc., we still lost money. Plus each agency 
had different state requirements that set us back each switch [more 
costs, more paperwork]. Your help would be appreciated in developing 
consumer protection for adoption.
            Sincerely,
                               Randie Ostroff Sass.
                               __________
Senate Foreign Relations Committee,
Chairman: Jesse Helms.

RE: International Adoption and Agencies

    We support S. 682 and would like to submit a brief account of our 
experience for your consideration. My husband and I adopted our son 
from San Luis, Mexico through the agency Christian World Adoption. We 
entered the country on November 8, 1998 and I arrived home with our son 
on January 20, 1999. Repeatedly during our stay in Mexico, our agency's 
business professionalism and coordination disappointed us. As this was 
our first adoption, we had no idea what to expect and had to rely 
entirely on CWA to communicate and facilitate the process. Upon 
returning home we experienced only further frustration when there was 
no recourse for the failings of the agency. We submitted numerous 
letters attempting to meet and discuss our experiences with the 
director of the agency, Tommy Lee Harding, only to receive no answer. 
We have attached a copy of one our letters detailing some of the 
problems we encountered. We also contacted Virginia Rabenel about the 
agencies accreditation, and spoke with countless others only to learn 
that there is no system in place to address the concerns of adoptive 
parents with any efficiency or expediency. It is imperative that those 
involved with adoption be accountable. We are only one family, one 
adoption case among thousands, but many have had experiences as bad or 
worse than ours. With S. 682 you can make a difference and improve the 
system for those that follow.
            Sincerely,
                       Kathleen and Roger Anderson.
                                 ______
                                 
      letter sent to robert harding by kathleen and roger anderson
    Robert Harding
    Wando, South Carolina 29492
          Dear Robert Harding, I am writing regarding the adoption 
        process of our son Jacob. As discussed m my phone conversation 
        with Bob in early March, I will attempt to explain and document 
        the problems we experienced while suggesting possible 
        alternatives or solutions. To date an opportunity to share our 
        experiences has not been available; this may contribute to some 
        confusion about what transpired. I anticipate that we will need 
        to have further dialogue to assure fill comprehension of our 
        experience.
          We contacted our travel agent, Tuesday November 2nd, after we 
        received the phone call from Jo-Ann with our travel date of 
        Sunday November 8th. We made arrangements for our itinerary to 
        be faxed for approval. Prior to confirming these arrangements 
        Jo-Ann and I discussed flying into Mexico City vs. Monterrey on 
        our way to San Luis. She said she would check with Maria Hanley 
        but believed either entry point was fine. We never heard 
        otherwise. Later, approximately 5 days after our arrival, we 
        found out we should have entered via Mexico City and filed the 
        petition to adopt before coming to San Luis and taking physical 
        custody of Jacob. Six weeks into our stay in San Luis we 
        learned we must fly to Monterrey before Ciudad Juarez to apply 
        for our visa.
          The confusion about the steps in the process and where these 
        steps needed to be completed were very unsettling for a couple 
        who wre experiencing adoption for the first time. As adoptive 
        parents you put your trust in the agence to guide you safely 
        and efficiently through the complicated maze. Mistakes like 
        those mentioned above are very damaging to that trust and 
        expensive, as additional costs are incurred for flights and 
        itinerary changes.
          The problems that occurred with our itinerary are easily 
        preventable. Every case should have a proposed chain of events 
        including the steps involved, tentative dates for completion, 
        and the cities in which each of these will be accomplished. 
        These steps should be verified by phone with both Mexican and 
        American officials to assure that the most up to date and 
        accurate information is being given to adoptive parents. That 
        would help assure that no adoptive parent is paying for 
        assumptions, but rather for experienced individuals with a high 
        level of experience, knowledge, and professionalism.
          Another problem that occurred repeatedly was with 
        communication. Even the most basic courtesy of returning a 
        telephone call, or calling back as promised did not happen. On 
        many occasions we were told we should wait for a call that 
        never came or comes hours or even days later. This did not only 
        occur with the affiliates in Mexico but also those that worked 
        out of the South Carolina office. Again this was another aspect 
        the continued to deteriorate the trust we had in Christian 
        World Adoption and the agency's ability to successfully 
        navigate us through this complex process. There is no way to 
        assure ourselves that the employees of the agency are courteous 
        and respectful however it is obvious that training is needed in 
        this area from an outside source. There are many wonderful 
        workshops, inservices, and continuing education courses 
        available to assist the employees in extending their knowledge 
        of customer service. Our experiences not only recommend this 
        but also necessitate this training immediately.
          Throughout our stay in Mexico we were continually told things 
        were moving and we would be leaving shortly. Now, having 
        experienced the entire process it is clear that many of the 
        steps took several days to execute. However we were told to 
        reserve seats almost daily. Flight reservations were changed 
        twenty two times from early December until our departure on 
        January 19th. The emotional cost of believing, anticipating, 
        and preparing to travel for both my Mother, Roger and I is 
        inconceivable for anyone not experiencing it first hand. As a 
        new family being separated for such a long time is by itself 
        difficult but always a possibility when completing a foreign 
        adoption. However, the extensive miscommunication concerning 
        the progress and the adoption process exacted an unnecessary 
        emotional cost.
          It is our families' belief that throughout the process 
        situations arose that for varied reasons were very unfamiliar 
        to CWA's personnel. We feel it would have been beneficial to 
        all involved if that had been admitted rather than to 
        communicate assumptions. Deadlines should not be given or dates 
        set when it is impossible to ascertain any certainty. Most of 
        all it should be ok to say we don't know anything and we are 
        still waiting. Frustration occurs when something is promised 
        and then repeatedly taken away.
          Daily communication is not always a possibility. We feel that 
        it is essential for the affiliates in Mexico and the employees 
        in South Carolina to communicate efficiently and daily. 
        Whenever possible the adoptive parents should be involved in 
        this communication and be receiving updates. Our hotels all had 
        fax machines and it would have been both efficient and 
        economical to utilize these to communicate the process. I am 
        aware that emails and phone calls happened daily between Mexico 
        and South Carolina but days would pass without knowing what if 
        anything had transpired. Faxing would give everyone a hard copy 
        to read from and keep everyone on the same page.
          The misrepresentation to the judge on our behalf must be 
        mentioned. After successfully completing all of the adoption 
        requirements in the homestudy and feeling confident of our 
        ability to provide a loving and secure home for a child we were 
        denied the opportunity to share ourselves with the Judge. A 
        preposterous story was told that was blatantly unsubstantiated 
        by our dossier. We were completely unprepared for this and 
        nowhere was this mentioned in the adoption planner. When we 
        questioned the ethics with CWA we were told two different 
        stories. Maria Hanley claimed no knowledge of the fabrications 
        that had transpired while Mr. Harding assured us that this 
        happens all the time. Again as adoptive parents living in a 
        foreign country whom do you believe?
          Finally as Jacob's adoption continued to spiral out of 
        control and became more confusing, extended, and expensive we 
        received less contact and support from CWA. Repeatedly attempts 
        to pacify us were made utilizing Jacob as the source for 
        pacification. Apologies were not given and responsibility was 
        not taken for the extensive miscalculations, miscommunication, 
        and maltreatment.
          We feel that our experience necessitates a sincere apology as 
        an acknowledgement of the failure to provide the quality of 
        service promised. Also we would like to see steps taken to 
        improve the Mexican program so that this does not happen to 
        other adoptive parents. Finally we are requesting a financial 
        reimbursement for the extensive additional costs incurred. We 
        are looking forward to dialoguing about our experience and hope 
        this brief summary helps you to better understand some of what 
        transpired.
                Regards,
                       Kathleen and Roger Anderson.
                               __________
                                       Steven F. Whiteside,
                                      Chesterfield, Virginia 23838.
Hon. Jesse Helms,
Chairman, Senate Foreign Relations Committee.

RE: International Adoption Agencies

    Our daughter and her husband, Kathleen and Roger Anderson, have 
submitted a detailed summary of their multiple and continuous problems 
with Christian World Adoption from the time they arrived on-site in 
Mexico until arriving home some two and a half months later.
    Meantime, back in Virginia and Maryland, though not enduring the 
daily emotional strain, I also had first hand experience with Christian 
World Adoption and would like to recount one episode that exemplifies 
their professional ineptness.
    It was Wednesday, November 25, 1998, the day before Thanksgiving. 
There was an urgent need to contact Christian World Adoption because 
due to their lack of communication with our daughter and her husband, 
it was unclear whether the adoptive father needed to stay in Mexico for 
a procedural question, or return home to Maryland and to work. By that 
Wednesday there was no word forthcoming from Christian World Adoption, 
and his flight plans called for him to fly back the next day, 
Thanksgiving. I spoke with our daughter Tuesday evening, learned of the 
situation, and immediately called Christian World Adoption in Wando, SC 
, on Wednesday morning. To my shock and dismay, no one answered. They 
had elected to close the office a day early for the Thanksgiving 
holiday. I then called Tommy Lee Harding's home and received a voice 
mail message. Now I was becoming desperate. I then redialed the office 
and listened to the voice mail menu of staff. By calling three times 
and replaying the list I generated five or six names. I dialed 
directory assistance in South Carolina trying to match people from my 
list with names and addresses in the immediate area, all to no avail. I 
never spoke to anyone.
    Here you have a situation, in which clients are on site in a 
foreign country, with questions, concerns, maybe problems, that require 
professional help, and you have no way to communicate with anyone at 
headquarters. They just decided to close and take an extra day off!
    I wanted to include this cameo as just one more bit of evidence to 
consider when listening to the parade of expert witnesses you will hear 
from in the adoption agency industry.
    Thank you.
            Respectfully submitted,
                               Steven F. Whiteside.
                               __________
To: Senate Foreign Relations Committee,
Chairman, Jesse Helms,
Date: October 3, 1999.

RE: International Adoption

    We support S. 682 and would like to submit our story to you for 
consideration when you are considering S. 682.
    My name is Lydia Pfeffer and I am an attorney who has attempted 
three adoptions and successfully completed two adoptions from Russia. 
The purpose of this letter is to discuss the need for a consistent and 
effective way to regulate the practice of international adoption. A 
common misconception amongst prospective families is that if an agency 
is licensed there is some protection against fraud, deceit, and other 
gross misconduct. Nothing is further from the truth we have found. When 
we confronted the licensing division in California with evidence of 
fraud from several families their response was it was a civil matter 
and they were of no help. It is financially and logistically 
prohibitive for an out of state family to locate an appropriate 
attorney to handle a ``wrongful adoption'' case from out of state. The 
result over and over is the adoption agency wins and the consumer 
loses.
    We hired an agency in California to adopt a 12 year old Russian 
girl. We went to Russia to meet her and the child agreed to the 
adoption. Consent is required by a Russian child 10 years and older. 
When we returned 2 months later to go to court the child said she had a 
boyfriend at the orphanage and she didn't want to be adopted. When we 
returned to the states and asked for our money back (because the 
adoption failed due to no fault of our own) the agency director said, 
``we never promised you a child'', and kept approximately $5000.
    The stories are endless of families being lied to regarding known 
medical conditions of the children, undisclosed fees that surface alter 
the contract is signed, and other deceitful acts. We ask that adoption 
agencies be supervised and held accountable for their unethical and 
illegal practices by their licensing division, state attorney general, 
or other regulatory office.
            Respectfully submitted,
                                 Lydia Pfeffer, JD.
                               __________
Chairman Jesse Helms,
U.S. Senate Committee on Foreign Relations,
Date: September 30, 1999.

RE: International Adoption

    We support S. 682 and would like to submit our story to you for 
consideration when you are considering S. 682. It is imperative that 
adoption agencies, lawyers and other child placing agencies be held 
responsible for their actions. There should be recourse for families if 
an agency is found to be unethical, irresponsible and or fraudulent.
    Our Story:

          We adopted a 12 year old girl through Nightlight 
        International Adoptions, Inc. of CA, in October 97. We had 
        heard good reports and were confident that all would go well 
        since Nightlight seemed to have such a good track record and 
        informative psychological reports.
          We have 3 other children adopted from other countries and are 
        experienced parents. Due to where we lived at the time (outside 
        US in a remote locale), we were clear about what we could and 
        could NOT deal with post placement. No services, limited school 
        resources, etc.
          Despite very specific questions prior to picking up Inga, 
        some crucial facts were NOT disclosed to us. We were shocked to 
        learn that she had been placed with 2 Russian families and 
        brought back to the home. In addition, she could not read or 
        write Russian (at the age of 12!). She was a smoker! AND, she 
        was a habitual runner. She had a history of being picked up by 
        the police and brought back to the home. Had we known any one 
        of these facts prior to traveling, we would not have proceeded. 
        Inga was not appropriately prepared for us to pick her up, 
        either. The workers feel that adoption is in the ``best 
        interest'' of the child and apparently avoided the necessary 
        emotional preparation for fear of tantrums or resistance from 
        Inga.
          To make a very long story short, our family was devastated 
        and we struggled to make things work for almost a year. We 
        traveled back to the states in the summer of '98 and placed 
        Inga with another family willing to work with her. She went 
        through 6 families and 2 hospitalizations. All of these 
        families were older, more experienced, and very successful at 
        parenting ```difficult'' and ``hard to place'' older children. 
        None of them could parent her. We researched all available 
        resources in the US. We accessed family therapy, special 
        education, post adoptive support groups, and a variety of 
        specialists. We reached the lifetime limit on our health 
        insurance coverage. We contacted the Russian judge in an 
        attempt to dissolve the adoption. We pled with Nightlight to 
        take some responsibility.
          We are currently trying to release our parental rights and 
        make Inga a ward of the state so she can get the treatment she 
        needs which we cannot provide. We are truly emotionally, 
        physically and financially depleted. This has been a tragic 
        story for us, many other people, and most sadly, Inga. 
        Furthermore, Nightlight has been reluctant to admit ANY 
        responsibility whatsoever for their neglect in accessing 
        pertinent, easily available information. Nightlight has even 
        stated that they can't be responsible for families who are 
        ``not satisfied'' with the children they adopt. To be sure they 
        have made other successful placements, but in our case they 
        were neglectful in obtaining very essential facts, and now, 2 
        years later, Inga is in a residential psychiatric treatment 
        center with a diagnosis of ``major depressive disorder, 
        psychosis, and post traumatic stress syndrome.'' Their 
        recommendation is 9 more months of residential treatment and 
        then a group home.
          Clearly, we would have avoided much of this heartache and 
        tragedy if consumer protection laws pertaining to international 
        adoption had been in place. I would be happy to speak with you 
        in more detail if you would like.
                Sincerely,
                                 Cilia J. Whatcott.
                               __________
                              Mary Mooney, Founder,
                             Adoption Advocates of America,
                                       Consumer Protection Network.
RE: S. 682

    Senator Helms we would like to take this opportunity to submit 
testimony for the senate hearing on bill S. 682.
    Our organization started as a support group for families that had 
experienced failed or difficult adoptions. We found that most of our 
experiences were due to unethical and unprofessional adoption agencies, 
lawyers and or facilitators. We all felt that our cases should have 
been taken on by the Attorney General of our state. We all felt our 
justice system failed us. Many of us had hired agencies licensed by 
their state. This gave us a false sense of security. Many of us found 
out that even if an agency is licensed by the state it does not mean 
the agency is a good agency. We found that most state adoption 
licensing divisions don't even keep up with complaints or even 
investigate complaints.
    Many agencies have broken criminal and civil laws, yet there is no 
one to prosecute these agencies. The foreign adoption business is a big 
business. We feel that many American agencies are taking advantage of 
unsuspecting families that are often desperate to adopt a child. These 
agencies know that they have the upper hand. They have the children and 
their client's money; therefore they call all the shots. They know that 
all they have to say is jump and the families will ask how high.
    In light of the cases, which have been sent to you by some of our 
members, grass-roots consumers of adoption services, we strongly 
support S. 682. We believe your excellent legislation could be even 
better if it included all or part of legislation introduced by 
Representative Trafficant.
            Sincerely,
                                       Mary Mooney.

    Our Story:

          We spent over 10 years of trying to adopt in North Carolina 
        through our County Dept. of Social Services and The Children's 
        Home Society. We completed a homestudy and followed all the 
        rules. Only after 2 years did we realized that it would be 
        almost impossible to adopt a child this way. We turned to 
        international adoption in May of 1995. We researched 
        international adoption and found it to be very popular and 
        there seemed to be many success stories. We looked all over the 
        US for an adoption agency. We wanted to deal with some one 
        local. Finally we found a licensed NC agency and felt very 
        happy with them. This agency made us feel that they would 
        personally be involved in every aspect of our adoption. They 
        assured us all would work out within 6 months and we would have 
        a healthy little boy in our home very soon. They showed us 
        pictures of cute children and assured us they had many children 
        to choose from.
          What was supposed to be a wonderful experience turned in to 
        our worst nightmare. What seemed to be an organized agency 
        turned out to be very unorganized agency. Nobody seemed to ever 
        know what was going on, what papers we needed or when we would 
        travel. When we did travel to Russia the child was not 
        available for us to adopt. What we found was the US agency had 
        hired a very unethical and ``known'' adoption facilitator that 
        had a bad reputation all over the US.
          The agency felt they had done nothing wrong. They would not 
        help us to recoup our money or would not even offer to assist 
        us in another adoption. Or worse, they did not even apologize. 
        We found the NC Adoption Licensing Division to be no help. 
        Local law enforcement was no help. The NC Attorney General 
        stated it was a matter to be handled by the NC Adoption 
        Licensing Division. The Licensing Division stated they have no 
        way of keeping up with complaints and felt it was not their 
        place or job to investigate complaints. They also stated that 
        since the adoption was an international adoption that would not 
        come under their care anyway. There was no one that would even 
        listen to our story.
          Because of our problems I went to the Internet to seek 
        support. I found tremendous support and found many other 
        families that had similar problems through out the US. I 
        started a web page at http://www.ncplaza.com/aaguide/ to give 
        people a place to voice their opinions of their adoption agency 
        or worker. Since then I have had such a large response I moved 
        the site to a new address http://www.theadoptionguide.com. I 
        make no money from this site but spend countless hours E-
        mailing with devastated families that are in need of emotional 
        support. I only wish I had the knowledge to give them the legal 
        advice they need.
          State adoption licensing divisions do not have any legal 
        authority even if they had the resources to investigate a 
        complaint they do not have any authority to bring a law 
        complaint against an agency.
          What I have seen over the years is adoption agencies open and 
        close at the drop of a hat. They close one place and move to 
        another state to open again under another name. Many agencies 
        change states and names often. Some agencies don't even try to 
        get licensed and are not found out unless a family reports 
        them. And if they are called on by state licensing division 
        they just close up and move to another state.
          In our case we were lucky to find an attorney that would take 
        our case. We filed a law complaint against this agency for 
        fraud and unethical practices. After 2 years we settled out of 
        court. We never recovered any of the $7,800 that we paid to the 
        facilitator. As part of the settlement we are not allowed to 
        speak about this agency.
          I have found that if a family is able to find an attorney and 
        they can afford to pursue legal action the agencies will either 
        settle out of court or the family will get a judgment against 
        the agency that is usually never paid. Sadly most of the 
        stories I hear have a very sad ending. Because these families 
        have lost so much money they do not have the money to try and 
        adopt again. Many have borrowed against their homes or from 
        family members. This could be avoided if the adoption industry 
        were more regulated and accountable for their actions.
          With S. 682 you have the opportunity to reform the adoption 
        laws to protect innocent families.
                Respectfully,
                                    Mary M. Mooney.

                               <greek-d>


</pre></body></html>
